<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                         TUESDAY, JUNE 2, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:29 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Cochran, and Bond.

                         DEPARTMENT OF DEFENSE

                         DEPARTMENT OF THE NAVY

                        Office of the Secretary

STATEMENT OF HON. RAYMOND MABUS, SECRETARY OF THE NAVY

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. This morning the subcommittee meets to 
receive testimony on the fiscal year 2010 budget request from 
the Secretary of the Navy, the Honorable Raymond Mabus; the 
Chief of Naval Operations, Admiral Gary Roughead; and the 
Commandant of the Marine Corps, General James Conway. I'd like 
to welcome each of you and extend special greetings to the 
Secretary. This is your first appearance before us.
    For fiscal year 2010, the President has requested $156.4 
billion for the Navy and the Marine Corps, plus an additional 
$15.3 billion in supplemental wartime costs. Although the 
Secretary of Defense has proposed a number of terminations and 
delays in major weapons systems, relatively few of these 
decisions would have an immediate impact on the Navy or Marine 
Corps. In fact, the $9 billion in growth in the Navy budget is 
50 percent greater than the growth in the Army and the Air 
Force combined.
    The budget supports many Department of Navy priorities, 
including truncating the DDG 1000 in favor of additional DDG 51 
destroyers, continuing production and test of the Joint Strike 
Fighter (JSF), accelerating the production of Virginia class 
submarines next year, and completing the growth of the Marine 
Corps to 202,100 personnel.
    Despite the growth in the budget, there is bound to be 
controversy over other investment decisions. Funds for 
shipbuilding are not sufficient to achieve our 313 ship Navy, 
our carrier fleet would be reduced to 10 by year 2040, and it 
will be very difficult to purchase more littoral combat ships 
within the statutory cost cap.
    While plans for sea basing and amphibious warfare are 
getting additional scrutiny, the Expeditionary Fighting Vehicle 
Program continues unchanged. Many have questioned the 
cancellation of the VH-71 Presidential helicopter and others 
are asking whether enough F-18s are being bought to close the 
strike fighter shortfall.
    These are but some of the controversies before us this 
year. It is also clear that next year will be even more 
challenging, as the administration has warned that the 2011 
budget will have additional spending constraints. Future 
decisions will be guided by the results of the Quadrennial 
Defense Review (QDR) and the Nuclear Posture Review (NPR) which 
are now under development. Yet there has already been a shift 
in balancing the demands of the current fight with the 
preparations for future threats. Today's fight involves 
supporting the surge in Afghanistan, managing the drawdown from 
Iraq, meeting irregular threats such as terrorism, drug 
smuggling, and piracy. Each of these missions require different 
capabilities, some of which have been funded in base budgets 
and others were loaded into supplemental appropriation 
requests.
    For the first time, the administration has submitted both 
pieces of the DOD budget at the same time. This will give 
Congress a clearer view of what is needed to support our 
warfighters, and the subcommittee welcomes the testimony of our 
witnesses on these matters, in addition to their views on the 
fiscal year 2010 base budget request.
    The full statements of each of the witnesses will be 
included in the record in total and I'd like to now turn to the 
vice chairman for any remarks he wishes to make.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, I'm pleased to join you in 
welcoming this distinguished panel of witnesses to our 
subcommittee hearing to review the Department of the Navy's 
budget request.
    Mr. Secretary, it is a special pleasure to welcome you in 
your new capacity as Secretary of the Navy. We look forward to 
working with you closely to respond to the challenges facing 
the Department of the Navy. As everyone knows, this new 
Secretary served as the Governor of our State of Mississippi 
with great distinction, and we appreciate his public service.
    The Navy and Marine Corps team has been a very important 
part of our national security organization and throughout 
history they have performed their missions in a very impressive 
fashion, and continue to contribute to the safety and security 
of all Americans. We need to be sure we provide them with the 
funding needed to continue to carry out their missions in the 
way they have in the past.
    The Department has performed with a high degree of 
professional distinction and we congratulate the individual 
members of the panel on the roles they have played and will 
continue to play in carrying out our national security 
responsibilities.
    Thank you.
    Chairman Inouye. Thank you very much.
    Senator Bond, would you wish to say something?

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Thank you very much, Mr. Chairman. Yes, on 
this subject I do have a lot to say. But I appreciate your 
holding the hearing and I welcome good friends, the Secretary, 
the Admiral, and the General. This is very important. I will 
ask some questions and, Admiral Roughead, you know where I'm 
coming from. In the Navy Posture Review, you stated:

    Navy and Marine Corps carrier-based F/A-18 aircraft are 
providing precision strike in support of the forces on the 
ground in Iraq and Afghanistan. The F/A-18E/F is the aviation 
backbone of our Navy's ability to project power ashore without 
bases that infringe on a foreign nation's sovereign territory. 
At the rate we are operating these aircraft, the number of our 
carrier-capable strike fighters will decrease between 2016 and 
2020, which will affect our air wing capacity and 
effectiveness.

    Admiral, I couldn't agree with you more, which is why I'm 
baffled and concerned and stunned about the budget 
recommendation to underfund the Super Hornet. The inventory of 
strike fighters currently falls short of the number that we 
have heard you say in the past is required to support fully the 
requirement of the Navy air wings and the Marine Corps air 
wings. In March of this year it was projected, if no action is 
taken, the Navy strike fighter shortfall will increase to 243 
aircraft in the next decade.
    But instead of dealing with that, we saw a recommendation 
for $4.4 billion in the long delayed, overbudget, and so far 
unavailable F-35 Joint Strike Fighter, the JSF, which at best, 
as the cost continues to escalate past $150 million, you could 
buy three F/A-18s for every one F-35 or JSF, save hundreds of 
millions of dollars, and get a multiyear which would bring the 
price down.
    We have seen that in the past, that we can't afford to make 
these sacrifices and short fund the operations that we know are 
needed. So I will be asking questions about that, and I thank 
you, Mr. Chairman.
    Chairman Inouye. I thank you, sir.
    Now may I call upon the Secretary.

                       STATEMENT OF RAYMOND MABUS

    Mr. Mabus. Mr. Chairman, my distinguished home State 
Senator, Senator Cochran, and members of the subcommittee: It's 
an honor to be here before you with Admiral Roughead and 
General Conway on behalf of our sailors, marines, civilians, 
and their families.
    Two weeks ago, 2 weeks ago today, I assumed the 
responsibilities as Secretary of the Navy. In this very short 
period of time, it's been my privilege to gain first-hand 
insight into our Nation's exceptional Navy and Marine Corps. 
This naval force serves today around the world, providing a 
wide range of missions in support of our Nation's interests.
    I'm here today to discuss with you, as the chairman pointed 
out, the fiscal year 2010 budget, the various missions of the 
Navy and Marine Corps, and some priorities of the Department. 
The Department's fiscal year 2010 budget reflects commitment to 
our people, shaping our force, providing adequate 
infrastructure, and sustaining and developing the right 
capabilities for the future. The ongoing Quadrennial Defense 
Review will also aid in shaping the Department's contribution 
to the national effort in the future.
    As I have taken on these new duties, my first priority is 
to ensure that we take care of our people--sailors, marines, 
civilians, and their families. Thousands of brave marines and 
sailors are currently engaged in Iraq and Afghanistan. 
Thousands more carry out other hazardous duties around the 
globe. These inspirational Americans volunteered to serve and 
they are protecting us and our way of life with unwavering 
commitment. We must show them the same level of commitment when 
providing for their health and welfare and that of their 
families.
    Last week I made a visit to the National Naval Medical 
Center in Bethesda and visited with our wounded. It was both a 
humbling and inspirational experience. It reinforced the 
enduring commitment we owe them in terms of treatment, 
transition, and support. Programs such as the Marine Corps 
Wounded Warrior Regiment, the Navy's Safe Harbor Program, 
advances in treatment of traumatic brain injuries, and programs 
that offer training and support in stress control must continue 
to be our priorities.
    Today our sailors and marines are serving and responding to 
a wide variety of missions, from combat operations to 
humanitarian assistance and maritime interdiction. The Navy has 
13,000 sailors ashore and 9,500 sailors at sea in Central 
Command's area of responsibility. More than 25,000 marines are 
deployed in Iraq and Afghanistan. Our civilian force is also 
heavily engaged in supporting these operational efforts.
    We have to ensure that the Department of the Navy will 
continue to meet these missions while investing to provide the 
right naval force for future challenges.
    Real acquisition reform too has to be a priority. The 
Department of the Navy has begun to implement the Weapons 
Systems Acquisition Reform Act and is ready to use this act and 
other tools to try to ensure that we get the right capabilities 
on time and at an affordable cost.

                           PREPARED STATEMENT

    I look forward to working together with you in our shared 
commitment to our Nation and the marines, the sailors, the 
civilians, and their families. On behalf of all of them, thank 
you for your commitment and your support, and I look forward to 
your questions.
    Senator Durbin. Thank you very much, Mr. Secretary.
    [The statement follows:]

                    Prepared Statement of Ray Mabus

    Chairman Inouye, Senator Cochran, and Members of the Committee, 
thank you for the opportunity to appear before you today as the 75th 
Secretary of the Navy. It is my great honor to serve with and represent 
the over 800,000 men and women of the United States Navy and Marine 
Corps--active, reserve, and civilian and their families. I am committed 
to ensuring that the Naval Force remains the preeminent sea power, 
ready to meet both current and future challenges.
    I assumed my duties as Secretary of the Navy very recently. So 
please allow me to begin by expressing my gratitude to the members of 
the Senate for the trust that has been placed in me. I am humbled by 
and proud of the responsibility of representing the wonderful men and 
women of our Navy and Marine Corps.
    Our enduring seapower has been essential to furthering America's 
interests worldwide. Its importance cannot be overstated, over 70 
percent of the planet is covered by water, 80 percent of the world's 
inhabitants live near the oceans, and 90 percent of global commerce is 
transported by sea. By maintaining U.S. maritime dominance, our Sailors 
and Marines promote security, stability, and trust around the world. 
Together, we provide a persistent forward presence, power projection 
abroad, and protection of the world's sea lanes. Our Sailors and 
Marines, in cooperation with our foreign partners and allies, continue 
to provide training, deliver humanitarian aid, disaster relief and 
other assistance throughout the globe.
    Our naval forces are uniquely postured to deter aggression and 
prevent escalations. Should deterrence fail, we stand ready to fight 
America's wars and defeat our adversaries. In times of crisis, Navy and 
Marine Corps units are often already on the scene or the first U.S. 
assets to arrive in force. And they accomplish this all as a seaborne 
force with a minimum footprint.
    To ensure and sustain an effective Navy and Marine Corps in an 
increasingly complex security environment, we must emphasize and 
promote a number of essential priorities.
    First, we must ensure the proper care for our forces and their 
families. America's greatest military assets are the dedicated men and 
women who wear the uniform. Thousands of brave Sailors and Marines are 
currently engaged in Iraq and Afghanistan; thousands more carry out 
hazardous duties around the globe. Every one of these incredible 
Americans volunteered to serve, and they are protecting us and our way 
of life with unwavering commitment. As we drawdown in Iraq and increase 
our strength in Afghanistan, they once again stand ready to answer our 
Nation's call. We must show them the same level of commitment when 
providing for their health and welfare and that of their families.
    Second, we must ensure that the Department of the Navy continues to 
meet our many missions of today, while preparing for the unknowable but 
inevitably complex challenges of tomorrow.
    Third, we must continue to balance the Department of the Navy's 
programs, choosing to maintain or establish only those that are 
achievable, affordable, and responsive to our Nation's needs. We are 
committed to refining fiscal and budgetary discipline, tackling waste 
and cost overruns, and building our acquisition workforce. I look 
forward to working with you to make sure that the Department of the 
Navy does not shortchange our Sailors, Marines or our taxpayers.

        TAKE CARE OF OUR SAILORS AND MARINES AND THEIR FAMILIES

    The Department continues to shape the force to balance today's 
missions and to provide flexibility for the future. The Marine Corps 
has accomplished its goal of growing the force to 202,000 Marines. This 
will help to provide our Marines greater dwell time and will provide 
the opportunity to address other training and missions that have not 
been accomplished in our recent history. The Navy force has stabilized. 
Both the Navy and Marine Corps are meeting their recruiting goals both 
in numbers and quality. Our reserves continue to play a key role as 
part of the Total Force and our civilians are a bedrock providing 
support around the globe to our warfighters and to our naval 
capabilities. Together, we thank you for your support in sustaining the 
people who stand in our ranks--military and civilian.
    We must support and strive to find ways to improve the initiatives 
that provide for their physical and mental welfare. The following 
programs exemplify some of the actions we are taking.
Wounded Warrior Medical Care
    We as a Nation have no higher obligation than to care for our 
wounded heroes who have sacrificed so much to serve our Nation. We have 
a solemn duty to ensure that when our forces go into harm's way, there 
is an excellent, comprehensive and sustainable plan for the care of our 
wounded, ill, or injured. The budget request reflects the Department of 
the Navy's commitment to this highest priority, providing exceptional, 
individually tailored assistance to our wounded warriors, with a 
comprehensive approach designed to optimize their recovery, 
rehabilitation, and reintegration. The Navy Safe Harbor Program and the 
Marine Corps Wounded Warrior Regiment extend this assistance to the 
wounded, ill, and injured warriors and their families. The Navy 
Department is also collaborating with the Department of Defense (DOD) 
and the Department of Veterans Affairs (VA) to foster continuity of 
care across all systems and facilitate efficient and effective 
transitions.
Traumatic Brain Injury
    Traumatic Brain Injury is the defining wound of Operation Iraqi 
Freedom. The National Naval Medical Center Bethesda has a new state-of-
the-art Unit to treat Traumatic Brain Injury. I recently had the 
opportunity to visit this unit and was deeply impressed both by the 
staff and the facilities. This clinic provides unsurpassed inpatient 
care for polytrauma patients with TBI, serving all blast-exposed or 
head-injured casualties medically evacuated from theater. The medical 
professionals are highly trained and actively manage symptomatic 
patients and evaluate complex cases to fashion appropriate, individual 
treatment and rehabilitation plans.
    To increase TBI detection during deployments, the Department of the 
Navy has implemented a strategy of lowering the index of suspicion for 
TBI symptoms and improving screening, detection, and treatment 
coordination between line and medical leaders.
    The Department of the Navy has also expanded TBI research. Navy 
Medical Research Command is using new techniques to identify 
transmissibility of blast-wave energy into the brain, focusing on the 
nexus between the blast-wave energy transmission and the resulting 
brain pathology.
Psychological Health
    To address Post Traumatic Stress Disorder (PTSD) and other 
psychological conditions that effect more and more of our force, the 
Navy and the Marine Corps continue to improve their Operational Stress 
Control (OSC) programs. This comprehensive approach seeks to not only 
promote psychological resilience, but also a culture of psychological 
health among Sailors and Marines and their families. I am committed to 
removing any stigma associated with seeking help for mental health. To 
address this, the Bureau of Medicine and Surgery has established a 
centralized and comprehensive OSC program to indoctrinate psychological 
health-stigma reduction into the broader Navy-Marine Corps culture. 
This includes training and tools that line leadership can use from the 
newest accessions to flag and general officers. OSC is targeting 
perceptions within individuals and command leadership, as well as 
working to help care-givers overcome barriers to psychological health 
care.
    Navy Medicine has established 17 Deployment Health Clinics as 
portals of care for service members, staffed with primary-care medical 
and psychological health providers who support early recognition and 
treatment of deployment-related psychological health issues within the 
primary care setting. These examples are not all inclusive. Thank you 
for your continued support of these programs that are so vital to the 
overall strength of the Department.
Housing and Child Care
    The world's finest naval force deserves the world's finest family 
support programs, including community and health care services and 
access to quality, affordable child care. The budget request 
demonstrates a commitment to our Navy and Marine Corps families by 
investing in family programs, housing, and infrastructure.

                     MEETING THE MISSIONS OF TODAY

    While naval forces are conducting combat and combat-support 
missions in Iraq and Afghanistan, the Navy and the Marine Corps also 
stand ready to answer our Nation's call across the full spectrum of 
military operations. Despite a high operational tempo, our naval forces 
remain resilient and motivated, and they are performing superbly around 
the globe. We will work to continue their proud tradition of readiness 
and to ensure that they are fully trained and equipped for their 
assigned missions.
    Today our Marines and Sailors are undertaking a myriad of missions, 
from combat operations in the mountains of Afghanistan, to humanitarian 
assistance in Africa. The Navy has over 9,900 Individual Augmentees and 
more then 6,600 reservists deployed on the ground around the world in 
support of Overseas Contingency Operations. Nearly half of the combat 
air missions over Afghanistan are flown by naval air forces. There are 
283 active ships in service--76 percent of these ships, including four 
aircraft carriers and two large-deck amphibious ships, are underway. 
Over 50 percent of our attack submarines are underway, with nearly 
forty percent of our submarine force on deployment.
    More than 25,000 Marines are deployed in support of Operations 
IRAQI FREEDOM (OIF) and ENDURING FREEDOM (OEF). The large majority are 
in Iraq; however, the process has begun drawing down those forces and 
increasing the number of Marines in Afghanistan. Nearly 5,700 Marines 
are deployed to various regions throughout Afghanistan--either as part 
of the Special Purpose Marine Air Ground Task Force, Afghanistan, or in 
the 2d Marine Expeditionary Brigade, Marine Special Operations 
Companies, Embedded Training Teams, or Individual Augments.
    One of the most significant readiness challenges facing the Navy 
and the Marine Corps is balancing their current obligations to overseas 
contingency operations with other anticipated readiness requirements. 
To address these concerns, the Department of the Navy is working to 
expand our engagements with other nations in order to meet our common 
challenges.
    Fostering trust and cooperative relationships with foreign partners 
is critical to national security, but trust cannot be simply summoned 
in moments of crisis. It must be developed over time. To revitalize 
existing relationships and create new ones, we need to show long-term 
commitment.
    Our Naval Forces contribute significantly to cooperative security 
operations through forward presence and sustained, routine engagement 
with foreign partners and allies. We are committed to sustaining this 
core capability of the Maritime Strategy and ask for your continued 
support.
    Additionally, in order to meet our readiness challenges, the 
Department is working to develop greater energy independence and 
conservation ashore and afloat. Energy costs siphon resources away from 
vital areas. The potential for disruption and the possible 
vulnerability of energy supplies could threaten our ability to perform 
on the battlefield.
    The Department of the Navy has made good progress in increasing 
energy efficiency, reducing energy consumption, and capitalizing on 
renewable energy sources. We are the Department of Defense lead for 
solar, geothermal, and ocean energy, and today, 17 percent of our total 
energy requirements are provided through alternative or renewable 
sources.
    The Navy and Marine Corps can, and should, do more. As we continue 
to increase conservation and develop alternative energy options, the 
Department of the Navy can mitigate the impact of energy volatility, 
use energy as a strategic resource for operational advantage, and 
become a leader in environmental stewardship.

          BUILDING AND BALANCING THE NAVAL FORCE OF THE FUTURE

    The Department of the Navy will continue to meet America's current 
commitments worldwide, while simultaneously developing a force capable 
of meeting the challenges of the future. We will focus on irregular 
warfare and hybrid campaigns, while continuing those more conventional 
capabilities where our technology gives us a strategic advantage. The 
fiscal year 2010 budget request puts us on the path towards the goal of 
balancing near-term requirements with those of the next decade and 
beyond.
    The budget request provides balanced support for deployed and non-
deployed steaming days, associated flight hours, and related ship and 
aircraft maintenance. It works to bolster our naval forces' 
independence and flexibility by building on their unique ability to 
operate at great distance with long staying power. This budget would 
also fund the critical ``eyes and ears'' of our forces with increases 
to Intelligence, Reconnaissance, and Surveillance programs and Command, 
Control, Communications, Computers programs. The budget shows 
commitment to maintain key capabilities such as power projection, sea 
control, interdiction, deterrence, and humanitarian assistance.
    In an effort to continue to shape our future contributions to the 
joint force and our country, I look forward to engaging in the 
Quadrennial Defense Review, which strives to define the best, most 
affordable collective military force to defend our national interests 
at home and abroad.
    Changes to how equipment is acquired are essential to building our 
forces for the future. We are committed to pursuing acquisition reform 
and cost control measures and look forward to implementing 
Congressional acquisition reform, as well as working with you to 
continue to find ways to produce the best results out of our 
acquisition process.
    Our Sailors and Marines are a superb fighting force which can be 
lethal or compassionate, patient or quick, as situations dictate. They 
are well-trained, proud warriors that continue to deserve the 
appreciation of a grateful Nation. As their new Secretary, I look 
forward to working together with you to continue to enhance a 
relationship built on trust and commitment to our Nation, and the 
Sailors, Marines, civilians and their families who sacrifice for its 
cause.
    On behalf of the more then 800,000 dedicated men and women of the 
United States Navy and Marine Corps, I express our grateful 
appreciation to Congress for its continuing and unflagging support.

    Senator Durbin. May I call upon the Chief of Naval 
Operations, Admiral Roughead.

STATEMENT OF ADMIRAL GARY ROUGHEAD, CHIEF OF NAVAL 
            OPERATIONS, DEPARTMENT OF THE NAVY
    Admiral Roughead. Thank you, Mr. Chairman. Chairman Inouye, 
Senator Cochran, distinguished members of the subcommittee: On 
behalf of the 600,000 sailors, Navy civilians, and their 
families, thank you for your continued support and for the 
opportunity and the honor to represent our Navy alongside 
Secretary Mabus and General Conway.
    Today we have 40,000 sailors on station making a difference 
around the world. We are more versatile and agile than we have 
ever been, with approximately 13,000 sailors on the ground in 
Central Command, to include SEALs, explosive ordnance disposal 
technicians, Seebees, and many individual augmentees.
    The 2010 budget balances the needs of those sailors around 
the world, our current operations, and the needs for our future 
fleet, in accordance with our maritime strategy. However, we 
are progressing at an adjusted pace. Our risk is moderate 
today, trending toward significant because of challenges posed 
by our fleet capacity, operational requirements, manpower, 
maintenance, and infrastructure costs. Our Navy is operating at 
its highest levels in recent years and, while we remain ready 
and capable, we are stretched in our ability to meet additional 
operational demands while balancing our obligation to our 
people and to building the future fleet.
    We require additional capacity to meet combatant commander 
demands and to maintain our operational tempo. A fleet of at 
least 313 ships is needed, along with the capabilities that 
include more ballistic missile defense, irregular warfare, and 
open ocean anti-submarine warfare capabilities. These needs 
drove the decision to truncate the DDG 1000 and restart DDG 51 
with its blue water anti-submarine warfare capability and 
integrated air and missile defense, and also to procure three 
littoral combat ships this year.
    As I articulated last year, our Navy must have a stable 
shipbuilding program that provides the right capability and 
capacity while preserving our Nation's industrial base. The 
balance among capability, capacity, affordability, and 
executability in our procurement plans, however, is not 
optimal. I continue to focus on the control of requirements, 
integration of total ownership costs into our decisionmaking, 
maturing new ship designs before production, and pursuing 
proven designs, the use of common hull forms and components, 
and longer production runs to control costs as we build the 
future fleet.
    To best maintain the ships we have, we've reinstituted an 
engineering-based approach to maintenance for our surface ships 
through the surface ship life cycle management activity. 
Meanwhile, our board of inspection and survey teams will 
continue to use our internal INSURV process to conduct rigorous 
self-assessments on the condition of our ships and submarines.
    All that we do is made possible by our dedicated sailors 
and Navy civilians. I am committed to providing the necessary 
resources and shaping our personnel policies to ensure our 
people and their families are properly supported. We are 
stabilizing our force this year by seeking authorization and 
funding for an end strength of 328,800 sailors, including 
overseas contingency operations funding for 4,400 individual 
augmentees who are in today's fight.
    We continue to provide a continuum of care that governs all 
aspects of individual medical, physical, psychological, and 
family readiness to our returning warriors and sailors. In 2008 
we added 170 care managers to our military treatment facilities 
and ambulatory care clinics for our 1,800 wounded warriors and 
their families. In addition, we continue to move mental health 
providers closer to the battlefield and are actively working 
against the stigma of post traumatic stress disorder (PTSD).
    Achieving the right balance within and across my three 
priorities of the future fleet, current operations, and people 
is critical today and for the future. I ask Congress to fully 
support our 2010 budget and identified priorities.

                           PREPARED STATEMENT

    Thank you for all you do and your continued support and 
commitment to our Navy. I look forward to your questions today. 
Thank you very much.
    Chairman Inouye. Thank you, Admiral.
    [The statement follows:]

              Prepared Statement of Admiral Gary Roughead

    Chairman Inouye, Senator Cochran, and members of the Committee, it 
is an honor to appear before you today representing the more than 
600,000 Sailors and civilians of the U.S. Navy. We are making a 
difference around the world. We are globally deployed, persistently 
forward, and actively engaged. I greatly appreciate your continued 
support as our Navy defends our Nation and our national interests.
    Last year, I came before you to lay out my priorities for our Navy, 
which were to build tomorrow's Navy, remain ready to fight today, and 
develop and support our Sailors, Navy civilians, and families. We made 
great progress on those priorities this past year. Sustaining our 
Navy's maritime dominance requires the right balance of capability and 
capacity for the challenges of today and those we are likely to face in 
the future. It demands our Navy remain agile and ready.
    Our Maritime Strategy, issued by the Navy, Marine Corps, and Coast 
Guard over a year ago, continues to guide our efforts. The strategy 
recognizes the importance of naval partnerships, elevates the 
importance of preventing war to the ability to fight and win, and 
identifies six core capabilities: forward presence, deterrence, sea 
control, power projection, maritime security, and humanitarian 
assistance and disaster response (HA/DR). We have increased the breadth 
and depth of our global maritime partnerships. We have engaged, more 
than ever, in stability operations and theater security cooperation. 
Moreover, we are performing each of our six core capabilities as part 
of the joint force in Operation Enduring Freedom (OEF) and Operation 
Iraqi Freedom (OIF), and across the globe.
    We continue to build tomorrow's Navy. As I articulated last year, 
our Navy needs a stable shipbuilding program that provides the right 
capability and capacity for our Fleet while preserving our Nation's 
industrial base. Since I came before you last year, 10 new ships have 
joined our Fleet. Among them, is U.S.S. Freedom (LCS 1), an important 
addition that addresses critical warfighting gaps. We have increased 
oversight and are working closely with industry to lower LCS costs and 
meet program milestones. I am pleased to announce we have awarded fixed 
price, incentive fee contracts for the third and fourth LCS ship. We 
are aggressively working to ensure LCS is a successful and affordable 
program. The introduction of U.S.S. George W. Bush (CVN 77) earlier 
this year also re-affirmed the strength and power of the American 
shipbuilder and our industrial base. I remain committed to a carrier 
force of 11 for the next three decades. In our drive to build the 
future Fleet, I continue to demand that we accurately articulate 
requirements and remain disciplined in our processes. As I testified 
last year, effective procurement requires affordable and realistic 
programs to deliver a balanced future Fleet.
    We reached several key milestones in Navy aviation over the last 
year. Recently, the first P-8A Poseidon aircraft successfully completed 
its first flight. The P-8A will replace our aging P-3 Orion maritime 
patrol aircraft, which we have adapted to the fight we are in by 
providing critical Intelligence, Surveillance, and Reconnaissance 
capabilities to current operations in Iraq and Afghanistan. We also 
issued our first contract for the Broad Area Maritime Surveillance 
aircraft, which will provide capability to meet the challenges we are 
likely to face in the future. As I identified last year, we continue to 
expect a decrease in the number of our strike fighters between 2016 and 
2020 which will affect the capacity and effectiveness of our carrier 
air wings. The timely delivery of the F-35 Joint Strike Fighter is 
critical to meeting our strike fighter needs.
    While we have been building our Navy for tomorrow, we have also 
been focused intensely on today's fight. Our Sailors are fully engaged 
on the ground, in the air, and at sea in support of operations in Iraq 
and Afghanistan. On the ground, our Navy has more than 13,000 active 
and reserve Sailors in Central Command supporting Navy, Joint Force, 
and Combatant Commander requirements. Navy Commanders are leading six 
of the 12 U.S.-led Provincial Reconstruction Teams in Afghanistan. Our 
elite teams of Navy SEALs are heavily engaged in combat operations. 
Navy Explosive Ordnance Disposal platoons are defusing Improvised 
Explosive Devices (IEDs) and landmines. Our SEABEE construction 
battalions are rebuilding schools and restoring critical 
infrastructure. Navy sealift is delivering the majority of heavy war 
equipment to Iraq, while Navy logisticians are ensuring materiel 
arrives on time. Our Navy doctors are providing medical assistance in 
the field and at forward operating bases. In addition, I am thankful 
for the support of Congress for Navy Individual Augmentees who are 
providing combat support and combat service support for Army and Marine 
Corps personnel in Iraq and Afghanistan. On the water, Navy 
Expeditionary Combat Command Riverine forces are working closely with 
the Iraqi Navy to safeguard Iraqi infrastructure and provide maritime 
security in key waterways. Navy forces are also intercepting smugglers 
and insurgents and protecting Iraqi and partner nation oil and gas 
infrastructure. We know the sea lanes must remain open for the transit 
of oil, the lifeblood of the Iraqi economy, and our ships and Sailors 
are making that happen.
    Beyond the fight in Iraq and Afghanistan, however, we remain an 
expeditionary force, engaged around the world. As the dramatic capture 
of Maersk Alabama and subsequent rescue of Captain Richard Phillips 
demonstrated, we do not have the luxury to be otherwise. We are engaged 
in missions from the Horn of Africa, to the Caribbean and the 
Philippines. Our operations range from tracking attempted ballistic 
missile launches from North Korea, to interacting with international 
partners at sea, to providing medical and humanitarian assistance from 
the sea. Our Sailors continue to be ambassadors for our Nation. This 
past October marked the first visit ever of a U.S. nuclear-powered 
ship, U.S.S. Theodore Roosevelt, to South Africa, the first year Navy 
ships were engaged in operations on both the East and West Coasts of 
Africa, and the first visit ever of a U.S. CNO to South Africa. 
Additionally, my recent visit to China continued a dialogue with the 
PLA(N) that will enhance our military-to-military relationships. In 
total, we have more than 50,000 Sailors deployed and more than 10,500 
in direct support of global Requests for Forces and Joint manning 
requirements.
    My commitment to developing and supporting our Sailors and Navy 
civilians in their global operations endures. We have met overall 
officer and enlisted (active and reserve) recruiting goals for 2008 and 
are on track for success in 2009. We are also improving the diversity 
of our Navy through significant outreach and mentorship. We continue to 
provide, support, and encourage training and education for our 
warfighters in the form of Joint Professional Military Education, 
Language Regional Expertise and Cultural programs, and top-notch 
technical schoolhouses. In addition, to help our Sailors balance 
between their service to the Nation and their lives at home and with 
their families, we have expanded access to childcare, and improved 
housing for families and bachelors through Public Private Ventures 
(PPV). We also continue to address the physical and mental needs of our 
Wounded and Returning Warriors and their families, as well as the needs 
of all our Sailors who deploy. I appreciate the support of Congress for 
these incredible men and women.
    My focus as CNO is to ensure we are properly balanced to answer the 
call now and in the decades to come. As I indicated last year, the 
balance among capability, capacity, affordability, and executability in 
our procurement plans is not optimal. This imbalance has increased our 
warfighting, personnel, and force structure risk in the future. Our 
risk is moderate today trending toward significant in the future 
because of challenges associated with Fleet capacity, increasing 
operational requirements, and growing manpower, maintenance, and 
infrastructure costs.
    We remain a ready and capable Navy today, but the stress on our 
platforms and equipment is increasing. We can meet operational demands 
today but we are stretched in our ability to meet additional 
operational demands while taking care of our people, conducting 
essential platform maintenance to ensure our Fleet reaches its full 
service life, and modernizing and procuring the Navy for tomorrow. Our 
fiscal year 2010 budget aligns with the path our Maritime Strategy has 
set; however, we are progressing at an adjusted pace. Our budget 
increases our baseline funding, yet our Navy continues to rely on 
contingency funding to meet current operational requirements and remain 
the Nation's strategic reserve across the entire spectrum of conflict.
    Achieving the right balance within and across my priorities will be 
critical as we meet the challenges of today and prepare for those of 
tomorrow. I request your full support of our fiscal year 2010 budget 
request and its associated capabilities, readiness, and personnel 
initiatives highlighted below.

                         BUILD TOMORROW'S NAVY

    To support our Nation's global interests and responsibilities, our 
Navy must have the right balance of capability and capacity, across 
multiple regions of the world, to prevent and win in conflict today 
while providing a hedge against the challenges we are most likely to 
face tomorrow. You have provided us with a Fleet that possesses the 
capabilities Combatant Commanders demand. Our budget request for fiscal 
year 2010 increases the capacity of our Fleet to respond to those 
demands.
    We are addressing our aviation capability and capacity by investing 
in both new and proven technologies. Our E/A-18G aircraft utilize the 
same airframe as the F/A-18F, which improves construction costs and 
efficiencies, but it is equipped for airborne electronic attack, rather 
than strike missions. The E/A-18G will complete operational testing 
this year and eventually replace our existing EA-6B Fleet. Our budget 
includes procurement and RDT&E funding for this aircraft and for our P-
8A Multi-mission Maritime Aircraft, which will replace our aging P-3 
Orion Fleet. In addition to manned aviation, our Navy is investing in 
unmanned aircraft, such as Firescout, which is more affordable, can be 
built in larger numbers, and can do the missions needed in the small 
wars and counterinsurgencies we are likely to face in the near to mid-
term. We are also investing in the Broad Area Maritime Surveillance 
System (BAMS), which is the only unmanned aircraft that can provide 
long-range intelligence, surveillance, and reconnaissance in the 
maritime environment. Our aviation programs increased by more than $4.2 
billion from fiscal year 2009 to fiscal year 2010 to achieve the right 
balance of capability and capacity.
    Our Navy's operational tempo over the past year reaffirms our need 
for a minimum of 313 ships. The mix of those ships has evolved in 
response to the changing security environment and our investments in 
fiscal year 2010 support growing Combatant Commander demands for 
ballistic missile defense, irregular warfare, and open ocean anti-
submarine warfare. We are also addressing demands for high speed and 
intra-theater lift, as well as a variety of missions in the littoral. 
Specifically, our fiscal year 2010 budget funds eight ships: the 12th 
Virginia class submarine, three Littoral Combat Ships (LCS), two T-AKE 
Dry Cargo and Ammunition Ships, a second Joint High Speed Vessel (JHSV) 
for the Navy, and an advanced Arleigh Burke Class Destroyer that will 
restart the DDG 51 program. The budget also funds the balance of LPD 26 
and DDG 1002 construction, and provides third-year funding for CVN 78.
    American shipbuilding is not broken, but improvements are needed. 
Since becoming CNO, I have focused on our need to address and control 
procurement and total ownership costs. Shipbuilding costs have been 
increasing as a result of reductions in number of ships procured, 
overtime costs, and challenges associated with the introduction of new 
technologies and sophisticated systems. We are addressing these costs 
by maturing new ship designs to adequate levels before commencing 
production, and by pursuing common hull forms, common components, 
proven designs, and repeat builds of ships and aircraft to permit 
longer production runs and lower construction costs. Additionally, our 
shipbuilding plans incorporate open architecture for hardware and 
software systems and increasingly use system modularity. These 
initiatives reduce costs from inception to decommissioning and allow 
ease of modernization in response to evolving threats.
    In 2008, we introduced a more comprehensive acquisition governance 
process to better link requirements and costs throughout the 
procurement process. I will work closely with the Secretary of the Navy 
to grow our acquisition workforce and enhance our ability to properly 
staff and manage our acquisition programs. I also enthusiastically 
support reviewing the overall acquisition and procurement processes to 
determine how the Services can best address costs and accountability.
    A solid and viable industrial base is essential to national 
security and our future Navy, and is a significant contributor to 
economic prosperity. Shipbuilding alone is a capital investment that 
directly supports more than 97,000 American jobs and indirectly 
supports thousands more in almost every U.S. State. Similarly, aircraft 
manufacturing provides extraordinary and unique employment 
opportunities for American workers. Like the manufacturing base in 
other sectors of our economy, the shipbuilding and aircraft industries 
depend upon stable and predictable workloads to stabilize their 
workforce and maximize efficiencies. Level loading of ship and aircraft 
procurements helps retain critical skills and promotes a healthy U.S. 
shipbuilding and aircraft industrial base.
    I seek your support for the following initiatives and programs:
Aircraft Carrier Force Structure
    The Navy remains committed to a force of 11 carriers for the next 
three decades that can respond to national crises and provide options 
when access is not assured. Our carrier force provides the Nation the 
unique ability to overcome political and geographic barriers to access 
critical areas and project power ashore without the need for host 
nation ports or airfields.
    The 11-carrier requirement is based on a combined need for world-
wide presence requirements, surge availability, training and exercises, 
and maintenance. During the period between the planned 2012 
inactivation of U.S.S. Enterprise (CVN 65) and the 2015 delivery of 
Gerald R. Ford (CVN 78), however, legislative relief is needed to 
temporarily reduce the operational carrier force to 10. Extending 
Enterprise beyond 2012 involves significant technical risk, challenges 
manpower and the industrial base, and requires expenditures in excess 
of $2.8 billion with a minimal operational return on this significant 
investment. Extending Enterprise would result in only a minor gain in 
carrier operational availability and adversely impact carrier 
maintenance periods and operational availability of the force in the 
future. The temporary reduction to 10 carriers can be mitigated by 
adjustments to deployments and maintenance availabilities. I request 
your approval of this legislative proposal.
F/A-18 and Joint Strike Fighter (JSF)
    Navy and Marine Corps carrier-based F/A-18 aircraft are providing 
precision strike in support of forces on the ground in Iraq and 
Afghanistan. The F/A-18 E/F is the aviation backbone of our Navy's 
ability to project power ashore without bases that infringe on a 
foreign nation's sovereign territory. At the rate we are operating 
these aircraft, the number of our carrier-capable strike fighters will 
decrease between 2016 and 2020, which will affect our air wing capacity 
and effectiveness. The F-35 Joint Strike Fighter (JSF) is essential to 
addressing the Navy's strike fighter needs. Stable funding of JSF will 
facilitate the on-time and within budget delivery of the aircraft to 
our Fleet. I also appreciate the support of Congress for our fiscal 
year 10 request that continues to fund F/A-18 E/F production while 
transitioning to JSF.
Littoral Combat Ship (LCS)
    LCS is a fast, agile, and networked surface combatant with 
capabilities optimized to support naval and joint force operations in 
littoral regions. LCS fills warfighting gaps in support of maintaining 
dominance in the littorals and strategic choke points around the world. 
It will operate with focused-mission packages, which will include 
manned and unmanned vehicles, to execute a variety of missions, 
primarily anti-submarine warfare (ASW), anti-surface warfare (SUW), and 
mine countermeasures (MCM).
    LCS' inherent characteristics of speed, agility, shallow draft, 
payload capacity, reconfigurable mission spaces, and air/water craft 
capabilities, combined with its core Command, Control, Communications, 
Computers and Intelligence, sensors, and weapons systems, make it an 
ideal platform for engaging in irregular warfare and maritime security 
operations, to include counter-piracy missions.
    I am pleased to report that U.S.S. Freedom (LCS 1) is at sea and 
Independence (LCS 2) will deliver later this year. We have issued 
fixed-price incentive fee contracts for construction of the next two 
LCS ships based on a limited competition between the current LCS 
seaframe prime contractors.
    The Navy is aggressively pursuing cost reduction measures to ensure 
delivery of future ships on a schedule that affordably paces evolving 
threats. We are applying lessons learned from the construction and test 
and evaluation periods of the current ships, and we are matching 
required capabilities to a review of warfighting requirements. I am 
committed to procuring 55 LCS, however legislative relief may be 
required regarding the LCS cost-cap until manufacturing efficiencies 
can be achieved. Our fiscal year 2010 budget includes funding for three 
additional LCS seaframes.
DDG 1000/DDG 51
    Ballistic missile capability is rapidly proliferating and, since 
1990, the pace of that proliferation has increased markedly. Non-state 
actors are also acquiring advanced weapons, as demonstrated in 2006 
when Hezbollah launched a sophisticated anti-ship missile against an 
Israeli ship. In addition, while DDG 1000 has been optimized for 
littoral anti-submarine warfare, the number of capable submarines 
worldwide does not allow us to diminish our deep-water capabilities. 
The world has changed significantly since we began the march to DDG 
1000 in the early 1990's and, today, Combatant Commander demands are 
for Ballistic Missile Defense, Integrated Air and Missile Defense, and 
Anti-Submarine Warfare.
    To align our surface combatant investment strategy to meet these 
demands, we are truncating the DDG 1000 program at three ships and 
appropriately restarting the DDG 51 production line. The technologies 
resident in the DDG 51 provide extended range air defense now, and when 
coupled with open architecture initiatives, will best bridge the 
transition to the enhanced ballistic missile defense and integrated air 
and missile defense capability envisioned in the next generation 
cruiser. In our revised plan, we are addressing the changing security 
environment and the dynamic capability requirements of the Fleet, while 
providing maximum stability for the industrial base.
    Our fiscal year 2010 budget requests $1.084 billion to provide the 
balance of incremental funding for the third ship of the DDG 1000 class 
authorized in 2009. In addition, $2.241 billion is requested to re-
start the DDG 51 program. The SWAP II Memorandum of Agreement (MOA) 
will align construction responsibilities to ensure shipyard workload 
stability, stabilize and minimize cost risk for the DDG 1000 program, 
and efficiently re-start DDG 51 construction. Research, development, 
test and evaluation efforts for the DDG 1000 program, will continue in 
order to deliver the necessary technology to complete the DDG 1000 
class ships and support the CVN 78 Class.
Ballistic Missile Defense
    The increasing development and proliferation of ballistic missiles 
threatens our homeland, our allies, and our military operations. 
Current trends indicate adversary ballistic missile systems are 
becoming more flexible, mobile, survivable, reliable, accurate, and 
possess greater range. Threats posed by ballistic missile delivery are 
likely to increase and become more complex over the next decade.
    Our Navy is on station today performing ballistic missile defense 
(BMD) as a core mission. Maritime BMD is a joint warfighting enabler. 
Aegis BMD contributes to homeland defense through long range 
surveillance and tracking and Aegis BMD ships can conduct organic 
midcourse engagements of short and medium range ballistic missiles in 
support of regional and theater defense. Our Navy and partner nation 
Aegis BMD capability, proven and deployed around the world, has an 
impressive record of success: 18 of 22 direct hits on target, of which 
3 of 3 were successful engagements within the earth's endo-atmosphere.
    Today, Navy Aegis BMD capability is currently installed on 18 
ships: three guided missile cruisers and 15 guided missile destroyers. 
In response to an urgent Combatant Commander demand, the Defense 
Department budget requests $200 million to fund conversion of six 
additional Aegis ships to provide BMD capability. Ultimately, our plan 
is to equip the entire Aegis Fleet with BMD capability, to provide 
Joint Commanders an in-stride BMD capability with regularly deploying 
surface combatants. While development and procurement funding is 
covered under the Missile Defense Agency budget, Navy has committed 
$14.5 million in fiscal year 2010 for operations and sustainment of 
Aegis BMD systems and missiles that have transferred to the Navy.
Modernizing Cruisers and Destroyers
    Our Cruiser and Destroyer modernization programs provide vital mid-
life upgrades to the combat systems and hull, mechanical, and 
engineering systems. These upgrades complement our engineered ship 
life-cycle maintenance efforts, which are necessary to ensure our ships 
maintain their full service life. Combat systems upgrades, in 
particular, reduce technology risk for future surface combatants and 
provide a rapid and affordable capability insertion process. 
Maintaining the stability of the Cruiser and Destroyer modernization 
programs will be critical to our future Navy capability and capacity. 
Our fiscal year 2010 budget includes funds to modernize two Cruisers 
and two Destroyers.
Joint High Speed Vessel (JHSV)
    Intra-theater lift is key to enabling the United States to rapidly 
project, maneuver, and sustain military forces in distant, anti-access 
or area-denial environments. The Joint High Speed Vessel (JHSV) program 
is an Army and Navy joint program to deliver a high-speed, shallow 
draft surface ship capable of rapid transport of medium payloads of 
cargo and personnel within a theater to austere ports without reliance 
on port infrastructure for load/offload. The detail design and lead 
ship construction contract was awarded to Austal USA on November 13, 
2008, and includes contract options for nine additional ships for the 
Army and Navy. Delivery of the first vessel will be to the Army and is 
expected in 2011. Our fiscal year 2010 budget includes $178 million for 
the construction of the Navy's second JHSV. Navy will oversee 
procurement of the second Army funded vessel.
LPD 17 Class Amphibious Warfare Ship
    The LPD 17 Class of amphibious warfare ships represents the Navy's 
commitment to a modern expeditionary power projection Fleet that will 
enable our naval force to operate across the spectrum of warfare. The 
class will have a 40-year expected service life and serve as the 
replacement for four classes of older ships: the LKA, LST, LSD 36, and 
the LPD 4. San Antonio Class ships will play a key role in supporting 
ongoing overseas operations by forwardly deploying Marines and their 
equipment to respond to global crises. U.S.S. Green Bay (LPD 20) was 
commissioned in January 2009 and U.S.S. New Orleans (LPD 18) deployed 
the same month. New York (LPD 21) is planned to deliver this fall. LPDs 
22-25 are in various stages of construction. Our fiscal year 2010 
budget requests $872 million for the balance of the funding for LPD 26, 
which was authorized in 2009. Further, we request $185 million of 
advance procurement for LPD 27 to leverage production efficiencies of 
the existing LPD 17 class production line. Amphibious lift will have my 
highest attention as we address it in the ongoing Quadrennial Defense 
Review.
P-3 Orion and P-8 Multi-mission Maritime Aircraft
    Your continued support of the P-3 and P-8A force remains essential. 
The legacy P-3 Orion, is providing critical intelligence, surveillance 
and reconnaissance (ISR) to the current fight and it is a key enabler 
in the execution of our Maritime Strategy. An airframe in very high 
demand, the P-3 supports the joint warfighter with time-critical ISR, 
contributes directly to our maritime domain awareness across the globe, 
and is our Nation's pre-eminent airborne deterrent to an increasing 
submarine threat. Thirty-nine P-3s were grounded in December 2007 due 
to airframe fatigue. I thank Congress for providing $289.3 million to 
our Navy in the fiscal year 2008 Supplemental to fund the initial phase 
of the recovery program.
    Boeing has resolved labor issues with their workforce and is 
implementing a recovery plan for the P-8A within fiscal resources that 
will restore the program schedule from delays caused by last year's 
strike.
    The P-8A Poseidon will start to fill the P-3 capability in 2013. I 
am pleased to report the program reached a critical milestone this 
April when the first P-8A test aircraft successfully completed its 
first flight. I request your support of our fiscal year 2010 budget 
request for six P-8A aircraft.
E-2D Advanced Hawkeye
    The E-2D Advanced Hawkeye aircraft replaces the E-2C Hawkeye 
aircraft. The aircraft's APY-9 radar is a two-generation leap in 
airborne surveillance radar capability, significantly improving 
detection and tracking of small targets in the overland and littoral 
environment when compared to the E-2C. The E-2D improves nearly every 
facet of tactical air operations, maintains open ocean capability, and 
adds overland and littoral surveillance to support Theater Air and 
Missile Defense capabilities against air threats in high clutter, 
electro-magnetic interference, and jamming environments. I ask Congress 
to support our fiscal year 2010 budget request for two E-2D Hawkeye 
aircraft.
Unmanned Aerial Systems
    We are investing in unmanned systems to enhance our capacity to 
meet increasing global demands for Intelligence, Surveillance and 
Reconnaissance (ISR) capability. The Broad Area Maritime Surveillance 
(BAMS) UAS enhances situational awareness of the operational 
environment and shortens the sensor-to-shooter kill chain by providing 
persistent, multiple-sensor ISR to Fleet commanders and coalition and 
joint forces. Our fiscal year 2010 budget requests funding for 
continued research and development of BAMS. We are also requesting 
funding for the procurement of five MQ-8 Vertical Takeoff and Landing 
Tactical UAVs (VTUAV). The MQ-8 supports LCS core mission areas of ASW, 
Mine Warfare, and SUW. It can operate from all air-capable ships and 
carry modular mission payloads to provide day and night real time 
reconnaissance, surveillance and target acquisition capabilities. VTUAV 
began operational testing this March aboard U.S.S. McInerny (FFG 8).
MH-60R/S Multi-Mission Helicopter
    The MH-60R multi-mission helicopter program will replace the 
surface combatant-based SH-60B and carrier-based SH-60F with a newly 
manufactured airframe and enhanced mission systems. The MH-60R provides 
forward-deployed capabilities, including Surface Warfare, and Anti-
Submarine Warfare, to defeat area-denial strategies, which will enhance 
the ability of the joint force to project and sustain power. MH-60R 
deployed for the first time in January 2009 with the U.S.S. John C. 
Stennis. Our fiscal year 2010 budget requests funding to procure 24 MH-
60R helicopters.
    The MH-60S will support deployed forces with combat logistics, 
search and rescue, air ambulance, vertical replenishment, anti-surface 
warfare, airborne mine counter-measures, and naval special warfare 
mission areas. Our fiscal year 2010 budget requests funding to procure 
18 MH-60S helicopters.
Virginia Class SSN
    The Virginia Class submarine is a multi-mission submarine that 
dominates in the littorals and open oceans. Now in its 10th year of 
construction, the Virginia program is demonstrating that this critical 
undersea capability can be delivered affordably and on time. We have 
aggressively reduced construction costs of the Virginia Class to $2 
billion per submarine, as measured in fiscal year 2005 dollars, through 
construction performance improvements, redesign for affordability, and 
a multi-year procurement contract, which provides an assured build rate 
for shipyards and vendors and offers incentives for cost, schedule, and 
capital expenditure for facility improvements. Not only are these 
submarines coming in within budget and ahead of schedule, their 
performance is exceeding expectations and continues to improve with 
each ship delivered. I consider Virginia Class cost reduction efforts a 
model for all our ships, submarines, and aircraft.
SSBN
    Our Navy supports the Nation's nuclear deterrence capability with a 
credible and survivable Fleet of 14 Ohio Class ballistic missile 
submarines (SSBN). Originally designed for a 30-year service life, this 
class will start retiring in 2027 after over 40 years of service life.
    As long as we live in a world with nuclear weapons, the United 
States will need a reliable and survivable sea-based strategic 
deterrent. Our fiscal year 2010 budget requests research and 
development funds for the Ohio Class Replacement, to enable the start 
of construction of the first ship in fiscal year 2019. The United 
States will achieve significant program benefits by aligning our 
efforts with those of the United Kingdom's Vanguard SSBN replacement 
program. The United States and United Kingdom are finalizing a cost 
sharing agreement.
Foreign Military Sales
    Our Navy also supports the development of partner capability and 
capacity through a robust Foreign Military Sales (FMS) program. FMS is 
an important aspect of security cooperation programs designed to 
improve interoperability, military-to-military relations, and global 
security. Navy uses the FMS program to help build partner nation 
maritime security capabilities through transfers of ships, weapon 
systems, communication equipment, and a variety of training programs. 
Sales and follow-on support opportunities may also result in production 
line efficiencies and economies of scale to help reduce USN costs. In 
the past year, Navy FMS has worked with over 147 nations and 
international organizations, coordinating 2 ship transfers and 25 ship 
transfer requests, providing military training to over 12,000 
international military members, with total foreign military sales of 
roughly $6.8 billion. Congressional support is key to the successful 
transfer of U.S. equipment to our partners. I thank you for your 
continued support in this area.
Next Generation Enterprise Network (NGEN)
    To pace the complex and adaptive techniques of potential 
adversaries, we need survivable and persistent network communications 
that enable secure and robust means to command and control our assets, 
and to use, manage, and exploit the information they provide. These 
functions come together in cyberspace, a communication and warfighting 
domain that includes fiber optic cables on the ocean floor, wireless 
networks, satellite communications, computer systems, databases, 
Internet, and most importantly, properly trained cyber personnel to 
execute cyberspace effects. Cyberspace presents enormous challenges and 
unprecedented opportunities to shape and control the battlespace. 
Recent activities, such as the cyber attacks on Georgia and Estonia 
last year, highlight the complex and dynamic nature of cyber threats.
    Our Navy has provided cyber capabilities to the joint force for 
more than 11 years and we continue to make security and operations in 
the cyberspace domain a warfighting priority. The challenge we face 
today is balancing our need to collect and share information with our 
need to protect against 21st century cyber threats. We are taking steps 
to effectively organize, man, train, and equip our Navy for cyber 
warfare, network operations, and information assurance. We are also 
working closely with Joint and interagency partners to develop 
offensive and defensive cyberspace capabilities, infrastructure, 
experience, and access, rather than developing independent, Navy-only 
capabilities.
    As we move from the Navy-Marine Corps Intranet (NMCI) to the Next 
Generation Enterprise Network (NGEN), the sophistication, speed, and 
persistence of cyber threats we observe today makes it imperative that 
we continually improve our network capabilities, improve our 
flexibility to adapt to changing environment, and maintain complete 
operational control of the network. NGEN Block 1 is the follow-on to 
the existing NMCI contract that expires 30 September 2010. It replaces 
the services currently provided by NMCI and takes advantage of lessons 
learned from that network. Future NGEN Blocks will upgrade services 
provided by NMCI and the OCONUS Navy Enterprise Network. NGEN will also 
integrate with shipboard and Marine Corps networks to form a globally 
integrated, Naval Network Environment to support network operations. 
NGEN will leverage the Global Information Grid (GIG) and, where 
possible, utilize DOD enterprise services. A comprehensive transition 
strategy is currently being developed to detail the approach for 
transition from NMCI to NGEN. I appreciate the support of Congress as 
we execute a Continuity of Services Contract to assist in this 
transition.

                      REMAIN READY TO FIGHT TODAY

    Our Navy is operating at its highest levels in recent years. As I 
testified last year, even as our Nation shifts its focus from Iraq to 
Afghanistan, our Navy's posture, positioning, and frequency of 
deployment remain high. Combatant Commanders recognize the value of 
Navy forces to the current fight and to operations world-wide. We are 
meeting new needs for ballistic missile defense in Europe and the 
Pacific, counter-piracy and maritime security in Africa and South 
America, and humanitarian assistance in the Caribbean and Southeast 
Asia. Many of these demands started as one-time sourcing requests and 
have evolved into enduring requirements for Navy forces. As a result, 
we have experienced a significant difference between our budgeted and 
actual Fleet operations from year to year, as well as an increase in 
maintenance requirements for our Fleet as a result of its increased 
operational tempo.
    We have been able to meet these requirements by relying on a 
combination of base budget and contingency funding and the continuous 
readiness of our force generated by the Fleet Response Plan (FRP). FRP 
allows us to provide continuous availability of Navy forces that are 
physically well-maintained, properly manned, and appropriately trained 
to deploy for ongoing and surge missions. Any future funding reductions 
or increased restrictions limit our Navy's ability to respond with as 
much flexibility to increased Combatant Commander demands world-wide.
    Our bases and infrastructure enable our operational and combat 
readiness and are essential to the quality of life of our Sailors, Navy 
civilians, and their families. I appreciate greatly your enthusiastic 
support and confidence in the Navy through the inclusion of Navy 
projects in the American Reinvestment and Recovery Act. The funding 
provided through the Recovery Act addresses some of our most pressing 
needs for Child Development Centers, barracks, and energy improvements. 
Our projects are prioritized to make the greatest impact on mission 
requirements and quality of life. All of our Recovery Act projects meet 
Congress' intent to create jobs in the local economy and address 
critical requirements. These projects are being quickly and prudently 
executed to inject capital into local communities while improving 
mission readiness and quality of work and life for our Sailors and 
families.
    I appreciate your support for the following initiatives:
Training Readiness
    The proliferation of advanced, stealthy, nuclear and non-nuclear 
submarines, equipped with anti-ship weapons of increasing range and 
lethality, challenge our Navy's ability to guarantee the access and 
safety of joint forces. Effective Anti-Submarine Warfare (ASW) remains 
a remarkably and increasingly complex, high-risk warfare area that will 
require continued investment in research and development to counter the 
capabilities of current and future adversaries.
    Active sonar systems, particularly medium frequency active (MFA) 
sonar, are key enablers of our ability to conduct effective ASW. MFA 
sonar is the Navy's most effective tool for locating and tracking 
submarines at distances that preclude effective attack on our ships. We 
must conduct extensive integrated training, to include the use of 
active sonar, which mirrors the intricate operating environment present 
in hostile waters, particularly the littorals. This is of the highest 
importance to our national security and the safety of our Sailors and 
Marines.
    Over the past 5 years, Navy has expended significant effort and 
resources preparing comprehensive environmental planning documentation 
for our at sea training and combat certification activities. The Navy 
remains a world leader in marine mammal research, and we will continue 
our robust investment in this research in fiscal year 2010 and beyond. 
Through such efforts, and in full consultation and cooperation with our 
sister federal agencies, Navy has developed effective measures that 
safely protect marine mammals and the ocean environment from adverse 
impacts of MFA sonar while not impeding vital naval training.
    In overruling attempts to unduly restrain Navy's use of MFA sonar 
in Southern California training ranges, the Supreme Court cited 
President Teddy Roosevelt's quote ``the only way in which a navy can 
ever be made efficient is by practice at sea, under all conditions 
which would have to be met if war existed.'' We can and do balance our 
responsibility to prepare naval forces for deployment and combat 
operations with our responsibility to be good stewards of the marine 
environment.
Depot Level Maintenance
    Optimum employment of our depot level maintenance capability and 
capacity is essential to our ships and aircraft reaching their expected 
service life. Depot maintenance is critical to the safety of our 
Sailors and it reduces risk caused by extension of ships and aircraft 
past their engineered maintenance periodicity. Effective and timely 
depot level maintenance allows each ship and aircraft to reach its 
Expected Service Life, preserving our existing force structure and 
enabling us to achieve our required capacity.
    I have taken steps to enhance the state of maintenance of our 
surface combatants. In addition to our rigorous self-assessment 
processes that identify maintenance and readiness issues before our 
ships and aircraft deploy, I directed the Commander, Naval Sea Systems 
Command to reinstate an engineered approach to surface combatant 
maintenance strategies and class maintenance plans with the goal of 
improving the overall condition of these ships. Our Surface Ship Life 
Cycle Maintenance Activity will provide the same type of planning to 
address surface ship maintenance as we currently have for carriers and 
submarines.
    Consistent, long term agreements and stable workload in both the 
public and private sector are necessary for the efficient utilization 
of depots, and it is the most cost effective way to keep our ships and 
aircraft at the highest possible state of readiness. Consistent with my 
intent to drive our Navy to better articulate requirements and costs in 
all we do, we have rigorously updated the quantitative models we use to 
develop our maintenance budgets, increasing their overall fidelity. 
These initial editions of the revised maintenance plans have resulted 
in increased maintenance requirements and additional costs. Our 
combined fiscal year 2010 budget funds 96 percent of the projected 
depot ship maintenance requirements necessary to sustain our Navy's 
global presence. Our budget funds aviation depot maintenance at 100 
percent for deployed squadrons and at 87 percent for aviation 
maintenance requirements overall. I request the support of Congress to 
fully support our baseline and contingency funding requests for our 
operations and maintenance to ensure the safety of our Sailors and the 
longevity of our existing ships and aircraft.
Shore Readiness
    Our shore infrastructure enables our operational and combat 
readiness and is essential to the quality of life and quality of work 
for our Sailors, Navy civilians, and their families. For years, 
increased operational demand, rising manpower costs, and an aging Fleet 
have led our Navy to underfund shore readiness and, instead, invest in 
our people, afloat readiness, and future force structure. As a result, 
maintenance and recapitalization requirements have grown and the cost 
of ownership for our shore infrastructure has increased. At current 
investment levels, our future shore readiness, particularly 
recapitalization of our facilities infrastructure, is at risk.
    In an effort to mitigate this risk in a constrained fiscal 
environment, we are executing a Shore Investment Strategy that uses 
informed, capabilities-based investment decisions to target our shore 
investments where they will have the greatest impact to our strategic 
and operational objectives. I appreciate the enthusiastic support and 
confidence of Congress in the Navy through the inclusion of Navy 
projects in the American Reinvestment and Recovery Act. Through the 
Recovery Act, you allowed our Navy to address some of our most pressing 
needs for Child Development Centers, barracks, dry dock repairs, and 
energy improvements. These Navy projects are located in 22 states and 
territories and fully support the President's objectives of rapid and 
pervasive stimulus efforts in local economies. I am committed to 
further improvements in our shore infrastructure but our Navy must 
balance this need against our priorities of sustaining force structure 
and manpower levels.
Energy
    Our Navy is actively pursuing ways to reduce our energy consumption 
and improve energy efficiency in our operations and at our shore 
installations. Our emerging Navy Energy Strategy spans three key areas, 
afloat and on shore: (1) an energy security strategy to make certain of 
an adequate, reliable, and sustainable supply; (2) a robust investment 
strategy in alternative renewable sources of energy and energy 
conservation technologies; and (3) policy and doctrine changes that are 
aimed at changing behavior to reduce consumption.
    I will be proposing goals to the Secretary of the Navy to increase 
energy independence in our shore installations, increase use of 
alternative fuels afloat and reduce tactical petroleum consumption, and 
to reduce our carbon footprint and green house gas emissions. We are 
leveraging available investment dollars and current technological 
advances to employ technology that reduces energy demand and increases 
our ability to use alternative and renewable forms of energy for shore 
facilities and in our logistics processes. This technology improves 
energy options for our Navy today and in the future. Our initial 
interactions with industry and academic institutions in public symposia 
over the past few months have generated an enthusiastic response to our 
emerging strategy.
United Nations Convention on the Law of the Sea
    The Law of the Sea Convention codifies navigation and overflight 
rights and high seas freedoms that are essential for the global 
mobility of our armed forces. It directly supports our national 
security interests. Our current non-party status constrains efforts to 
develop enduring maritime partnerships, inhibits efforts to expand the 
Proliferation Security Initiative, and elevates the level of risk for 
our Sailors as they undertake operations to preserve navigation rights 
and freedoms, particularly in areas such as the Strait of Hormuz and 
Arabian Gulf, and the East and South China Seas. Accession to the Law 
of the Sea Convention remains a priority for our Navy.

           DEVELOP AND SUPPORT OUR SAILORS AND NAVY CIVILIANS

    Our talented and dedicated Sailors and Navy civilians are the 
critical component to the Navy's Maritime Strategy. I am committed to 
providing the necessary resources and shaping our personnel policies to 
ensure our people are personally and professionally supported in their 
service to our Nation.
    Since 2003, the Navy's end strength has declined by approximately 
10,000 per year aiming for a target of 322,000 Active Component (AC) 
and 66,700 Reserve Component (RC) Sailors. While end strength declined, 
we have increased operational availability through the Fleet Response 
Plan, supported new missions for the joint force, and introduced the 
Maritime Strategy. This increased demand includes maritime 
interdiction, riverine warfare, irregular and cyber warfare, 
humanitarian and disaster relief, an extended individual augmentee 
requirement in support of the joint force, and now, counter-piracy.
    To meet increased demands, maintain required Fleet manning levels 
with minimal risk, and minimize stress on the force, we have 
transitioned from a posture of reducing end strength to one of 
stabilizing the force. We anticipate that we will finish this fiscal 
year within two percent above our authorized level.
    The fiscal year 2010 budget request supports an active component 
end strength of 328,800. This includes 324,400 in the baseline budget 
to support Fleet requirements, as well as increased capacity to support 
the individual augmentee missions. The budget also supports the 
reversal of the Defense Health Program military-to-civilian conversions 
as directed by the Congress. The fiscal year 2010 budget also requests 
contingency funding for individual augmentees supporting the joint 
force in non-traditional Navy missions. To maintain Fleet readiness, 
support Combatant Commanders, and to minimize the stress on the force, 
our Navy must be appropriately resourced to support this operational 
demand.
    I urge Congress to support the following manpower and personnel 
initiatives:
Recruiting and Retention
    Navy has been successful in attracting, recruiting, and retaining a 
highly-skilled workforce this fiscal year. The fiscal year 2010 budget 
positions us to continue that success through fiscal year 2010. We 
expect to meet our overall officer and enlisted recruiting and 
retention goals, though we remain focused on critical skills sets, such 
as health professionals and nuclear operators.
    As demand for a professional and technically-trained workforce 
increases in the private sector, Navy must remain competitive in the 
marketplace through monetary and non-monetary incentives. Within the 
health professions, Navy increased several special and incentives pays, 
and implemented others, targeting critical specialties, including 
clinical psychology, social work, physician assistant, and mental 
health nurse practitioners. We are also offering mobilization 
deferments for officers who immediately transition from active to 
reserve status. We have increased bonuses and other incentives for 
nuclear trained personnel to address an increasing demand for these 
highly-trained and specialized professionals in the private sector.
    We continually assess our recruiting and retention initiatives, 
taking a targeted investment approach, to attract and retain high-
performing Sailors. We appreciate Congressional support for the Post-9/
11 GI Bill. Navy's goal is to maintain a balanced force, in which 
seniority, experience, and skills are matched to requirements.
Total Force Integration
    Navy continues to invest in Navy Reserve recruiting, retention and 
training while achieving Total Force integration between active and 
reserve components. The Navy Reserve Force provides mission capable 
units and individuals to the Navy and Marine Corps team through a full 
range of operations. Navy's goal is to become a better aligned Total 
Force in keeping with Department of Defense and Department of the Navy 
strategic guidance, while providing fully integrated operational 
support to the Fleet. Navy continues to validate new mission 
requirements and an associated Reserve Force billet structure to meet 
future capability requirements. Navy has leveraged incentives to best 
recruit Sailors within the Total Force and is developing and improving 
programs and policies that promote a continuum of service through Navy 
Reserve affiliation upon separating from the active component. Navy is 
removing barriers to ease transition between active and reserve 
components and is developing flexible service options and levels of 
participation to meet individual Sailor ability to serve the Navy 
throughout a lifetime of service.
Sailor and Family Continuum of Care
    Navy continues to provide support to Sailors and their families, 
through a ``continuum of care'' that covers all aspects of individual 
medical, physical, psychological, and family readiness. Through an 
integrated effort between Navy Medicine and Personnel headquarters 
activities and through the chain of command, our goal is reintegrating 
the individual Sailor with his or her command, family, and community.
    Our Navy and Coast Guard recently signed a memorandum of agreement 
for the Coast Guard to share the services provided by the Navy Safe 
Harbor Program. The program is currently comprised of approximately 375 
lifetime enrollees and 217 individuals receiving personally-tailored 
care management. It provides recovery coordination and advocacy for 
seriously wounded, ill, and injured Sailors and Coast Guardsmen, as 
well as a support network for their families. We have established a 
headquarters support element comprised of subject matter expert teams 
of non-medical care managers and recovery care coordinators, and 
Reserve surge support to supplement field teams in mass casualty 
situations.
    We have also developed the Anchor Program, which leverages the 
volunteer services of Navy Reserve members and retirees who assist 
Sailors in reintegrating with family and community. Navy recently 
institutionalized our Operational Stress Control (OSC) Program which 
provides an array of initiatives designed to proactively promote 
psychological resilience and sustain a culture of psychological health 
among Sailors and their families. We are developing a formal curriculum 
which will be integrated into the career training continuum for all 
Sailors throughout their Navy careers.
Active and Reserve Wounded, Ill and Injured
    Navy Medicine continues to assess the needs of wounded, ill and 
injured service members and their families. In 2008, Navy Medicine 
consolidated all wounded, ill and injured warrior healthcare support 
with the goal of offering comprehensive implementation guidance, the 
highest quality and most compassionate care to service members and 
their families. As of October 2008, 170 additional clinical care 
managers were assigned to military treatment facilities (MTFs) and 
ambulatory care clinics caring for approximately 1,800 OIF/OEF 
casualties. Over 150 clinical medical case managers at Navy MTFs 
advocate on behalf of wounded warriors and their family members by 
working directly with the multi-disciplinary medical team caring for 
the patient.
    The Navy recognizes the unique medical and administrative 
challenges faced by our Reserve Wounded Sailors when they return from 
deployment, and we know their care cannot end at the Military Treatment 
Facility (MTF). In 2008, we established two Medical Hold Units 
responsible for managing all aspects of care for Reserve Sailors in a 
Medical Hold (MEDHOLD) status. Co-located with MTFs in Norfolk and San 
Diego, these units are led by Line Officers with Senior Medical 
Officers supporting for medical issues. Under their leadership, case 
managers serve as advocates who proactively handle each Sailor's 
individualized plan of care until all medical and non-medical issues 
are resolved. We have reduced the numbers of Sailors in the MEDHOLD 
process and the length of time required to resolve their cases. The RC 
MEDHOLD program has become the single, overarching program for 
providing prompt, appropriate care for our Reserve Wounded Sailors.
Traumatic Brain Injury (TBI)
    TBI represents the defining wound of OIF/OEF due to the 
proliferation of improvised explosive devices (IED). The Department of 
the Navy has implemented a three-pronged strategy to increase detection 
of TBI throughout the deployment span, which includes mental health 
stigma reduction efforts, lowering the index of suspicion for TBI 
symptoms and improving seamless coordination of screening, detection 
and treatment among line and medical leaders. Navy Medicine continues 
to expand its efforts to identify, diagnosis and treat TBI. The 
traumatic stress and brain injury programs at National Naval Medical 
Center (NNMC) Bethesda, Naval Medical Center San Diego (NMCSD), Naval 
Hospital (NH) Camp Pendleton, and NH Camp Lejeune are collaborating to 
identify and treat service members who have had blast exposure. 
Furthermore, Navy Medicine has partnered with the Line community to 
identify specific populations at risk for brain injury such as front 
line units, SEALS, and Navy Explosive Ordinance disposal units.
Psychological Health
    The number of new cases of Post Traumatic Stress Disorder (PTSD) in 
the Navy has increased in the last year, from 1,618 in fiscal year 2007 
to 1,788 in fiscal year 2008 and we have expanded our efforts to reach 
out to service members. We continue to move mental health providers 
closer to the battlefield and remain supportive of the Psychologist-at 
Sea program. Incentives for military mental health providers have also 
increased to ensure the right providers are available. We are actively 
working to reduce the stigma associated with seeking help for mental 
health. Our recently established Operational Stress Control (OSC) 
program implements training and tools that line leadership can use to 
address stigma. Since inception, OSC Awareness Training, which included 
mental health stigma reduction, has been provided to over 900 non-
mental health care givers and 16,000 Sailors including over 1,395 at 
Navy's Command Leadership School and Senior Enlisted Academy.
Diversity
    We have had great success in increasing our diversity outreach and 
improving diversity accessions in our ranks. We are committed to a Navy 
that reflects the diversity of the Nation in all specialties and ranks 
by 2037. Through our outreach efforts, we have observed an increase in 
NROTC applications and have increased diverse NROTC scholarship offers 
by 28 percent. The NROTC class of 2012 is the most diverse class in 
history and, with your help through nominations, the U.S. Naval Academy 
class of 2012 is the Academy's most diverse class in history. Our Navy 
is engaging diversity affinity groups such as the National Society of 
Black Engineers, Thurgood Marshall College Fund, Society of Hispanic 
Professional Engineers, American Indian Science and Engineering 
Society, Mexican American Engineering Society, and the Asian Pacific 
Islander American Scholarship Fund to increase awareness of the 
opportunities for service in the Navy. Our engagement includes Flag 
attendance, junior officer participation, recruiting assets such as the 
Blue Angels, direct Fleet interaction. We have also established 
Regional Outreach Coordinators in Atlanta, Chicago, Houston, Los 
Angeles, and Miami to build Navy awareness in diverse markets.
    As we continue to meet the challenges of a new generation, the Navy 
is already being recognized for our efforts through receipt of the Work 
Life Legacy Award (Families and Work Institute), the Work Life 
Excellence Award (Working Mother Media), Most Admired Employer (U.S. 
Black Engineer and Hispanic Engineer Magazine), and Best Diversity 
Company (Diversity/Careers in Engineering and IT).
Life-Work Integration
    Thank you for your support of our Navy's efforts to balance work 
and life for our Sailors and their families. You included two important 
life-work integration initiatives in the fiscal year 2009 National 
Defense Authorization Act (NDAA) in which our Sailors have consistently 
expressed strong interest. The NDAA authorized 10 days of paternity 
leave for a married, active duty Sailor whose wife gives birth to a 
child, establishing a benefit similar to that available for mothers who 
receive maternity leave and for parents who adopt a child. The NDAA 
also included a career intermission pilot program, allowing 
participating Sailors to leave active duty for up to three years to 
pursue personal and professional needs, while maintaining eligibility 
for certain medical, dental, commissary, travel and transportation 
benefits and a portion of basic pay. In addition to these new 
authorities, Navy is also exploring other life-work integration 
initiatives, such as flexible work schedules and telework in non-
operational billets through use of available technologies such as 
Outlook Web Access for e-mail, Defense Connect Online, and Defense 
Knowledge Online for document storage and virtual meetings. The Virtual 
Command Pilot, implemented within the Total Force Domain for an initial 
group of officers, will allow individuals to remain in their current 
geographic locations while working for parent commands located 
elsewhere within the United States.
Education
    We recognize the importance both to the individual and to our 
mission of providing a life-long continuum of learning and development. 
Education remains a critical component of this continuum. The Navy's 
Professional Military Education Continuum, with an embedded Joint 
Professional Military Education (JPME) component, produces leaders 
skilled in maritime and joint planning. Additionally, we offer several 
college-focused incentives. Tuition assistance provides funds to 
individuals to pay for college while serving. The Navy College Fund 
provides money for college whenever the Sailor decides to end his or 
her Navy career. The Navy College Program Afloat College Education 
(NCPACE) provides educational opportunities for Sailors while deployed. 
Furthermore, officers are afforded the opportunity to pursue advanced 
education through the Naval Postgraduate School (NPS), NPS distance 
learning programs, the Naval War College, and several Navy fellowship 
programs. In addition, our Loan Repayment Program allows us to offer 
debt relief up to $65,000 to recruits who enlist after already earning 
an advanced degree. The Advanced Education Voucher (AEV) program 
provides undergraduate and graduate off-duty education opportunities to 
selected senior enlisted personnel as they pursue Navy-relevant 
degrees. The Accelerate to Excellence (A2E) program, currently in the 
second year of a three-year pilot, combines two semesters of education 
completed while in the Delayed Entry Program, one semester of full-time 
education taken after boot camp, and college credit earned upon 
completion of ``A'' school to complete an Associates Degree. The Navy 
Credentialing Opportunities Online (COOL) program matches rate training 
and experience with civilian credentials, and funds the costs of 
credentialing and licensing exams. As of the end of March 2009, there 
have been more than 35 million visits to the COOL web site, with more 
than 13,000 certification exams funded and approximately 8,500 civilian 
certifications attained.

                               CONCLUSION

    Despite the challenges we face, I remain optimistic about the 
future. The men and women, active and reserve, Sailor and civilian, of 
our Navy are extraordinarily capable, motivated, and dedicated to 
preserving our national security and prosperity. We are fully committed 
to the current fight and to ensuring continued U.S. global leadership 
in a cooperative world. We look forward to the upcoming Quadrennial 
Defense Review, which will address how we can best use our military 
forces to meet the complex and dynamic challenges our Nation faces 
today and will face in the future. We have seen more challenging times 
and emerged prosperous, secure, and free. I ask Congress to fully 
support our fiscal year 2010 budget and identified priorities. Thank 
you for your continued support and commitment to our Navy, and for all 
you do to make the U.S. Navy a force for good today and in the future.

    Chairman Inouye. Now may I call upon the Commandant of the 
Marine Corps, General Conway.

STATEMENT OF GENERAL JAMES T. CONWAY, COMMANDANT, 
            UNITED STATES MARINE CORPS, DEPARTMENT OF 
            THE NAVY
    General Conway. Mr. Chairman, Senator Cochran, Senator 
Bond: Thank you, sirs, for the opportunity to report to you on 
your Marine Corps. My pledge, as always, is to provide you with 
a candid and honest assessment, and I appear before you in that 
spirit today.
    Our number one priority remains your marines in combat. 
Since testimony before your subcommittee last year, progress in 
the Anbar Province of Iraq continues to be significant. Indeed, 
our marines are in the early stages of the most long-awaited 
phase of operations, the reset of our equipment and the 
redeployment of the force. Having recently returned from a trip 
to theater, I'm pleased to report to you that the magnificent 
performance of our marines and sailors in al-Anbar continues 
across a whole spectrum of tasks and responsibilities.
    In Afghanistan, we have substantially another story, as 
thus far in 2009 the Taliban have increased their activity. The 
2d Marine Expeditionary Brigade, an air-ground task force 
numbering more than 10,000 marines and sailors, has just 
assumed responsibility for its battle space under Regional 
Command South. They're operating primarily in the Helmand 
Province, where 93 percent of the country's opium is harvested 
and where the Taliban have been most active.
    We are maintaining an effort to get every marine to the 
fight and today more than 70 percent of your Marine Corps has 
done so. Yet our force remains resilient, in spite of an 
average deployment-to-dwell that is slightly better than one to 
one in most occupational specialties.
    We believe retention is a great indicator of the morale of 
the force and the support of our families. By the halfway point 
of this fiscal year, we had already met our reenlistment goals 
for first term marines and for our career force.
    Our growth in the active component by 27,000 marines has 
proceeded and 2\1/2\ years now ahead of schedule, with no 
change to our standards. We have reached the level of 202,100 
marines and have found it necessary to throttle back our 
recruiting efforts. We attribute our accelerated growth to four 
factors: quality recruiting, exceptional retention levels, 
reduced attrition, and, not least, a great young generation of 
Americans who wish to serve their country in wartime.
    Our Corps is deeply committed to the care and welfare of 
our wounded and their families. Our Wounded Warrior Regiment 
reflects this commitment. We seek through all phases of 
recovery to assist in the rehabilitation and transition of our 
wounded, injured or ill, and their families. I would also like 
to thank those of you on the subcommittee who have set aside 
your personal time to visit with our wounded warriors.
    Secretary Gates seeks to create a balanced U.S. military 
through the efforts of the Quadrennial Defense Review. We have 
always believed that the Marine Corps has to be able to play 
both ways, to be a two-fisted fighter. Our equipment and major 
programs reflect our commitment to be flexible in the face of 
uncertainty. That is to say that 100 percent of United States 
Marine Corps (USMC) procurement can be employed either in a 
hybrid conflict or in major combat.
    Moreover, we seek to remain good stewards of the resources 
provided by Congress through innovative adaptation of our 
equipment. The tilt rotor technology of the M-22 Osprey is 
indicative of this commitment. We are pleased to report that 
this airframe has continued to exceed our expectations through 
three successful combat deployments to Iraq and now a fourth 
aboard ship. Beginning this fall, there will be at least one 
Osprey squadron in Afghanistan for as long as we have marines 
deployed there.
    The future posture of our Corps includes a realignment of 
marine forces in the Pacific. As part of the agreement between 
Tokyo and Washington, we are planning the movement of 8,000 
marines off Okinawa to Guam. We support this move. However, we 
believe the development of training areas and ranges on Guam 
and the adjoining islands in the Marianas are key prerequisites 
for the realignment of our forces. We are actively working 
within the Department of Defense to align USMC requirements 
with ongoing environmental assessments and political 
agreements.
    Finally, on behalf of your Marine Corps I extend my 
gratitude for the support that we have received to date. Our 
great young patriots have performed magnificently and have 
written their own page in history. They know as they go into 
harm's way that their fellow Americans are behind them. On 
their behalf, I thank you for your enduring support. We pledge 
to spend wisely every dollar you generously provide in ways 
that contribute to the defense of this great land.

                           PREPARED STATEMENT

    Thank you once again for the opportunity to report to you 
today and I look forward, sir, to your questions.
    Chairman Inouye. Thank you very much, Commandant.
    [The statement follows:]

                 Prepared Statement of James T. Conway

                              INTRODUCTION

    Chairman Inouye, Senator Cochran, and distinguished Members of the 
Committee, my pledge to you remains the same--to always provide my 
forthright and honest assessment of your Marine Corps. The following 
pages detail my assessment of the current state of our Corps and my 
vision for its future.
    First and foremost, on behalf of all Marines, I extend deep 
appreciation for your magnificent support of the Marine Corps and our 
families--especially those warriors currently engaged in Iraq and 
Afghanistan. Extremists started this war just over 25 years ago in 
Beirut, Lebanon. Since then, our country has been attacked and 
surprised repeatedly, at home and abroad, by murderers following an 
extreme and violent ideology. I am convinced, given the chance, they 
will continue to kill innocent Americans at every opportunity. Make no 
mistake, your Marines are honored and committed to stand between this 
great Nation and any enemy today and in the future. Whether through 
soft or hard power, we will continue to fight the enemy on their land, 
in their safe havens, or wherever they choose to hide.
    A selfless generation, today's Marines have raised the bar in 
sacrifice and quality. They know they will repeatedly go into harm's 
way, and despite this, they have joined and reenlisted at exceptional 
rates. Exceeding both the Department of Defense and our own high school 
graduate standards, more than 96 percent of our enlistees in fiscal 
year 2008 had earned their high school diploma. Furthermore, based on a 
recent study from the Center for Naval Analyses, we are also retaining 
higher quality Marines.
    The success in Al Anbar directly relates to the quality of our 
Marines. Several years ago, few would have thought that the conditions 
we see in Al Anbar today were possible, but rotation after rotation of 
Marines, Sailors, Soldiers, and Airmen practiced patience, 
perseverance, and trigger control until the Sunni leadership realized 
that we were not the enemy. Now, the vast majority of our actions in Al 
Anbar deal with political and economic issues--the Corps looks forward 
to successfully completing our part in this initial battle of the Long 
War.
    However, our Marines are professionals and understand there is 
still much work to be done. As we increase our strength in Afghanistan, 
Marines and their families are resolved to answer their Nation's call. 
There are many challenges and hardships that lie ahead, but our Marines 
embrace the chance to make a difference. For that, we owe them the full 
resources required to complete the tasks ahead--to fight today's 
battles, prepare for tomorrow's challenges, and fulfill our commitment 
to our Marine families.
    Our Marines and Sailors in combat remain my number one priority.--
The resiliency of our Marines is absolutely amazing. Their performance 
this past year in Iraq and Afghanistan has been magnificent, and we 
could not be more proud of their willingness to serve our great Nation 
at such a critical time. Our concerns are with our families; they are 
the brittle part of the equation, yet through it all, they have 
continued to support their loved ones with the quiet strength for which 
we are so grateful.
    To fulfill the Marine Corps' commitment to the defense of this 
Nation, and always mindful of the sacrifices of our Marines and their 
families that make it possible, our priorities will remain steadfast. 
These priorities will guide the Corps through the battles of today and 
the certain challenges and crises in our Nation's future. Our budget 
request is designed to support the following priorities:
  --Right-size the Marine Corps for today's conflict and tomorrow's 
        uncertainty
  --Reset the force and prepare for the next contingency
  --Modernize for tomorrow to be ``the most ready when the Nation is 
        least ready''
  --Provide our Nation a naval force fully prepared for employment as a 
        Marine Air Ground Task Force across the spectrum of conflict
  --Take care of our Marines and their families
  --Posture the Marine Corps for the future
    Your support is critical as we continue to reset the force for 
today and adapt for tomorrow. As prudent stewards of the Nation's 
resources, we are committed to providing the American taxpayer the 
largest return on investment. The future is uncertain and invariably 
full of surprises, but continued support by Congress will ensure a 
balanced Marine Corps--increasingly agile and capable--ready to meet 
the needs of our Nation and a broadening set of missions. From 
humanitarian assistance to large-scale conventional operations, your 
Marines have never failed this great Nation, and thanks to your 
steadfast support, they never will.

                   OUR MARINES AND SAILORS IN COMBAT

    Our Corps' most sacred resource is the individual Marine. It is 
imperative to the long-term success of the institution that we keep 
their well being as our number one priority. Over the past several 
years, sustained deployments in Iraq, Afghanistan, and across the globe 
have kept many Marines and Sailors in the operating forces deployed as 
much as they have been at home station. They have shouldered our 
Nation's burden and done so with amazing resiliency. Marines understand 
what is required of the Nation's elite warrior class--to stand up and 
be counted when the Nation needs them the most. For this, we owe them 
our unending gratitude.
    Marines and their families know that their sacrifices are making a 
difference, that they are part of something much larger than 
themselves, and that their Nation stands behind them. Thanks to the 
continued support of Congress, your Marines will stay resolved to fight 
and defeat any foe today or in the future.
USMC Operational Commitments
    The Marine Corps is fully engaged in a generational, multi-faceted 
Long War that cannot be won in one battle, in one country, or by one 
method. Our commitment to the Long War is characterized by campaigns in 
Iraq and Afghanistan as well as diverse and persistent engagements 
around the globe. As of 6 May 2009, there are more than 25,000 Marines 
deployed to the U.S. Central Command's Area of Responsibility in 
support of Operations IRAQI FREEDOM (OIF) and ENDURING FREEDOM (OEF). 
The vast majority are in Iraq; however, we are in the process of 
drawing down those forces and increasing the number of Marines in 
Afghanistan.
    In Afghanistan, we face an enemy and operating environment that is 
different than that in Iraq. We are adapting accordingly. Nearly 5,700 
Marines are deployed to various regions throughout Afghanistan--either 
as part of Special Purpose Marine Air Ground Task Force (SPMAGTF)--
Afghanistan, 2d Marine Expeditionary Brigade, Marine Special Operations 
Companies, Embedded Training Teams, or Individual Augments and those 
numbers will grow substantially. The Embedded Training Teams live and 
work with the Afghan National Army and continue to increase the Afghan 
National Army's capabilities as they grow capacity. Other missions 
outside Afghanistan are primarily in the broader Middle East area, with 
nearly 2,800 Marines, to include the 13th Marine Expeditionary Unit.
    While we recognize the heavy demand in Iraq and Afghanistan, the 
Marine Corps is very conscious of the need for deployed forces 
throughout the rest of the globe. As of 6 May 2009, there are roughly 
2,800 Marines deployed in the U.S. Pacific Command's Area of 
Responsibility alone, to include the 31st Marine Expeditionary Unit and 
a 62-man detachment in the Philippines. More than 100 Marines are 
deployed in support of Combined Joint Task Force--Horn of Africa in 
Djibouti. Additionally, the Marine Corps has participated in more than 
200 Theater Security Cooperation events, ranging from small mobile 
training teams to MAGTF exercises in Latin America, Africa, Eastern 
Europe, and the Pacific.

                      RIGHT-SIZE THE MARINE CORPS

    The needs of a Nation at war demanded the growth of our active 
component by 27,000 Marines. We have had great success and will reach 
our goal of 202,000 Marines during fiscal year 2009--more than 2 years 
earlier than originally forecasted. Solid planning and your continued 
support will ensure we meet the training, infrastructure, and equipment 
requirements resulting from this growth. This growth will significantly 
improve the ability of your Corps to train to the full range of 
military operations. It will also increase our capacity to deploy 
forces in response to contingencies and to support security cooperation 
with our partners, ultimately reducing operational risk and posturing 
the Corps for continued success in the future.
    Before we were funded to grow our force, we were forced into an 
almost singular focus on preparing units for future rotations and 
counterinsurgency operations. This narrowed focus and the intense 
deployment rate of many units weakened our ability to maintain 
traditional skills, such as amphibious operations, combined-arms 
maneuver, and mountain warfare. Congressionally-mandated to be ``the 
most ready when the Nation is least ready,'' this growth is an 
essential factor to improve our current deployment-to-dwell ratio and 
allow our Corps to maintain the sophisticated skills-sets required for 
today and the future.
    In fiscal year 2008, we activated another infantry battalion and 
increased capacity in our artillery, reconnaissance, engineer, military 
police, civil affairs, intelligence, and multiple other key units that 
have seen a significantly high deployment tempo. With your continued 
support, we will continue to build capacity according to our planned 
growth.
    Improving the deployment-to-dwell ratio for our operating forces 
will also reduce stress on our Marines and their families. Achieving 
our goal of a 1:2 deployment-to-dwell ratio for active duty and a 1:5 
ratio for Reserves is crucial to the health of our force and our 
families during this Long War. Our peacetime goal for active duty 
remains a 1:3 deployment-to-dwell ratio.
Achieving and Sustaining a Marine Corps of 202,000
    The Marine Corps grew by more than 12,000 Marines in fiscal year 
2008 and is on pace to reach an active duty end strength of 202,000 by 
the end of fiscal year 2009--more than 2 years ahead of schedule. We 
attribute our accelerated growth to four factors: quality recruiting, 
exceptional retention levels, reduced attrition, and--not least--an 
incredible generation of young Americans who welcome the opportunity to 
fight for their country. Our standards remain high, and we are 
currently ahead of our fiscal year 2009 goal in first term enlistments 
and are on track with our career reenlistments. Attrition levels are 
projected to remain at or below fiscal year 2008 rates.
            Recruiting
    Recruiting is the strategic first step in making Marines and 
growing the Corps. With first-term enlistments accounting for more than 
70 percent of our end strength increase, our recruiting efforts must 
not only focus on our overall growth, but also on attracting young men 
and women with the right character, commitment, and drive to become 
Marines.
    We continue to exceed Department of Defense quality standards and 
recruit the best of America into our ranks. The Marine Corps achieved 
over 100 percent of the Active Component accession goal for both 
officer and enlisted in fiscal year 2008. We also achieved 100 percent 
of our Reserve component recruiting goals.
            Retention
    Retention is a vital complement to recruiting and an indicator of 
the resiliency of our force. In fiscal year 2008, the Marine Corps 
achieved an unprecedented number of reenlistments with both the First 
Term and Career Force. We established the most aggressive retention 
goals in our history, and our achievement was exceptional. Our 16,696 
reenlistments equated to a first-term retention rate of almost 36 
percent and a Career Marine retention rate of 77 percent. Through 17 
March 2009:
  --7,453 first-term Marines reenlisted, meeting 101.6 percent of our 
        goal. This represents the fastest attainment of a fiscal year 
        first-term reenlistment goal in our history and equates to a 
        retention rate of 31.4 percent retention rate; traditional 
        reenlistments average 6,000 or a retention rate of 24 percent.
  --7,329 Marines who have completed at least two enlistment contracts 
        chose to reenlist again. This number represents 98.2 percent of 
        our goal of 7,464 reenlistments, and a 72.2 percent retention 
        rate among the eligible population.
    Our retention success may be attributed to several important 
enduring themes. First, Marines are motivated to ``stay Marine'' 
because they are doing what they signed up to do--fighting for and 
protecting our Nation. Second, they understand that the Marine Corps 
culture is one that rewards proven performance. Third, our reenlistment 
incentives are designed to retain top quality Marines with the most 
relevant skill sets. The continued support of Congress will ensure 
continued success.
            The Marine Corps Reserve
    Our Reserves continue to make essential contributions to our Total 
Force efforts in The Long War, particularly in Iraq and Afghanistan. As 
we accelerated our build to 202,000 Active Component Marines, we 
understood that we would take some risk in regards to obtaining our 
Reserve Component end strength of 39,600. During the 202,000 build-up, 
we adjusted our accession plans and encouraged our experienced and 
combat-tested Reserve Marines to transition back to active duty in 
support of these efforts. They responded in force, and as a result, we 
came in under our authorized Reserve Component end strength limit by 
2,077. As a Total Force Marine Corps, we rely heavily upon the 
essential augmentation and reinforcement provided by our Reserve 
Marines. We believe our authorized end strength of 39,600 is 
appropriate and provides us with the Marines we require to support the 
force and to achieve our goal of a 1:5 deployment-to-dwell ratio. With 
the achievement of the 202,000 active duty force, we will refocus our 
recruiting and retention efforts to achieve our authorized Reserve 
Component end strength. The bonus and incentives provided by Congress, 
specifically the authorization to reimburse travel expenses to select 
members attending drill, will be key tools in helping us accomplish 
this goal.
Infrastructure
    The Marine Corps remains on track with installation development in 
support of our personnel growth. With the continued support of 
Congress, we will ensure sufficient temporary facilities or other 
solutions are in place until permanent construction can be completed.
            Military Construction: Bachelor Housing
    Due to previous fiscal constraints, the Marine Corps has routinely 
focused on critical operational concerns, and therefore we have not 
built barracks. With your support, we have recently been able to expand 
our construction efforts and have established a program that will 
provide adequate bachelor housing for our entire force by 2014. 
Additional support is required for our fiscal year 2010 program to 
provide 3,000 new barracks spaces and meet our 2014 goal. We are also 
committed to funding the replacement of barracks' furnishings on a 7-
year cycle as well as the repair and maintenance of existing barracks 
to improve the quality of life of our Marines.
    We are constructing our barracks to a two-person room configuration 
and assigning our junior personnel (pay grades E1-E3) at two Marines 
per room. We are a young Service; the majority of our junior Marines 
are 18-21 years old, and assigning them at two per room helps 
assimilate them into the Marine Corps culture, while fostering 
camaraderie and building unit cohesion. As Marines progress to 
noncommissioned officer rank and take on the added responsibilities of 
corporal (E4) and sergeant (E5), our intent is to assign them one per 
room.
            Public Private Venture (PPV) Housing
    The Marine Corps supports the privatization of family housing. To 
date, the Public Private Venture (PPV) program has been a success 
story. We have benefited from the construction of quality homes and 
community support facilities, as well the vast improvement in 
maintenance services. PPV has had a positive impact on the quality of 
life for our Marines and families. The feedback we have received has 
been overwhelmingly positive.
    PPV has been integral to accommodating existing requirements and 
the additional family housing requirements associated with the growth 
of our force. By the end of fiscal year 2007, with the support of 
Congress, the Marine Corps privatized 96 percent of its worldwide 
family housing inventory. By the end of fiscal year 2010, we expect to 
complete our plan to privatize 97 percent of our existing worldwide 
family housing inventory.
    We again thank the Congress for its generous support in this area. 
In fiscal years 2008 and 2009, you provided the funding to construct or 
acquire nearly 3,000 additional homes and two related Department of 
Defense Dependent Schools through this program; and by 2014, PPV will 
result in all of our families being able to vacate inadequate family 
housing.

                            RESET THE FORCE

    Operations in Iraq and Afghanistan have placed an unprecedented 
demand on ground weapons systems, aviation assets, and support 
equipment. These assets have experienced accelerated wear and tear due 
to the harsh operating environments and have far exceeded the planned 
peacetime usage rates. Additionally, many equipment items have been 
destroyed or damaged beyond economical repair. High rates of degraded 
material condition require the Marine Corps to undergo significant 
equipment reset for our operational forces and our prepositioning 
programs. Reset will involve all actions required to repair, replace, 
or modernize the equipment and weapons systems that will ensure the 
Nation's expeditionary force in readiness is well prepared for future 
missions. We appreciate the generous support of Congress to ensure that 
Marines have the equipment and maintenance resources they need to meet 
mission requirements. It is our pledge to be good stewards of the 
resources you so generously provide.
Reset Costs
    Costs categorized as ``reset'' meet one of the following criteria: 
maintenance and supply activities that restore and enhance combat 
capability to unit and prepositioned equipment; replace or repair 
equipment destroyed, damaged, stressed, or worn out beyond economic 
repair; or enhance capabilities, where applicable, with the most up-to-
date technology.
    Congressional support has been outstanding. Thus far, you have 
provided more than $12 billion toward reset. We thank you for this 
funding; it will help ensure that Marines have the equipment they need 
to properly train for and conduct combat operations.
Equipment Readiness
    Sustained operations have subjected our equipment to more than a 
lifetime's worth of wear and tear stemming from mileage, operating 
hours, and harsh environmental conditions. The additional weight 
associated with armor plating further exacerbates the challenge of 
maintaining high equipment readiness. Current Marine Corps policy 
dictates that as forces rotate in and out of theater, their equipment 
remains in place. This policy action was accompanied by an increased 
maintenance presence in theater and has paid great dividends as our 
deployed ground force readiness remains above 90 percent. While we have 
witnessed a decrease in supply readiness rates for home station units, 
the delivery of supplemental procurements is beginning to bear fruit 
and we expect our readiness rates in supply to rise steadily.
Aviation Equipment and Readiness
    Marine Corps Aviation supports our Marines in combat today while 
continuing to plan for crisis and contingency operations of tomorrow. 
Our legacy aircraft are aging, and we face the challenge of maintaining 
current airframes that have been subjected to heavy use in harsh, 
austere environments while we transition to new aircraft. Our aircraft 
have been flying at rates well above those for which they were 
designed; however, despite the challenge of operating in two theaters, 
our maintenance and support personnel have sustained a 74.5 percent 
aviation mission-capable rate for all Marine aircraft over the past 12 
months. We must continue to overuse these aging airplanes in harsh 
environments as we transition forces from Iraq to Afghanistan.
    To maintain sufficient numbers of aircraft in squadrons deployed 
overseas, our non-deployed squadrons have taken significant cuts in 
available aircraft and parts. Reset and supplemental funding have 
partially alleviated this strain, but we need steady funding for our 
legacy airframes as age, attrition, and wartime losses take their toll 
on our aircraft inventory.
Prepositioning Programs
    Comprised of three Maritime Prepositioning Ships Squadrons (MPSRON) 
and other strategic reserves, the Marine Corps' prepositioning programs 
are a critical part of our ability to respond to current and future 
contingency operations and mitigate risk for the Nation. Each MPSRON, 
when married with a fly in echelon, provides the equipment and 
sustainment of a 17,000-man Marine Expeditionary Brigade for employment 
across the full range of military operations. Withdrawal of equipment 
from our strategic programs has been a key element in supporting combat 
operations, growth of the Marine Corps, and other operational 
priorities. Generous support from the Congress has enabled long-term 
equipment solutions, and as a result, shortfalls within our strategic 
programs will be reset as equipment becomes available from industry.
            Maritime Prepositioning Squadrons (MPSRON)
    Our MPSRONs will be reset with the most capable equipment possible, 
and we have begun loading them with capabilities that support lower 
spectrum operations while still maintaining the ability to generate 
Marine Expeditionary Brigades capable of conducting major combat 
operations. The MPSRONs are currently rotating through Maritime 
Prepositioning Force Maintenance Cycle-9. MPSRON-1 completed MPF 
Maintenance Cycle-9 in September 2008 and is currently at 86 percent of 
its full equipment set. As I addressed in my 2008 report, equipment 
from MPSRON-1 was required to outfit new units standing up in fiscal 
year 2007 and fiscal year 2008 as part of our end strength increase to 
202,000. MPSRON-1 is expected to be fully reset at the completion of 
its next maintenance cycle in 2011.
    MPSRON-2 is currently undergoing its rotation through MPF 
Maintenance Cycle-9. Equipment from MPSRON-2 was offloaded to support 
Operation IRAQI FREEDOM and much of that equipment remains committed to 
forward operations today. With projected deliveries from industry, 
MPSRON-2 will complete MPF Maintenance Cycle-9 in June 2009 with 
approximately 90 percent of its planned equipment set. Our intent is to 
finish the reset of MPSRON-2 when it completes MPF Maintenance Cycle-10 
in fiscal year 2012. MPSRON-3 was reset to 100 percent of its equipment 
set during MPF Maintenance Cycle-8 in March 2007 and remains fully 
capable.
    We are currently in the process of replacing the aging, leased 
vessels in the Maritime Prepositioning Force with newer, larger, and 
more flexible government owned ships from the Military Sealift Command 
fleet. Two decades of equipment growth and recent armor initiatives 
have strained the capability and capacity of our present fleet--that 
was designed to lift a Naval Force developed in the early 1980s. As we 
reset MPF, these changes are necessary to ensure we incorporate hard 
fought lessons from recent combat operations.
    Five of the original 13, leased Maritime Prepositioning Ships will 
be returned to Military Sealift Command by July 2009. In their place, 
we are integrating 3 of Military Sealift Command's 19 large, medium-
speed, roll-on/roll-off ships (LMSR), a fuel tanker and a container 
ship into the MPF Program. One LMSR was integrated in September 2008 
and two more are planned for January 2010 and January 2011. The fuel 
tanker and container ship will be incorporated in June 2009. These 
vessels will significantly expand MPF's capacity and flexibility and 
will allow us to reset and optimize to meet current and emerging 
requirements. When paired with our amphibious ships and landing craft, 
the LMSRs provide us with platforms from which we can develop advanced 
seabasing doctrine and tactics, techniques, and procedures for 
utilization by the Maritime Prepositioning Force (Future) program.
            Marine Corps Prepositioning Program: Norway
    The Marine Corps Prepositioning Program--Norway (MCPP-N) was also 
used to source equipment in support of current operations in both 
Operations Iraqi and Enduring Freedom and to provide humanitarian 
assistance in Georgia. The Marine Corps continues to reset MCPP-N in 
accordance with our operational priorities while also exploring other 
locations for geographic prepositioning that will enable combat and 
theater security cooperation operations in support of forward deployed 
Naval Forces.

                         MODERNIZE FOR TOMORROW

    Surprise is inevitable; however, its potentially disastrous effects 
can be mitigated by a well-trained, well-equipped, and disciplined 
force--always prepared for the crises that will arise. To that end and 
taking into account the changing security environment and hard lessons 
learned from 7 years of combat, the Marine Corps recently completed an 
initial review of its Operating Forces' ground equipment requirements. 
Recognizing that our unit Tables of Equipment (T/E) did not reflect the 
challenges and realities of the 21st century battlefield, the Corps 
adopted new T/Es for our operating units. This review was synchronized 
with our modernization plans and programs, and provided for enhanced 
mobility, lethality, sustainment, and command and control across the 
MAGTF. They reflect the capabilities required not only for the Corps' 
current mission, but for its future employment across the range of 
military operations, against a variety of threats, and in diverse 
terrain and conditions. The MAGTF T/E review is an integral part of the 
critical work being done to reset, reconstitute, and revitalize the 
Marine Corps.
    Additionally, we recently published the Marine Corps Vision and 
Strategy 2025, which guides our development efforts over the next two 
decades. Programs such as the Expeditionary Fighting Vehicle and the 
Joint Strike Fighter are critical to our future preparedness. 
Congressionally-mandated to be ``the most ready when the Nation is 
least ready,'' your multi-capable Corps will be where the Nation needs 
us, when the Nation needs us, and will prevail over whatever challenge 
we face.
Urgent Needs Process
    The Marine Corps Urgent Needs Process synchronizes abbreviated 
requirements, resourcing, and acquisition processes in order to 
distribute mission-critical warfighting capabilities on accelerated 
timelines. Operating forces use the Urgent Universal Need Statement to 
identify mission-critical capability gaps and request interim 
warfighting solutions to these gaps. Subject to statutes and 
regulations, the abbreviated process is optimized for speed and 
involves a certain degree of risk with regard to doctrine, 
organization, training, materiel, leadership and education, personnel, 
and facilities integration and sustainment, along with other deliberate 
process considerations. A Web-based system expedites processing; 
enables stakeholder visibility and collaboration from submission 
through resolution; and automates staff action, documentation, and 
approval. This Web-based system is one of a series of process 
improvements that, reduced average time from receipt through Marine 
Requirements Oversight Council decision from 142 days (December 2005 
through October 2006) to 85 days (November 2006 through October 2008).
Enhancing Individual Survivability
    We are providing Marines the latest in Personal Protection 
Equipment (PPE)--such as the Scalable Plate Carrier, Modular Tactical 
Vest, Lightweight Helmet, and Flame Resistant Organizational Gear 
(FROG). The Scalable Plate Carrier features a smaller area of coverage 
to reduce weight, bulk, and heat load for operations at higher 
elevations like those encountered in Afghanistan. Coupled with the 
Modular Tactical Vest, the Scalable Plate Carrier provides commanders 
options to address various mission/threat requirements. Both vests use 
Enhanced Small Arms Protective Inserts (E-SAPI) and Side SAPI plates 
and provide the best protection available against a wide variety of 
small arms threats--including 7.62 mm ammunition.
    The current Lightweight Helmet provides a high degree of protection 
against fragmentation threats and 9 mm bullets, and we continue to 
challenge industry to develop a lightweight helmet that will stop the 
7.62 mm round. The lifesaving ensemble of Flame-Resistant 
Organizational Gear (FROG) clothing items help to mitigate potential 
heat and flame injuries to our Marines from improvised explosive 
devices.
    We are also upgrading our Counter Radio-controlled Electronic 
Warfare (CREW) systems to meet evolving threats. Our Explosive Ordnance 
Disposal (EOD) equipment has been reconfigured and modernized to be 
used with CREW systems and has provided EOD technicians the capability 
of remotely disabling IEDs.
Marine Aviation Plan
    The fiscal year 2009 Marine Aviation Plan provides the way ahead 
for Marine Aviation through fiscal year 2018, with the ultimate long-
range goal of fielding an all-short-takeoff/vertical landing aviation 
force by 2025. We will continue to transition from our 12 legacy 
aircraft models to six new airframes and expand from 64 to 69 flying 
squadrons while adding 565 officers and more than 4,400 enlisted 
Marines.
            Joint Strike Fighter (JSF)
    The F-35 Lightning II, Joint Strike Fighter, will provide the 
Marine Corps with an affordable, stealthy, high performance, multi-role 
jet aircraft to operate in the expeditionary campaigns of the future. 
The JSF acquisition program was developed using the concept of cost as 
an independent variable (CAIV), which demands affordability, aggressive 
management, and preservation of the warfighting requirement. The F-
35B's cutting edge technology and STOVL design offer greater safety, 
reliability, and lethality than today's tactical aircraft.
    This aircraft will be the centerpiece of Marine Aviation. Our 
program of record is to procure 420 aircraft (F-35B, STOVL). Our first 
flight of the STOVL variant was conducted in the summer of 2008, and 
the manufacture of the first 19 test aircraft is well under way, with 
assembly times better than planned. We will reach initial operational 
capability in 2012, with a standing squadron ready to deploy.
            MV-22 Osprey
    The MV-22 is the vanguard of revolutionary assault support 
capability and is currently replacing our aged CH-46E aircraft. In 
September 2005, the MV-22 Defense Acquisition Board approved Full Rate 
Production, and MV-22 Initial Operational Capability was declared on 1 
June 2007, with a planned transition of two CH-46E squadrons per year 
thereafter. We have 90 operational aircraft, a quarter of our planned 
total of 360. These airframes are based at Marine Corps Air Station New 
River, North Carolina; and Pawtuxet River, Maryland. Recently, we 
welcomed back our third MV-22 squadron from combat. By the end of 
fiscal year 2009, we will have one MV-22 Fleet Replacement Training 
Squadron, one test squadron, and six tactical VMM squadrons.
    The MV-22 program uses a block strategy in its procurement. Block A 
aircraft are training aircraft and Block B are operational aircraft. 
Block C aircraft are operational aircraft with mission enhancements 
that will be procured in fiscal year 2010 and delivered in fiscal year 
2012.
    Teaming with Special Operations Command, we are currently on 
contract with BAE systems for the integration and fielding of a 7.62mm, 
all aspect, crew served, belly mounted weapon system that will provide 
an enhanced defensive suppressive fire capability. Pending successful 
developmental and operational testing we expect to begin fielding 
limited numbers of this system later in 2009.
    This aircraft, which can fly higher, faster, farther, and longer 
than the CH-46, provides dramatically improved support to the MAGTF and 
our Marines in combat. On deployments, the MV-22 is delivering Marines 
to and from the battlefield faster, ultimately saving lives with its 
speed and range. Operating from Al Asad, the MV-22 can cover the entire 
country of Iraq. The Marine Corps asked for a transformational assault 
support aircraft--and Congress answered.
            KC-130J Hercules
    The KC-130J Hercules is the workhorse of Marine aviation, providing 
state-of-the-art, multi-mission capabilities; tactical aerial 
refueling; and fixed-wing assault support. KC-130Js have been deployed 
in support of Operations IRAQI FREEDOM and ENDURING FREEDOM and are in 
heavy use around the world.
    The success of the aerial-refuelable MV-22 in combat is tied to the 
KC-130J, its primary refueler. The forced retirement of the legacy KC-
130F/R aircraft due to corrosion, fatigue life, and parts obsolescence 
requires an accelerated procurement of the KC-130J. In addition, the 
Marine Corps will replace its 28 reserve component KC-130T aircraft 
with KC-130Js, simplifying the force to one Type/Model/Series. The 
Marine Corps is continuing to plan for a total of 79 aircraft, of which 
34 have been delivered.
    In response to urgent requests from Marines currently engaged in 
combat in Afghanistan, additional capabilities are being rapidly 
fielded utilizing existing platforms and proven systems to enhance 
intelligence, surveillance, and reconnaissance (ISR) as well as fire 
support capability. The ISR/Weapon Mission Kit being developed for use 
onboard the KC-130J will enable the MAGTF commander to take advantage 
of the Hercules' extended endurance to provide persistent over-watch of 
ground units in a low-threat environment. A targeting sensor coupled 
with a 30mm cannon, Hellfire missiles, and/or standoff precision guided 
munitions will provide ISR coverage with a sting. Additionally, this 
added capability will not restrict or limit the refueling capability of 
the KC-130J. The USMC is rapidly pursuing fielding of the first two 
kits to support operations in Afghanistan in 2009.
            H-1 Upgrade
    The H-1 Upgrade Program (UH-1Y/AH-1Z) resolves existing operational 
UH-1N power margin and AH-1W aircrew workload issues while 
significantly enhancing the tactical capability, operational 
effectiveness, and sustainability of our attack and utility helicopter 
fleet. Our Vietnam-era UH-1N Hueys are reaching the end of their useful 
life. Due to airframe and engine fatigue, Hueys routinely take off at 
their maximum gross weight with no margin for error. Rapidly fielding 
the UH-1Y remains a Marine Corps aviation priority and was the driving 
force behind the decision to focus on UH-1Y fielding ahead of the AH-
1Z. Three UH-1Ys deployed aboard ship with a Marine Expeditionary Unit 
in January of 2009.
    Twenty production H-1 aircraft (14 Yankee and 6 Zulu) have been 
delivered. Operation and Evaluation Phase II commenced in February 
2008, and as expected, showcased the strengths of the upgraded 
aircraft. Full rate production of the UH-1Y was approved during the 
fourth quarter fiscal year 2008 at the Defense Acquisition Board (DAB) 
with additional Low Rate Initial Production (LRIP) aircraft approved to 
support the scheduled fleet introduction of the AH-1Z in the first 
quarter of fiscal year 2011.
            CH-53K
    The CH-53K is a critical ship-to-objective maneuver and seabasing 
enabler; it will replace our CH-53E, which has been fulfilling our 
heavy lift requirements for over 20 years. The CH-53K will be able to 
transport 27,000 pounds externally to a range of 110 nautical miles, 
more than doubling the CH-53E lift capability under similar 
environmental conditions while maintaining the same shipboard 
footprint. Maintainability and reliability enhancements of the CH-53K 
will significantly decrease recurring operating costs and will 
radically improve aircraft efficiency and operational effectiveness 
over the current CH-53E. Additionally, survivability and force 
protection enhancements will dramatically increase protection for 
aircrew and passengers; thereby broadening the depth and breadth of 
heavy lift operational support to the joint task force commander. 
Initial Operational Capability for the CH-53K is scheduled for fiscal 
year 2015. Until then, we will upgrade and maintain our inventory of 
CH-53Es to provide heavy lift capability in support of our warfighters.
            Unmanned Aerial Systems (UAS)
    When fully fielded, the Corps' Unmanned Aerial Systems will be 
networked through a robust and interoperable command and control system 
that provides commanders an enhanced capability applicable across the 
spectrum of military operations. Revolutionary systems, such as those 
built into the Joint Strike Fighter, will mesh with these UAS to give a 
complete, integrated picture of the battlefield to ground commanders.
    Our Marine Expeditionary Forces have transitioned our Unmanned 
Aerial Vehicle Squadrons (VMU) to the RQ-7B Shadow; reorganized the 
squadrons' force structure to support detachment-based flexibility 
(operating three systems versus one for each squadron); and are 
preparing to stand up our fourth active component VMU squadron. The 
addition of a fourth VMU squadron is critical to sustaining operations 
by decreasing our deployment-to-dwell ratio--currently at 1:1--to a 
sustainable 1:2 ratio. This rapid transition and reorganization, begun 
in January 2007, will be complete by the middle of fiscal year 2010.
    In Iraq and Afghanistan, the Marine Corps is currently using an ISR 
Services contract to provide Scan Eagle systems to our forces, but we 
anticipate fielding Small Tactical UAS (STUAS), a combined Marine Corps 
and Navy program, in fiscal year 2011 to fill that void at the regiment 
and Marine Expeditionary Unit (MEU) level. In support of battalion-and-
below operations, the Marine Corps is transitioning from the Dragon Eye 
to the joint Raven-B program.
            Airborne Electronic Attack (AEA)
    The EA-6B remains the premier electronic warfare platform within 
the Department of Defense. The Marine Corps is fully committed to the 
Prowler. While the Prowler continues to maintain a high deployment 
tempo, supporting operations against new and diverse irregular warfare 
threats, ongoing structural improvements and the planned Improved 
Capabilities III upgrades will enable us to extend the aircraft's 
service life through 2018.
    Beyond the Prowler, the future of electronic warfare for the Marine 
Corps will be comprised of a networked system-of-systems. The 
constituent components of this network include the F-35B Joint Strike 
Fighter, Unmanned Aerial Systems, Intelligence, Surveillance, and 
Reconnaissance pods and payloads, the Next Generation Jammer (NGJ), and 
ground systems already fielded or under development. Our future vision 
is to use the entire array of electronic warfare capabilities 
accessible as part of the distributed electronic warfare network. This 
critical and important distinction promises to make Marine Corps 
electronic warfare capabilities accessible, available, and applicable 
to all MAGTF and joint force commanders.
Ground Tactical Mobility Strategy
    The Army and Marine Corps are leading the Services in developing 
the right tactical wheeled vehicle fleets for the joint force. Through 
a combination of resetting and replacing current systems and developing 
several new vehicles, our work will provide the joint force with 
vehicles of appropriate expeditionary mobility, protection level, 
payload, transportability, and sustainability. As we develop new 
vehicles, it is imperative that our ground tactical vehicles provide 
adequate protection while still being sized appropriately for an 
expeditionary force.
            Expeditionary Fighting Vehicle (EFV)
    The EFV is the cornerstone of the Nation's forcible entry 
capability and the Marine Corps is in a period of critical risk until 
the EFV is fielded. Based on current and future threats, amphibious 
operations must be conducted from over the horizon and at least 25 
nautical miles at sea. The EFV is the sole sea-based, surface oriented 
vehicle that can project combat power from the assault echelon over the 
horizon to the objective. EFVs are specifically suited to maneuver 
operations from the sea and sustained operations ashore. It will 
replace the aging Assault Amphibious Vehicle, which has been in service 
since 1972. Complementary to our modernized fleet of tactical vehicles, 
the EFV's amphibious mobility, day and night lethality, enhanced force 
protection capabilities, and robust communications will substantially 
improve joint force capabilities.
    During the program's Nunn-McCurdy restructure in June 2007, the EFV 
was certified to Congress as essential to National security. EFV System 
Development and Demonstration was extended 4\1/2\ years to allow for 
design reliability. The EFV program successfully released a Critical 
Design Review in the first quarter of fiscal year 2009 during a 
capstone event that assessed the EFV design as mature with a predicted 
reliability estimate of 61 hours mean time between operational mission 
failures greatly exceeding the exit criteria of 43.5 hours. These 
improvements will be demonstrated during the Developmental Test and 
Operational Test phases starting second quarter fiscal year 2010 on the 
seven new EFV prototypes currently being manufactured at the Joint 
Services Manufacturing Center in Lima, Ohio. The Low Rate Initial 
Production decision is programmed for fiscal year 2012. The current 
acquisition objective is to produce 573 EFVs. Initial Operational 
Capability is scheduled for 2015 and Full Operational Capability is 
scheduled for 2025.
            Mine Resistant Ambush Protected (MRAP) Vehicles
    The Marine Corps is executing this joint urgent requirement to 
provide as many highly survivable vehicles to theater as quickly as 
possible. In November 2008, the Joint Requirements Oversight Council 
established a new 16,238-vehicle requirement for all Services and 
SOCOM. The current Marine Corps requirement of 2,627 vehicles supports 
our in-theater operations and home station training and was satisfied 
in June 2008. We are currently developing modifications that will 
provide for greater off-road mobility and utility in an Afghan 
environment in those vehicles that have been procured.
Vehicle Armoring
    The evolving threat environment requires proactive management of 
tactical wheeled vehicle programs in order to provide Marine 
warfighters with the most well protected, safest vehicles possible 
given technological limitations. Force protection has always been a 
priority for the Marine Corps. We have fielded a Medium Tactical 
Vehicle Replacement (MTVR) Armor System for the MTVR; Fragmentation 
Armor Kits for the High Mobility Multipurpose Wheeled Vehicles (HMMWV); 
Marine Armor Kits (MAK) armor for the Logistics Vehicle System (LVS); 
and the Mine Resistant Ambush Protected (MRAP) vehicles. We have 
developed increased force protection upgrades to the MTVR Armor System, 
safety upgrades for the HMMWVs, and are developing improved armor for 
the Logistics Vehicle System. We will continue to work with the Science 
& Technology community and with our sister Services to develop and 
apply technology as required to address force protection. Congressional 
support for our force protection efforts has been overwhelming, and we 
ask that Congress continue their life-saving support in the coming 
years.
Marine Air Ground Task Force (MAGTF) Fires
    In 2007, we initiated ``The MAGTF Fires Study.'' This study 
examined the current organic fire support of the MAGTF to determine the 
adequacy, integration, and modernization requirements for ground, 
aviation, and naval surface fires. The study concluded that the MAGTF/
Amphibious Task Force did not possess an adequate capability to engage 
moving armored targets and to achieve a volume of fires in all weather 
conditions around the clock. This deficiency is especially acute during 
Joint Forcible Entry Operations. We are currently conducting a study 
with the Navy to analyze alternatives for meeting our need for naval 
surface fires during this phase. Additionally, we performed a 
supplemental historical study using Operation IRAQI FREEDOM data to 
examine MAGTF Fires across the range of military operations. These 
studies reconfirmed the requirement for a mix of air, naval surface, 
and ground-based fires as well as the development of the Triad of 
Ground Indirect Fires.
            Triad of Ground Indirect Fires
    The Triad of Ground Indirect Fires provides for complementary, 
discriminating, and non-discriminating fires that facilitate maneuver 
during combat operations. The Triad requires three distinct systems to 
address varying range and volume requirements. Offering improved 
capabilities and mobility, the M777 is a medium-caliber artillery piece 
that is currently replacing the heavy and aged M198 Howitzer. The High 
Mobility Artillery Rocket System is an extended range, ground-based 
rocket capability that provides precision and volume fires. The 
Expeditionary Fire Support System (EFSS) is a towed 120mm mortar. It 
will be the principal indirect fire support system for heli-borne and 
tilt rotor-borne forces executing Ship-to-Objective Maneuver. When 
paired with an Internally Transportable Vehicle, the EFSS can be 
transported aboard MV-22 Osprey and CH-53E aircraft. EFSS-equipped 
units will have immediately responsive, organic indirect fires at 
ranges beyond those of current infantry battalion mortars. Initial 
operational capability is planned in 2009 with full operational 
capability expected for fiscal year 2012.
            Naval Surface Fire Support
    In the last year, the Naval Services have focused on reinvigorating 
our strategy for building naval surface fire support capable of 
engaging targets at ranges consistent with our Ship-to-Objective 
Maneuver concept. In March 2008, the Extended Range Guided Munition 
development effort, which was designed to provide naval gunfire at 
ranges up to 53 nautical miles, was cancelled due to numerous technical 
and design flaws. The DDG 1000 program, which provides for an Advanced 
Gun System firing the Long Range Land Attack Projectile 70 nautical 
miles as well as for the Dual Band RADAR counter-fire detection 
capability, was truncated as priorities shifted to countering an 
emerging ballistic missile threat. As a result, the Marine Corps and 
Navy are committed to re-evaluating methods for providing required 
naval fires.
            Aviation Fires
    Marine aviation is a critical part of the MAGTF fires capability. 
The Joint Strike Fighter will upgrade missile and bomb delivery, 
combining a fifth-generation pilot-aircraft interface, a 360-degree 
view of the battlefield, and a new generation of more lethal air-
delivered ordnance coming online through 2025. Systems, such as 
Strikelink, will mesh forward air controllers with pilots and infantry 
officers at all levels. Laser and global positioning systems will 
provide terminal phase precision to less-accurate legacy bombs, 
missiles and rockets, providing more-lethal, all-weather aviation 
fires.
Infantry Weapons
    We are also developing infantry weapons systems based on our combat 
experience and supporting studies. These systems not only support the 
current fight, but also posture Marines to respond across the full 
spectrum of war. Our goals include increased lethality and combat 
effectiveness, reduced weight, improved modularity, and integration 
with other combat equipment. The Marine Corps and Army are co-leading a 
joint Service capabilities analysis in support of future developments.
    The M16A4 and the M4 carbine are collectively referred to as the 
Modular Service Weapon. While both weapons have proven effective and 
reliable in combat operations, we must continually seek ways of 
improving the weapons with which we equip our warriors. With that in 
mind, we are re-evaluating current capabilities and determining 
priorities for a possible future service rifle and pistol.
    We are in the process of acquiring the Infantry Automatic Rifle, 
which is shorter and lighter than the M249 Squad Automatic Weapon and 
will enable the automatic rifleman to keep pace with the fire team 
while retaining the capability to deliver accurate and sustained 
automatic fire in all tactical environments. The Infantry Automatic 
Rifle will increase the lethality of our rifle squads while reducing 
logistical burden.
    The Marine Corps is also upgrading its aging Shoulder-launched 
Multipurpose Assault Weapon (SMAW) with a lighter launcher and enhanced 
targeting and fire control. In concert with this, we are developing a 
``fire from enclosure'' rocket that will enable Marines to fire the 
SMAW from within a confined space.
            Non-lethal Weapons
    Our joint forces will continue to operate in complex security 
environments where unintended casualties and infrastructure damage will 
work against our strategic goals. Therefore, our warfighters must have 
the capability to respond using both lethal and non-lethal force. As 
the Executive Agent for the Department of Defense Non-Lethal Weapons 
Program, the Marine Corps oversees and supports joint Service 
operational requirements for non-lethal weapons and their development 
to meet identified capability gaps. Our efforts extend across the 
globe, as reflected by the Department of Defense's engagement with the 
North Atlantic Treaty Organization in identifying emerging non-lethal 
capabilities. Directed-energy technology is proving to hold much 
promise for the development of longer-range, more effective non-lethal 
weapons. Non-lethal weapon applications will provide new options for 
engaging personnel, combating small boat threats, and stopping 
vehicles, and are critical to our success against today's hybrid 
threats.
Command and Control
    The Marine Corps' Command and Control Harmonization Strategy 
articulates our goal of delivering seamless support to Marines. We are 
taking the best of emerging technologies to build an integrated set of 
capabilities that includes the Common Aviation Command and Control 
System (CAC2S), Joint Tactical Radio System, Very Small Aperture 
Terminal, the Combat Operations Center (COC), Joint Tactical COP 
Workstation, and Blue Force tracking system.
            Combat Operations Center (COC)
    By 2010, the MAGTF Combat Operations Center capability will 
integrate air and ground tactical situations into one common picture. 
The COC program has a current Authorized Acquisition Objective of 260 
systems, of which 242 are COCs supporting regimental/group-size and 
battalion/squadron-size operating forces. As of 1 May 2009, 22 COCs 
have been deployed overseas in support of units participating in 
Operation IRAQI FREEDOM; 16 COCs are deployed in support of Operation 
ENDURING FREEDOM. COC systems will eventually support the warfighter 
from the Marine Expeditionary Force-level to the company-level and 
below.
Marine Corps Enterprise Network (MCEN)
    The Marine Corps Enterprise Network (MCEN) enables the Marine 
Corps' warfighters and business domains to interface with joint forces, 
combatant commands, and the other Services on our classified and 
unclassified networks.
    To meet the growing demands for a modern, networked force, the 
Marine Corps, as part of a Department of Navy-led effort, is 
transitioning its Non-Secure Internet Protocol Routing Network 
(NIPRNET) from the contract owned and contract operated Navy-Marine 
Corps Intranet (NMCI) to a government owned and government operated 
Next Generation Enterprise Network (NGEN). This transition will provide 
the Marine Corps unclassified networks increased security, control, and 
flexibility.
    The Marine Corps continues to invest in the expansion and 
enhancement of our Secret Internet Protocol Routing Network (SIPRNET) 
to ensure a highly secure and trusted classified network that meets our 
operational and intelligence requirements.
    The Marine Corps has enhanced its security posture with a defense-
in-depth strategy to respond to cyber threats while maintaining network 
accessibility and responsiveness. This layered approach, aligned with 
Department of Defense standards, provides the Marine Corps networks 
that support our warfighting and business operations while protecting 
the personal information of our Marines, Sailors, and their families.
Intelligence, Surveillance, and Reconnaissance (ISR)
    We continue to improve the quality, timeliness, and availability of 
actionable intelligence through implementation of the Marine Corps 
Intelligence, Surveillance, and Reconnaissance Enterprise (MCISR-E). 
This approach incorporates Marine Corps ISR capabilities into a 
flexible framework that enables us to collect, analyze, and rapidly 
exchange information necessary to facilitate increased operational 
tempo and effectiveness. Through development of the Distributed Common 
Ground System--Marine Corps (DCGS-MC), the enterprise will employ fully 
integrated systems architecture compliant with joint standards. This 
will allow our units to take advantage of joint, national, interagency, 
and coalition resources and capabilities, while making our intelligence 
and combat information available to the same. MCISR-E will integrate 
data from our ground and aerial sensors as well as from non-traditional 
intelligence assets, such as from battlefield video surveillance 
systems, Joint Strike Fighter sensors, and unit combat reports. This 
will enhance multi-discipline collection and all-source analytic 
collaboration. Additionally, MCISR-E will improve interoperability with 
our command and control systems and facilitate operational reach-back 
to the Marine Corps Intelligence Activity and other organizations.
    Recent growth in intelligence personnel permitted us to establish 
company-level intelligence cells, equipped with the tools and training 
to enable every Marine to be an intelligence collector and consumer. 
This capability has improved small unit combat reporting and enhanced 
operational effectiveness at all levels. Collectively, these efforts 
provide an adaptive enterprise that supports Marine Air-Ground Task 
Force intelligence requirements across the full range of military 
operations.
Improved Total Life Cycle Management
    To assure effective warfighting capabilities, we are improving the 
Total Life Cycle Management of ground equipment and weapons systems. 
Overall mission readiness will be enhanced through the integration of 
the Total Life Cycle Management value stream with clear aligned roles, 
responsibilities, and relationships that maximize the visibility, 
supportability, availability, and accountability of ground equipment 
and weapons systems.
    This will be accomplished through the integration of activities 
across the life cycle of procuring, fielding, sustaining, and disposing 
of weapon systems and equipment. Some of the expected benefits include:
  --``Cradle to grave'' material life cycle management capability
  --Clearly defined roles and responsibilities for life cycle 
        management across the enterprise
  --Availability of reliable fact-based information for decision making
  --Full cost visibility
  --Full asset visibility
  --Standardized processes and performance metrics across the 
        enterprise
  --Improved internal management controls
Water and Energy Conservation
    The Marine Corps believes in good stewardship of water and energy 
resources aboard our installations. In April 2009, we published our 
Facilities Energy & Water Management Campaign Plan, which includes the 
steps we are taking to reduce greenhouse gas emissions and our 
dependence on foreign oil. In our day-to-day operations and long-term 
programs, we intend to reduce the rate of energy use in existing 
facilities, increase energy efficiency in new construction and 
renovations, expand the use of renewable resources, reduce usage rates 
of water on our installations, and improve the security and reliability 
of energy and water systems.
                a naval force, for employment as a magtf
    Your Corps provides the Nation a multi-capable naval force that 
operates across the full range of military operations. The Navy, Marine 
Corps, and Coast Guard will soon publish the Naval Operations Concept 
2009 (NOC 09). This publication describes how, when, and possibly where 
U.S. naval forces will prevent conflict--and/or prevail in war--as part 
of a maritime strategy. In this era of strategic uncertainty, forward 
deployed naval forces are routinely positioned to support our national 
interests. The ability to overcome diplomatic, geographic, and anti-
access impediments anywhere on the globe is a capability unique to 
naval forces. Our strategies and concepts address the following 
requirements: The ability to maintain open and secure sea lines of 
communication for this maritime nation; the ability to maneuver over 
and project power from the sea; the ability to work with partner 
nations and allies to conduct humanitarian relief or non-combatant 
evacuation operations; and the ability to conduct sustained littoral 
operations along any coastline in the world. These strategies and 
concepts highlight the value of naval forces to the Nation and 
emphasize the value of our Marine Corps-Navy team.
Seabasing
    The ability to operate independently from the sea is a core 
capability of the Navy and Marine Corps. Seabasing is our vision of 
future joint operations from the sea. Seabasing is the establishment of 
a port, an airfield, and a replenishment capability at sea through the 
physical coupling and interconnecting of ships beyond the missile range 
of the enemy. We believe sea-based logistics, sea-based fire support, 
and the use of the ocean as a medium for tactical and operational 
movement will permit our expeditionary forces to move directly from 
their ships to the objectives--on the shoreline or far inland. From 
that base at sea--with no footprint ashore--we will be able to conduct 
the full range of operations, from forcible entry to disaster relief or 
humanitarian assistance.
Forcible Entry
    Naval forces afford the Nation's only sustainable forcible entry 
capability. Two Marine Expeditionary Brigades (MEBs) constitute the 
assault echelon of a sea-based Marine Expeditionary Force. Each MEB 
assault echelon requires 17 amphibious warfare ships--resulting in an 
overall ship requirement of 34 operationally available amphibious 
warfare ships. In order to meet a 34-ship availability rate based on a 
Chief of Naval Operations approved maintenance factor of 10 percent 
(not available for deployment), this calls for an inventory of 38 
amphibious ships. This amphibious fleet must be composed of not less 
than 11 amphibious assault ships (LHA/LHD), 11 amphibious transport 
dock ships (LPD-17 class), and 12 dock landing ships (LSD), with 4 
additional amphibious ships, which could be either LPDs or LSDs. This 
arrangement accepts a degree of risk but is feasible if the assault 
echelons can be rapidly reinforced by the Maritime Prepositioning Force 
(future). The Navy and Marine Corps agreed to this requirement for 38 
amphibious warfare ships.
            LPD-17
    The recent deployment of the first of the San Antonio-class 
amphibious warfare ship demonstrates the Navy's commitment to a modern 
expeditionary power projection fleet that will enable our naval force 
to operate across the spectrum of conflict. It is imperative that, at a 
minimum, 11 of these ships be built to support the 2.0 MEB assault 
echelon amphibious lift requirement. Procurement of the 10th and 11th 
LPD remains one of our highest priorities. The Marine Corps recognizes 
and appreciates the support Congress has provided in meeting the 
requirement for 11 LPD-17 ships.
    To assist the Navy in transitioning to an optimum number and types 
of common hull forms, the LPD-17 remains the leading candidate for 
replacing the dock landing ships (LSD). Constructing new amphibious 
ships based on the incremental refinement of common hull forms will 
greatly enhance our ability to meet evolving MAGTF lift requirements. 
Critical to this strategy is the development of a shipbuilding schedule 
that will provide a smooth transition from legacy ship decommissioning 
to new ship delivery, minimizing operational risk while driving costs 
down.
    Today and in the future, LPD-17 class ships will play a key role by 
forward deploying Marines and their equipment to execute global 
commitments throughout all phases of engagement. The ship's flexible, 
open-architecture design will facilitate expanded force coverage and 
decrease reaction times of forward deployed Marine Expeditionary Units. 
It will also offer the capacity to maintain a robust surface assault 
and rapid off-load capability in support of combatant commander forward 
presence and warfighting requirements.
            LHA(R)/LH(X)
    A holistic amphibious shipbuilding strategy must ensure that our 
future warfighting capabilities from the sea are fully optimized for 
both vertical and surface maneuver capabilities. The MV-22 and Joint 
Strike Fighter, combined with CH-53 K and the UH-1 Y/Z, will provide an 
unparalled warfighting capacity for the combatant commanders. Two 
Amphibious Assault (Replacement) (LHA(R)) ships with enhanced aviation 
capabilities will replace two of the retiring Amphibious Assault (LHA) 
class ships and join the eight LHD class amphibious assault ships. The 
LHA(R) design traded surface warfare capabilities to provide enhanced 
aviation hangar and maintenance spaces to support aviation maintenance, 
increase jet fuel storage and aviation ordnance magazines, and increase 
aviation sortie generation rates.
    Operational lessons learned and changes in future operational 
concepts have caused changes in MAGTF equipment size and weight and 
have reinforced the requirement for amphibious ships with flexible 
surface interface capabilities. The Marine Corps remains committed to 
meeting the long-standing requirement for simultaneous vertical and 
surface maneuver capabilities from the seabase. Toward that end, 
follow-on big deck amphibious ship construction to replace LHAs will 
incorporate surface interface capabilities while retaining significant 
aviation enhancements of the LHA Replacement ship.
Maritime Prepositioning Force (Future)
    The Maritime Prepositioning Force (Future) (MPF(F)) is a key 
Seabasing enabler and will build on the success of the legacy Maritime 
Prepositioning Force program. MPF(F) will provide support to a wide 
range of military operations, from humanitarian assistance to major 
combat operations, with improved capabilities such as at-sea arrival 
and assembly; selective offload of mission sets; persistent, long-term, 
sea-based sustainment; and at-sea reconstitution. The squadron is 
designed to provide combatant commanders a highly flexible operational 
and logistics support capability to meet widely varied expeditionary 
missions ranging from reinforcing and supporting the assault echelon 
during Joint Forcible Entry Operations to conducting independent 
operations throughout the remaining range of military operations. The 
squadron will preposition a single MEB's critical equipment and 
sustainment capability for delivery from the sea base without the need 
for established infrastructure ashore.
    The Acting Secretary of the Navy, the Chief of Naval Operations, 
and the Commandant of the Marine Corps approved MPF(F) squadron 
capabilities and ship composition in May 2005, as documented in the 
MPF(F) Report to Congress on 6 June 2005. Those required capabilities 
and ship composition remain fully valid today in meeting the full range 
of combatant commander mission requirements. The MPF(F) squadron is 
designed to be comprised of three aviation-capable ships, three 
modified Large Medium-Speed Roll-on/roll-off ships (LMSR), three Dry 
Cargo/Ammunition (T-AKE) supply ships, three Mobile Landing Platforms, 
and two legacy dense-packed (T-AK) ships.
            MPF(F) Aviation Capable Ships: ``An Airfield Afloat''
    MPF(F) aviation-capable ships are the key Seabasing enablers that 
set it apart from legacy prepositioning programs. These ships are 
multifaceted enablers that are vital to the projection of forces from 
the seabase, offering a new level of operational flexibility and reach. 
MPF(F) aviation capable ships contain the MEB's command and control 
nodes as well as medical capabilities, vehicle stowage, and berthing 
for the MEB. They serve as a base for rotary wing/tilt-rotor aircraft, 
thus supporting the vertical employment of forces to objectives up to 
110 nautical miles from the sea base as well as surface reinforcement 
via the LHD well deck. These ships allow for the stowage, operation, 
arming, control, and maintenance of aircraft in the seabase, which 
directly allows for the vertical and surface employment, projection, 
and sustainment of forces ashore.
    Without these ships, the MPF(F) squadron would have to compensate 
for the necessary operational capabilities and lift capacities, 
increasing the number of ships, modifying the remaining platforms in 
the squadron, and/or accepting significant additional operational risk 
in areas such as vertical maneuver, command and control, and medical.
            Mobile Landing Platform (MLP): ``A Pier in the Ocean''
    The Mobile Landing Platform (MLP) is perhaps the most flexible 
platform in the MPF(F) squadron. MLP will provide at-sea vehicle, 
equipment, and personnel transfer capabilities from the Large Medium 
Speed Roll-on/Roll-off ship (LMSR) to air-cushioned landing craft via 
the MLP's vehicle transfer system currently under development. The MLP 
also provides organizational and intermediate maintenance that enables 
the surface employment of combat ready forces from over the horizon. In 
short, the MLP is a highly flexible, multi-purpose intermodal 
capability that will be a key interface between wide varieties of 
seabased platforms. Instead of ships and lighters going to a terminal 
on shore, they will conduct at-sea transfers of combat-ready personnel, 
vehicles, and equipment to and from the MPF(F).
    Beyond its critical role within the MPF(F) squadron, the MLP also 
serves as the crucial joint interface platform with other Services and 
coalition partners. The MLP will possess an enhanced container-handling 
capability, allowing it to transfer containerized sustainment from 
military and commercial ships to forces ashore.
            Dry Cargo/Ammunition Ship (T-AKE): ``A Warehouse Afloat''
    The Dry Cargo/Ammunition Ship (T-AKE) is a selectively off-
loadable, afloat warehouse ship that is designed to carry dry, frozen, 
and chilled cargo, ammunition, and limited cargo fuel. It is a 
versatile supply platform with robust underway replenishment 
capabilities for both dry and wet cargo that can re-supply other ships 
in the squadron and ground forces as required. Key holds are 
reconfigurable for additional flexibility. It has a day/night capable 
flight deck. The squadron's three T-AKEs will have sufficient dry cargo 
and ammunition capacities to provide persistent sustainment to the 
Marine Expeditionary Brigade operating ashore. The cargo fuel--in 
excess of a million gallons--will greatly contribute to sustaining the 
forces ashore. These ships can support the dry cargo and compatible 
ammunition requirements of joint forces and are the same ship class as 
the Combat Logistics Force T-AKE ships.
            Large Medium-Speed Roll-on/Roll-off (LMSR) Ship: ``Assembly 
                    at Sea''
    A Large Medium Speed Roll on/Roll off ship (LMSR) platform will 
preposition MEB assets and will enable at-sea arrival and assembly 
operations and selective offload operations. Expansive vehicle decks 
and converted cargo holds will provide sufficient capacity to stow the 
MEB's vehicles, equipment, and supplies in an accessible configuration. 
This, combined with selective offload via the MLP's vehicle transfer 
system, will permit at-sea arrival and assembly operations within the 
ship. The LMSR will have sufficient berthing for assembly and 
integration of MEB personnel and associated vehicles and equipment. 
LMSR modifications will include two aviation operating spots, underway 
replenishment equipment, a controlled assembly area, and ordnance 
magazines and elevators. Specific modifications, such as the side port 
hatch design and inclusion of anti-roll tanks, will facilitate 
employing the MLP's vehicle transfer system with the MPF(F) LMSR during 
seabased operations. The LMSR will also have dedicated maintenance 
areas capable of supporting organizational intermediate maintenance 
activities for all ground combat equipment.

                        OUR MARINES AND FAMILIES

    While our deployed Marines never question the need or ability to 
live in an expeditionary environment and harsh climates, they have 
reasonable expectations that their living quarters at home station will 
be clean and comfortable. Those who are married want their families to 
enjoy quality housing, schools, and family support. It is a moral 
responsibility for us to support them in these key areas. A quality of 
life survey we conducted in late 2007 reflected that despite the 
current high operational tempo, Marines and spouses were satisfied with 
the support they receive from the Marine Corps. Marines make an 
enduring commitment to the Corps when they earn the title Marine. In 
turn, the Corps will continue its commitment to Marines and their 
families. We extend our sincere appreciation for Congress' commitment 
to this Nation's wounded warriors and their direction for the 
establishment of Centers of Excellence within the Department of Defense 
that address Traumatic Brain Injury, Post-traumatic Stress Disorder, 
eye injuries, hearing loss, and a joint Department of Defense/
Department of Veterans Affairs Center addressing loss of limbs.
Family Readiness Programs
    Last year, we initiated a multi-year plan of action to put our 
family support programs on a wartime footing. We listened to our 
families and heard their concerns. We saw that our commanders needed 
additional resources, and we identified underfunded programs operating 
largely on the strength and perseverance of hard-working staff and 
volunteers.
    To address the above concerns, we have established full-time Family 
Readiness Officer billets in more than 400 units and have also acted to 
expand the depth and breadth of our family readiness training programs. 
The Family Readiness Officer is supported in this mission by the Marine 
Corps Community Services Program. For the families communication with 
their deployed Marines is their number one quality of life requirement. 
With the Family Readiness Officer serving as the focal point, we have 
used information technology tools to expand the communication between 
Marines and their families.
    These initiatives and others demonstrate the commitment of the 
Marine Corps to our families and underscore the significance of family 
readiness to mission readiness. We thank Congress for the supplemental 
funding during fiscal years 2008 and 2009 that enabled initial start-
up. Beginning in fiscal year 2010, the funding required to maintain 
these critical programs will be part of our baseline budget.
Casualty Assistance
    Our casualty assistance program is committed to ensuring that 
families of our fallen Marines are treated with the utmost compassion, 
dignity, and honor. We have taken steps to correct the unacceptable 
deficiencies in our casualty reporting process that were identified in 
congressional hearings and subsequent internal reviews.
    Marine Corps commands now report the initiation, status, and 
findings of casualty investigations to the Headquarters Casualty 
Section in Quantico, which has the responsibility to ensure the next of 
kin receive timely notification of these investigations from their 
assigned Casualty Assistance Calls Officer.
    The Headquarters Casualty Section is a 24-hour-per-day operation 
manned by Marines trained in casualty reporting, notification, and 
casualty assistance procedures. These Marines have also taken on the 
additional responsibility of notifying the next of kin of wounded, 
injured, and ill Marines.
    In October 2008, we implemented a mandatory training program for 
Casualty Assistance Calls Officers that includes a Web-based capability 
to expand the reach of the course. This training covers notification 
procedures, benefits and entitlements, mortuary affairs, and grief and 
bereavement issues. We will continue to monitor the effectiveness of 
these changes and make adjustments where warranted.
Wounded Warrior Regiment
    The Marine Corps is very proud of the positive and meaningful 
impact that the Wounded Warrior Regiment is having on wounded, ill, and 
injured Marines, Sailors, and their families. Just over 18 months ago, 
we instituted a comprehensive and integrated approach to Wounded 
Warrior care and unified it under one command. The establishment of the 
Wounded Warrior Regiment reflects our deep commitment to the welfare of 
our wounded, ill, and injured, and their families throughout all phases 
of recovery. Our single process provides active duty, reserve, and 
separated Marines with non-medical case management, benefit information 
and assistance, resources and referrals, and transition support. The 
nerve center of our Wounded Warrior Regiment is our Wounded Warrior 
Operations Center--where no Marine is turned away.
    The Regiment strives to ensure programs and processes adequately 
meet the needs of our wounded, ill, and injured and that they remain 
flexible to preclude a one-size-fits-all approach to that care. For 
example, we have transferred auditing authority for pay and 
entitlements from the Defense Finance and Accounting Service in 
Cleveland directly to the Wounded Warrior Regiment, where there is a 
comprehensive awareness of each wounded Marine's individual situation. 
We have also designed and implemented a Marine Corps Wounded, Ill, and 
Injured Tracking System to maintain accountability and case management 
for the Marine Corps Comprehensive Recovery Plan. To ensure effective 
family advocacy, we have added Family Readiness Officers at the 
Regiment and our two battalions to support the families of our wounded, 
ill, and injured Marines.
    While the Marine Corps is aggressively attacking the stigma and 
lack of information that sometimes prevents Marines from asking for 
help, we are also proactively reaching out to those Marines and Marine 
veterans who may need assistance. Our Sergeant Merlin German Wounded 
Warrior Call Center not only receives calls from active duty and former 
Marines, but also conducts important outreach calls. In the past year, 
the Marine Corps added Battalion contact cells that make periodic 
outreach to Marines who have returned to duty in order to ensure their 
recovery needs are being addressed and that they receive information on 
any new benefits. The Call centers between them have made over 40,000 
calls to those Marines injured since September 2001 to assess how they 
are doing and offer our assistance.
    To enhance reintegration, our Job Transition Cell, manned by 
Marines and representatives of the Departments of Labor and Veterans 
Affairs, has been proactively reaching out to identify and coordinate 
with employers and job training programs to help our wounded warriors 
obtain positions in which they are most likely to succeed and enjoy 
promising careers. One example is our collaboration with the U.S. House 
of Representatives to establish their Wounded Warrior Fellowship 
Program for hiring disabled veterans to work in congressional offices.
    The Marine Corps also recognizes that the needs of our wounded, 
ill, and injured Marines and their families are constantly evolving. We 
must ensure our wounded Marines and their families are equipped for 
success in today's environment and in the future.
    As we continue to improve the care and management of our Nation's 
wounded, the Marine Corps is grateful to have the support of Congress. 
In addition to the support provided in the fiscal year 2009 National 
Defense Authorization Act, I would like to thank you for your personal 
visits to our Wounded Warriors in the hospital wards where they are 
recovering and on the bases where they live. The Marine Corps looks 
forward to continuing to work with Congress in ensuring that our 
wounded, ill, and injured Marines receive the best care, resources, and 
opportunities possible.
Traumatic Brain Injury (TBI)
    With 2,700 new cases of Marines with TBI entered into the 
Department of Defense and Veteran's Brain Injury Center (DVBIC) in 
calendar year 2008, we continue to see TBI as a significant challenge 
that we are confronting. Many of these new cases represent older 
injuries that are just now being diagnosed, and our expectation is 
that, with the institution of the Automated Neuropsychological 
Assessment Metrics (ANAM) for all Marines, we will discover mild 
Traumatic Brain Injuries more promptly post-deployment. While the 
Marine Corps is providing leadership and resources to deal with this 
problem, we cannot solve all the issues on our own.
    The Marine Corps continues to work closely with Military Medicine, 
notably DOD's Center of Excellence for Psychological Health and 
Traumatic Brain Injury, to advance our understanding of TBI and improve 
care for all Marines. We are grateful for your continued support in 
this area.
Psychological Health Care
    Marine Corps commanders are fully engaged in promoting the 
psychological health of our Marines, Sailors, and family members. The 
message to our Marines is to look out for each other and to know that 
it is okay to get help. While culture change is hard to measure, we 
feel that the efforts we have made to reduce the stigma of combat 
stress are working.
    The Marine Corps Combat and Operational Stress Control Program 
encompasses a set of policies, training, and tools to enable leaders, 
individuals, and families to prepare for and manage the stress of 
operational deployment cycles. Our training emphasizes ways in which to 
recognize stress reactions, injuries, and illnesses early and manage 
them more effectively within operational units. Our assessments of 
stress responses and outcomes are rated on a continuum: unaffected; 
temporarily or mildly affected; more severely impaired but likely to 
recover; or persistently distressed or disabled. Combat stress deserves 
the same attention and care as any physical wound of war, and our 
leaders receive extensive training on how to establish an environment 
where it is okay to ask for help.
    To assist leaders with prevention, rapid identification, and early 
treatment of combat operational stress, we are expanding our program of 
embedding mental health professionals in operational units--the 
Operational Stress Control and Readiness (OSCAR) program--to provide 
direct support to all active and reserve ground combat elements. This 
will be achieved over the next 3 years through realignment of existing 
Navy structure supporting the operating forces, and increases in Navy 
mental health provider inventory. Our ultimate intent is to expand 
OSCAR to all elements of the Marine Air-Ground Task Force. In the 
interim, OSCAR teams are filled to the extent possible on an ad hoc 
basis with assets from Navy Medicine.
Exceptional Family Member Program (EFMP)
    Last year, I reported on our intent to establish a continuum of 
care for our EFMP families. We are actively helping more than 6,000 
families in the Exceptional Family Member Program gain access to 
medical, educational, and financial care services that may be limited 
or restricted at certain duty stations. We have assigned case managers 
to all of our enrolled EFMP families, obtained the help of the Bureau 
of Medicine and Surgery and TRICARE to resolve health care concerns at 
several bases, and directed legal counsel to advise the EFMP and our 
families on State and Federal entitlements and processes. Additionally, 
we are developing assignment policies that will further facilitate the 
continuum of care.
    While no family should have to endure interruptions in care, 
gaining access to services can be most challenging to families who have 
Autism Spectrum Disorder (ASD). We sincerely appreciate the support of 
Congress for our ASD families and others who are entitled to the 
TRICARE Extended Care Health Option (ECHO) program. For fiscal year 
2009, you have increased the monthly reimbursement rate for Applied 
Behavioral Analysis (ABA)--a specific therapy that our Marine families 
value.
    However, there is still more to do. While appropriate TRICARE 
reimbursement rates are important, the highly specialized services 
these families require are not always available. We are evaluating how 
we can partner with other organizations to increase the availability of 
these specialized services in areas where resources are currently 
lacking.
Water Contamination at Camp Lejeune
    Past water contamination at Camp Lejeune has been, and continues to 
be, a very important issue for the Marine Corps. Using good science, 
our goal is to determine whether past exposure to the contaminated 
water at Camp Lejeune resulted in any adverse health effects for our 
Marines, their families, or our civilian workers.
    The Marine Corps continues to support the Agency for Toxic 
Substances and Disease Registry (ATSDR) in their health study, which is 
estimated to be completed in late 2009. With the help of Congress, the 
National Academy of Sciences is assisting us in developing a way ahead 
on this difficult issue.
    The Marine Corps continues to make progress notifying former 
residents and workers. We have established a call center and registry 
where the public can provide contact information so that we can notify 
them when these health studies are complete.
    Our outreach efforts include a range of communication venues to 
include letters to individuals located from Department of Defense 
databases, paid print and broadcast advertising, publications in 
military magazines, press releases, and a fully staffed call center. As 
of 22 March 2009, we have had 131,000 total registrations and mailed 
more than 200,000 direct notifications.
Sexual Assault Prevention and Response
    Sexual assault is a crime, and we take every reported incident very 
seriously. The impact on its victims and the corrosive effect on unit 
and individual readiness are matters of great concern. A recent 
Government Accountability Office study reported several shortcomings in 
our program. To address these findings, we are refreshing our training 
program and assessing the requirement to hire full-time Sexual Assault 
Prevention and Response Program coordinators at installations with 
large troop populations. We have trained more than 3,200 victim 
advocates to provide assistance upon the request. All Marines receive 
sexual assault prevention and awareness training upon entry and are 
required to receive refresher training at least annually. We have also 
incorporated sexual assault prevention into officer and noncommissioned 
officer professional development courses and key senior leader 
conferences and working groups. At the request of our field commanders, 
we have also increased the number of Marine Corps judge advocates who 
attend specialized training on prosecution of these crimes and have 
assembled a mobile training team to teach our prosecutors how to better 
manage these cases.
Suicide Prevention
    With 42 Marine suicides in 2008, we experienced our highest suicide 
rate since the start of Operation Enduring Freedom and Operation Iraqi 
Freedom. The number of confirmed Marine suicides has increased from 25 
in Calendar Year 2006, to 33 in 2007, to 42 in 2008. Through March 
2009, we have 8 presumed suicides this year, which place us on a 
trajectory for 32 this calendar year. Our numbers are disturbing; we 
will not accept them, or stand idle while our Marines and families 
suffer.
    Our studies have found that regardless of duty station, deployment, 
or duty status, the primary stressors associated with Marine suicides 
are problems in romantic relationships, physical health, work-related 
issues such as poor performance and job dissatisfaction, and pending 
legal or administrative action. This is consistent with other Services 
and civilian findings. Multiple stressors are usually present in 
suicide.
    In November 2008, we reviewed our suicide awareness and prevention 
program and directed the development of a leadership training program 
targeted at noncommissioned officers. As in combat, we will rely upon 
our corporals and sergeants to chart the course and apply their 
leadership skills to the challenge at hand. This program includes high-
impact, engaging videos, and a Web-ready resource library to provide 
additional tools for identifying their Marines who appear at risk for 
suicide. Further, during March 2009, we required all of our commanders 
to conduct suicide prevention training for 100 percent of the Marines 
under their charge. This training educated Marines on the current 
situation in our Corps; it taught them how to identify the warning 
signs; it reinforced their responsibility as leaders; and it informed 
them of the resources available locally for support.
    The Marine Corps will continue to pursue initiatives to prevent 
suicides, to include reevaluating existing programs designed to reduce 
the stressors most correlated with suicidal behavior; developing and 
distributing new prevention programs; and refreshing and expanding 
training materials.
Child Development Programs
    To ensure Children, Youth, and Teen Programs continue to transition 
to meet the needs of our families, a Functionality Assessment was 
conducted in June 2008 to identify program improvements, such as the 
development of staffing models to improve service delivery, as well as 
recommendations to explore and re-define services to meet the unique 
and changing needs of Marines and their families living both on and off 
our installations. In addition, the Marine Corps has expanded 
partnerships to provide long- and short-term support for geographically 
dispersed Marines. We can now provide 16 hours of reimbursed respite 
care per month for families with a deployed Marine. We are expanding 
our care capacity in many ways, including extended hours as well as 
through partnerships with Resource and Referral agencies, off-base 
family childcare, and Child Development Home spaces.
    We are currently providing 11,757 childcare spaces and meeting 63.6 
percent of the calculated total need. It is important to note that the 
Marine Corps has initiated rigorous data collection and analysis 
improvements. As a result, it will be necessary to correct the 2007 
annual summary due to identified reporting errors. Our reported rate of 
71 percent of potential need last year is more accurately stated as 
59.1 percent. We are not satisfied with our progress to date, and have 
planned for 10 Child Development Center Military Construction projects 
in Program Years 2008 through 2013. Two of those projects were executed 
in fiscal year 2008, and one is approved for fiscal year 2009. These 
approved projects will provide an additional 915 spaces.
    We also are considering additional modular Child Development 
Centers, subject to more detailed planning and availability of funds. 
Planned MILCON and modular centers would add approximately 2,600 
spaces, and although our need is expanding, based on our current 
calculations, this expansion would bring us much closer to the 
Department of Defense goal. Continued Congressional support will help 
us provide these needed facilities. As the needs of our families 
change, our program is committed to grow and adapt to meet these 
developments.
School Liaison Program
    The education of more than 51,000 school-age children of Marine 
parents has been identified as a readiness and retention issue of great 
concern. Our Marine children, who are often as mobile as their military 
parent, face additional stress and challenges associated with frequent 
moves between schools with differing educational systems and standards. 
Exacerbating this is the varying degree of satisfaction Marines and 
their spouses have with the quality and sufficiency of local education 
systems. The Marine Corps is addressing this issue by establishing 
national, regional, and installation level School Liaison capability. 
The School Liaison will help parents and commanders interact with local 
schools, districts, and State governments to help resolve educational 
issues. The increased family readiness funding has allowed us to 
establish a School Liaison position at each Marine Corps installation. 
Complementing our local effort, the Marine Corps is working with the 
Department of Defense to establish an ``Education Compact'' with States 
to enable reciprocal acceptance of entrance, subject, testing, and 
graduation requirements. The Education Compact has been enacted in 
North Carolina and Arizona, and is under varying stages of 
consideration in the other States with Marine Corps installations.

                POSTURE THE MARINE CORPS FOR THE FUTURE

    As we prepare for an unpredictable future, we must continue to 
assess the potential future security environments and the challenges of 
tomorrow's battlefields. Our solid belief is that a forward deployed 
expeditionary force, consistently engaged and postured for rapid 
response, is as critical for national security in the future as it is 
today. The Marine Corps, with its inherent advantages as an 
expeditionary force, can be rapidly employed in key areas of the globe 
despite challenges to U.S. access. Our sea-based posture will allow us 
to continue conducting security cooperation activities with a variety 
of allies and partners around the world to mitigate sources of 
discontent and deter conflict. We must increase our capacity to conduct 
security cooperation operations without compromising our ability to 
engage in a major regional conflict.
Realignment in the Pacific: Defense Policy Review Initiative (DPRI)
    The Defense Policy Review Initiative was established in 2002 by the 
United States and Japan as a means to review each nation's security and 
defense issues. One of the key outcomes of this process was an 
agreement to move approximately 8,000 Marines from Okinawa to Guam. The 
movement of these forces will address encroachment issues facing 
Marines on Okinawa. Moreover, the relocation will afford new 
opportunities to engage with our partners in Asia, conduct multilateral 
training on American soil, and be better positioned to support a broad 
range of contingencies that may confront the region. Furthermore, the 
political agreements brokered by the Office of the Secretary of Defense 
provide for a long term presence of Marines on Okinawa as well as 
substantial financial support by the Government of Japan.
    As can be expected with an effort of this scale and complexity, 
there are a number of challenges. Developing training areas and ranges 
on Guam and the Commonwealth of Northern Mariana Islands is a key pre-
requisite for moving Marine forces to Guam. We also seek a contiguous 
base design on Guam where housing, operations, and quality of life 
facilities can be collocated. This will reduce the road traffic on Guam 
and provide for a better security posture. We have also found that 
collocated facilities--where Marines live and work--tend to be used 
more often, and serve to unify the military community.
    We continue to work within the Department of Defense to align our 
training and installation requirements with ongoing environmental 
assessments and political agreements. Planned and executed properly, 
this relocation to Guam will result in Marine forces that are combat 
ready, forward postured, and value-added to U.S. interests in the 
Pacific for the next 50 years.
Security Cooperation MAGTF
    The Security Cooperation Marine Air Ground Task Force (SC MAGTF) 
provides geographic combatant commanders with a security cooperation 
capability for employment in remote, austere locations across the 
globe. SC MAGTFs will be organized based upon the specific requirements 
of each training event or operation they are requested to support and 
will enhance the combatant commander's ability to alleviate the 
conditions that cause instability to proliferate.
Training and Education
    Our training and education systems, from recruit training to top-
level Professional Military Education schools, rigorously instill in 
our Marines the physical and mental toughness and intellectual agility 
required to successfully operate in today's and tomorrow's complex 
environments. Marine Corps forces are organized, trained, equipped, and 
deployed with the expectation of operating under inhospitable 
conditions against committed and competent foes. Our forces are heavy 
enough to sustain major combat operations against conventional and 
hybrid threats but light enough to facilitate rapid deployment. 
Capability enhancements across the board are supported by a vigorous 
application of lessons learned from current operations.
            Operation ENDURING FREEDOM Pre-deployment Training Program
    The Afghanistan Pre-deployment Training Plan provides well-trained 
individuals and units that are prepared to operate in the austere and 
challenging environment of Afghanistan. While similar to the current 
Iraq Pre-Deployment Training Program, the Afghanistan Pre-deployment 
Training Program emphasizes the inherent capability of the MAGTF to 
conduct combined arms operations within a joint, multinational, and 
interagency framework. The capstone event of the Afghanistan Pre-
Deployment Training Program incorporates all elements of the MAGTF.
            Combined Arms Training, Large Scale Exercises, and 
                    Amphibious Operations
    Our training programs must prepare Marines to support current 
commitments and maintain MAGTF proficiency in core warfighting 
capabilities. We are developing a program of nested training exercises 
that focus on interagency and coalition operations to support the 
current fight and prepare the Marine Corps for the Long War.
    The Combined Arms Exercise-Next is a service-level, live-fire 
training exercise that develops the core capability of combined arms 
maneuver from the individual Marine to the regimental-sized unit level. 
This exercise focuses on the integration of functions within and 
between the MAGTF elements. The MAGTF Large Scale Exercise is a 
service-level training exercise that develops the MAGTF's capability to 
conduct amphibious power projection and sustained operations ashore in 
a joint and inter-agency environment.
    Amphibious operations are a hallmark of the Marine Corps. Through a 
combination of amphibious-focused professional military education, 
classroom training, and naval exercises, we will ensure MAGTFs are 
capable of fulfilling Maritime Strategy amphibious requirements, 
combatant commanders' operational plans, and future national security 
requirements.
            Training and Simulation Systems
    Cost-effective training requires a combination of live, virtual, 
and constructive training to attain the requisite level of combat 
readiness. We have leveraged technologies and simulations to augment, 
support, and create training environments for Marines to train at the 
individual, squad, and platoon levels. Virtual and constructive 
simulations support the pre-deployment training continuum, while live 
training systems create a training environment that replicates 
battlefield effects and conditions. Our long-range effort for infantry 
skills simulation training is the Squad Immersive Training Environment. 
This provides realistic training for our infantry squads. Over the past 
year, we have increased our efficiency and provided greater training 
opportunities for the individual Marine up to the MAGTF and joint level 
to satisfy Title 10 and joint training readiness standards.
            Training Range Modernization--Twentynine Palms Land 
                    Expansion
    Our facilities at Twentynine Palms are critical to the pre-
deployment training of our deploying Marine units. These facilities 
support the integration of fires and maneuver of new and emerging 
weapons systems, which cannot be accomplished within current boundaries 
of other Marine Corps bases. The Corps believes that to meet 
obligations to the Nation's defense, we must conduct live-fire and 
maneuver exercises at the Marine Expeditionary Brigade level.
    The Marine Corps' Mission Capable Ranges Initiative guides Marine 
Corps range planning and investment. A key to this initiative is the 
proposed expansion of the Marine Air-Ground Task Force Training 
Command's range complex at Marine Corps Base Twentynine Palms, 
California. This 507,000-acre installation, established in the 1950s, 
requires expansion to meet today's training requirements. We have begun 
the National Environmental Policy Act-required environmental studies to 
guide decisions during the acquisition process, and we expect 
acquisition to commence in 2012.
            Core Values and Ethics
    In an effort to improve values-based training and address the 
difficult ethical dilemmas faced by Marines, the John A. Lejeune 
Leadership Institute implemented several initiatives and publications 
to strengthen core values training. Publications include the 
Leadership, Ethics, and Law of War Discussion Guide. These guides offer 
15 contemporary case studies with suggested topics for discussion group 
leaders. We have also published a primer on the Law of War and 
Escalation of Force, a discussion aid on moral development, and Issues 
of Battlefield Ethics and Leadership--a series of brief, fictionalized 
case studies to develop Small Unit Leaders. These are used in our 
schools, beginning with recruit training at boot camp and continuing 
into MOS training and PME schools.
    Two video versions of case studies were created to sharpen the 
focus of our semiannual Commandant's Commanders' Program on the 
commander's role in setting a climate of positive battlefield ethics, 
accountability, and responsibility. In addition, the John A. Lejeune 
Leadership Institute held the first Russell Leadership Conference since 
2002 with 230 first-line leaders from across the Corps. The conference 
broadened and reinforced our leaders' understanding of the role they 
fill as ethical decision-makers, mentors, and critical thinkers.
            Marine Corps University
    The Marine Corps University established a Middle East Institute in 
2007 to research, publish, and promote regional awareness. A highly 
successful Iran Conference clearly demonstrated the utility of the 
institute. The new Marine Corps University Press was a successful step 
in our outreach program that includes publishing a professional 
journal. These initiatives were all part of Marine Corps University's 
health assessment and are an integral part of the University Strategic 
Plan.

                               CONCLUSION

    Marines take extreme pride in the comment attributed to journalist 
Richard Harding Davis, ``The Marines have landed, and the situation is 
well in hand.'' Our history has repeatedly validated that statement. 
Our training and organization ensures our fellow Americans that they 
should never doubt the outcome when her Marines are sent to do the 
Nation's work. Our confidence comes from the selfless sacrifices we 
witness every day by courageous young Marines. They responded 
magnificently after 9/11--took the fight to the Taliban and Al Qaeda, 
conducted a lightening-fast offensive campaign in Iraq, and turned the 
tide in the volatile Al Anbar province. Now, we are ready to get back 
to the fight in Afghanistan--or wherever else our Nation calls.
    Your Marine Corps is grateful for your support and the support of 
the American people. Our great young patriots have performed 
magnificently and written their own page in history. They have proven 
their courage in combat. Their resiliency, dedication, and sense of 
self-sacrifice are a tribute to this great Nation. They go into harm's 
way knowing their country is behind them. On their behalf, I thank you 
for your enduring support. We pledge to be good stewards of the 
resources you most generously provide and remain committed to the 
defense of this great land. Thank you again for the opportunity to 
report to you today.

                               SHIP COUNT

    Chairman Inouye. Mr. Secretary, the events of recent days 
have been of much concern to many of us. For example, in North 
Korea there's a lot of saber-rattling and a lot of promise-
breaking. We've had tests notwithstanding our complaints and 
our sanctions. They seem to ignore everything and continue on, 
and now testing a missile that has a capability of reaching 
Alaska.
    On the other side of the world in Iran, similar rattling 
goes on. Notwithstanding the United Nations, notwithstanding 
the pleas of Europeans and Americans and such, the Iranians 
seem to move merrily along with their testing.
    Taking these and events such as piracy into consideration, 
do you believe that we have enough ships to do the job? I ask 
this because I've been on this subcommittee long enough to 
recall that it wasn't too long ago when the goal was 600. Then 
it became 500-something, came down to 400. Now it's 313 and I 
believe we have about 280.
    What are your thoughts, Mr. Secretary, as you come in just 
2 weeks old? I'd like to hear your thoughts.
    Mr. Mabus. Thank you, Mr. Chairman. As you just pointed 
out, the number 313 came out of the last Quadrennial Defense 
Review and that number was supported by the CNO at the time, 
who is now Chairman of the Joint Chiefs, Admiral Mullen. It's 
supported by Admiral Roughead, the current CNO, who put it in 
his statement.
    You're correct in that we have about 284 ships today in the 
active fleet. We do need a fleet of 313 ships, and it points 
out the need to take some strong steps in acquisition reform. 
If we continue to build ever more exotic, ever more expensive, 
but ever fewer numbers of ships, we simply won't have the 
numbers that we need. At some point, even though these ships 
are far more capable than the ships in the 600 ship Navy, for 
example, the individual capabilities--you can't put two ships 
at the same place, at the same time.
    So if we're going to have a forward deployed Navy, which I 
believe we should, if we're going to have a Navy which can 
respond to whatever crises or whatever events it needs to 
respond to, then we have an obligation to make sure that we get 
enough ships into this fleet and to do so to bring down the 
cost of these ships, to make the schedule stay on time, and to 
make sure that we have sufficient ships to meet any eventuality 
that we may face.
    Chairman Inouye. Admiral Roughead, do you have any 
additional comments to make?
    Admiral Roughead. Yes, sir. As you know, Mr. Chairman, I've 
maintained for some time that 313 is the floor with regard to 
fleet capacity. But I would also submit that this budget that 
is before you really begins to address the direction where we 
have to go. The truncation of the DDG 1000, which we began some 
months ago, and the restart of the DDG 51 line, which has 
terrific ballistic missile defense capability, and we're seeing 
those types of missiles being tested by Korea, by Iran, and 
they proliferate globally, that is exactly the direction where 
we have to go.
    The three littoral combat ships that we have in the budget 
are able to operate with our high-end forces, but I would 
submit they're ideally suited to the maritime security missions 
that we see in the counter-piracy operations.
    So our budget really does begin to take us there. The start 
of the Joint High Speed Vessel line is also important to us and 
to the combatant commanders so that we can get at some of these 
challenges.
    But I would also say that in order to get to the 313, it's 
not just about the acquisition that's represented in this 
budget, but it's also in our ability to take the ships that we 
have today and allow them to achieve their full service life, 
because most of the ships that we have in service today will be 
in service in 2020. So maintaining that force is also equally 
important.

                               SHIPYARDS

    Chairman Inouye. Mr. Secretary, another question. In order 
to maintain these ships, do you believe that our depots, our 
shipyards, are up to par and prepared?
    Mr. Mabus. Yes, sir, I do. I think they will continue to be 
as long as we work with them to ensure a stable industrial 
base, to make sure that we have a trained, skilled workforce in 
place, by making sure that our shipbuilding requirements are 
made known to them, that they are able to invest in the 
equipment and the people that we will need, and to give them 
the stability that they need to provide this incredibly vital 
service.
    Chairman Inouye. Admiral, have you got any thoughts on 
that?
    Admiral Roughead. As I mentioned, Senator, I think the 
maintenance of our fleet is what also allows us to achieve the 
313 level. The public shipyards that we have that are so much a 
part of maintaining our very high-end forces, our nuclear 
submarines and our aircraft carriers, absolutely key. Then the 
involvement of the private sector that we call on throughout 
the country is extraordinarily important and allows us to 
achieve that force level and readiness that's so important to 
the Navy today.

                        MARINE CORPS FORCE SIZE

    Chairman Inouye. Commandant, at this moment South Korean 
troops are on alert. The alert status for that peninsula is 
four, I believe, just one less than the top. Taking those 
things in consideration, do you believe that the projected 
number in our force is sufficient?
    General Conway. Yes, sir, I do. There are plans that we 
can't talk about in an open hearing that would provide for our 
ability to respond to an additional major contingency, such as 
Korea would represent. Although there is a level of risk 
associated with our ability to I think conduct and complete 
those war plans, we think that our forces that are present 
today would be able to do that. There would be issues, sir. We 
have equipment that would have to be moved all over the globe 
in order to be able to satisfy those demands. The force 
structure would not be as organic as we would like. There would 
have to be a level of ad hoc conglomeration of forces, if you 
will. But in the end I am convinced we would prevail.
    Chairman Inouye. I thank you, sir.
    Senator Cochran.
    Senator Cochran. Thank you, Mr. Chairman.

                    SECNAV NAVAL OFFICER EXPERIENCE

    Mr. Secretary, we are grateful that you are a person who's 
had experience personally in the Navy and now assuming 
responsibilities as Secretary of the Navy. I wonder what 
experiences you've had as a naval officer do you think will be 
important to you in carrying out your responsibilities as 
Secretary?
    Mr. Mabus. Well, Senator, I do think that time that I spent 
in the Navy was some of the most profound times that I've spent 
in my life. The Navy has changed a lot in the nearly 40 years 
since I was a surface warfare officer on board the U.S.S. 
Little Rock, and it's changed almost totally for the better. 
The training level, the caliber of recruits that are coming 
into the Navy, into our forces, the education that they are 
getting once in, the commitment that they have to the Navy and 
to the country, the deployment tempo, which is much higher and 
more flexible than when I was in, allowing us to get ships to 
places faster and better equipped. The thing the CNO talked 
about, about maintaining our fleet, has improved so 
dramatically since that time.
    But I think the thing that my experience in the Navy--I 
hope I brought with me, is the importance of the sailors, that 
it doesn't matter in the end how capable our equipment is if 
our sailors cannot match that equipment. In today's Navy, I'm 
happy to say that I think we have as fine a trained force as 
the world has ever seen.
    Senator Cochran. Thank you. I think that's an eloquent and 
important assessment for all of us to understand. I think the 
leadership we have in the military today is so much more 
sophisticated and impressive in terms of intellectual and 
educational fitness for these hugely important jobs. I think 
we're very fortunate to have the benefit of that kind of 
leadership in the Navy and the Marine Corps and at the civilian 
posts that are important to the management of these important 
assets.

                     JOINT COMMAND SHIP REPLACEMENT

    General Conway, I notice the Department of the Navy is 
looking at the LPD 17 amphibious ships and the T-AKE dry cargo 
ship hull forms for joint command ship replacement 
responsibilities. What in your opinion are the key factors in 
determining which hull form is suitable, and do you believe 
that survivability is a critical factor?
    General Conway. Sir, we have examined it and made 
recommendations to the CNO and ultimately to the Secretary of 
the Navy on the value associated with a consistent hull form, 
both for purposes of the research and development (R&D) 
associated with what would otherwise be new hull forms and with 
regard to the sustainability and the maintenance factors that 
exist with a single hull form.
    We have been a proponent of maintaining the LPD 17 form 
throughout the near term with regard to additional command and 
control ships. We think that that would be beneficial for the 
shipyards. We think it would be beneficial for the ultimate 
product that's produced there, and we think it would help to 
provide for the numbers of amphibious ships that we need both 
for forcible entry--and it was interesting that the chairman's 
question referenced at least two areas where forcible entry 
could be necessary--but also for purposes of day to day 
requirements that we see on the part of our combatant 
commanders.
    Interestingly, the numbers come together to be about the 
same for both of those types of requirements. It will be 
discussed in the Quadrennial Defense Review and we see it I 
think as our collective mission to make sure that there's a 
clear understanding that amphibs are not just high-end 
capability. They have very much a role in the low-end scheme of 
things on a day to day basis in support of combatant 
commanders.
    Senator Cochran. Thank you.

                          CNO PRIOR EXPERIENCE

    Admiral Roughead, we first met down at Pascagoula, 
Mississippi, when you were assuming command of one of the new 
ships being built there at Ingalls. What personal experiences 
did you have as a result of that responsibility that have 
shaped your views about shipbuilding and the efficiencies and 
the importance of taking advantage of new technologies in 
helping ensure that we can protect our naval interests around 
the world?
    Admiral Roughead. Yes, sir. Thank you, sir. I would say the 
first thing that I took away was that the strength and the 
viability of our Navy depends on the American shipbuilder. No 
one builds ships as capable or as tough as the American 
shipbuilder. That was my first take away and I have not lost 
that sentiment ever since that time.
    I would also say that it's important that we get production 
runs as consistent and as long running as we can, that we 
should look at every opportunity to take advantage of designed 
hull forms and adapt them to other uses, as you mentioned with 
regard to command ships. Command ships have to be survivable. 
We have to make sure that they have the capacity for the type 
of function that will be performed on them and that they also 
can be modified at the least cost to fulfill those missions.
    But I think it's extremely important that we get as much 
commonality as we can in our fleet. It reduces operating costs. 
It will reduce maintenance costs and logistics costs, and I 
believe we need to continue down that path.

                              NAVY RESERVE

    Senator Cochran. I had the pleasure of spending several 
years as a Reserve officer following active duty in the Navy. I 
enjoyed the opportunities of going back to Newport, Rhode 
Island, for example and being on the staff of the faculty at 
Officer Candidate School, continuing to be involved. Do you 
still have a strong reserve program utilizing the experience 
and talents of former active duty officers in the reserve 
activities? Is that a wise investment? What is your impression 
of the Navy Reserve mission today and how it complements the 
active duty forces?
    Admiral Roughead. Senator, we are one force today. The 
integration of our active component and our Reserve component 
is as close as it has ever been. In fact, most of the 
individual augmentees that have gone into the Central Command 
area of operation over the past 8 years are Reserve sailors and 
officers.
    We cannot be the Navy we are today without our Reserve 
component. The way that they move into our active force after 
having served in an active capacity is absolutely seamless. The 
importance that we place on our Reserve programs is extremely 
high, and the Navy that the Secretary was referring to as being 
as professional and as competent and as agile as it is today is 
a function of that active-Reserve integration that has taken 
place.
    Senator Cochran [presiding]. Senator Bond.
    Senator Bond. Thank you very much, Senator Cochran.
    To the Commandant, congratulations on the excellent job 
that you have done in al-Anbar. We had a CODEL over there in 
May 2007 and saw not only were they clearing the area, but the 
hold and build, which is the new wave of the smart power use of 
our military, was working so well. That is a great credit to 
the leadership up and down the line, as well as to the marines 
who did it. It is a great story that has convinced many people, 
as they now see how it resolves.
    Mr. Secretary and Admiral, again I congratulate you on the 
support you're providing to the sailors, the SEALs, and the 
marines in the field, and particularly for what you're doing to 
the wounded warriors. I've had some opportunities, not by 
planning, but to spend some time at Bethesda, and I have 
visited the wounded warriors there and seen the great care. 
This is truly outstanding. Your reference to dealing with the 
PTSD and the traumatic brain injury (TBI), which is so 
important, is something we're going to have to continue to 
address because it really sneaked up on us.

                          JOINT STRIKE FIGHTER

    But I need to go back to the point I made in my opening 
statement, cutting production of the one effective carrier-
based aircraft, the F/A-18 that we have, from 45 to 30, and 
only 9 of those are going to be combat aircraft. The rest are 
Growlers. Right now the Joint Strike Fighter is behind 
schedule, way over budget. It's only 2 percent flight tested. 
Under your most optimistic circumstances, what kind of 
contribution can the JSF make to that shortfall on the carrier 
decks in 2016 through 2020, Admiral?
    Admiral Roughead. Senator, we have just in this budget put 
in the money for the first carrier variants of JSF. JSF is 
extraordinarily important to where we are going with naval 
aviation, because we can never in my opinion have all of one 
type of an airplane on our carrier deck. There should always be 
a generational movement taking place, so that in the event 
there's a problem in any particular airframe or type of 
airplane we don't ground an entire wing. So we have to get to 
JSF.
    We are the last service to take delivery of JSF and that 
begins in 2015. As we looked at our 2010 budget, what we did 
with what I'll call the 18 line--that includes both the Growler 
and the E's and F's--was to put in the budget what we needed 
for electronic attack and then also, as we balanced across our 
programs, to put in place the nine E's and F's, because, as you 
know, in the Quadrennial Defense Review all of the services 
that fly tactical aviation are going to be conducting the 
review. We will look at where we are collectively and where we 
must go in order to continue to provide the capability and 
capacity in our air wings.
    That may be through life extension programs, but that's 
what we're going to examine in the QDR.
    Senator Bond. Well, very respectfully, Admiral, you are 
deciding to cut that, cut off the E and F production, before 
you have even proven that this JSF, called by some the ``Joint 
Strike Failure.'' If you read the Government Accountability 
Office (GAO) reports, it's been so far behind schedule, it's 
been over production costs, and it is now only 2 percent flight 
tested, and you haven't even thought about seeing whether it 
can land on an aircraft carrier.
    To me it looks like you've made a bad bet if you have not 
proven something that can take its place and you're cutting it 
off. To me, the first rule of digging is if you dig yourself 
into a hole, stop digging, because this is a bad decision, made 
a number of years previously, to put all of the production of 
the JSF into one company. Unfortunately, that line is not 
producing.
    I cannot believe that you can ignore reality and say, until 
we know that we have a follow-on plane, we ought to keep the 
plane that is working. As I recall, there was a requirement in 
the law that you produce by March 1 of this year a report on 
the costs and benefits of a multiyear procurement of the F/A-
18. You can get at least three for what one JSF would cost you.
    When is that report coming out? And is anybody looking 
seriously at the need to keep something until and unless the 
JSF can land on a carrier?
    Admiral Roughead. What we have done, Senator, with the 18 
line, to include both the Growler and the E's and F's, is that 
we in the 2010 budget have more than what is the sustaining 
rate for that 18 production line. So as we go into the QDR we 
have not stopped in 2010 the 18s. We still are working on that 
second multiyear that allows the production to continue. When 
we get into the QDR discussions on tactical air wings, I 
believe that we will be making the decisions we have to make 
while we've preserved the manufacturing of the F-18s.

                            INDUSTRIAL BASE

    Senator Bond. Well, as a final question for the Secretary, 
I certainly appreciate your speaking about the need to protect 
the defense industrial base, because if we go down the same 
path that our fine ally Great Britain has gone, their 
industrial base was allowed to atrophy, so they can no longer 
build aircraft and they're struggling to build ships. We are--
unless somebody rethinks the tragic decision that was made to 
go with only one tac air producer, unless that decision is made 
in the QDR, we're going to find ourselves in a real hole.
    Why is it acceptable in your view to have only one 
production line for a tac air fighter, a tac airplane?
    Mr. Mabus. Senator, I will echo what the CNO just said in 
terms of making sure that the E and F production line in the 
fiscal year 2010 budget is at a level that can sustain that 
production and sustain that workforce and sustain that 
industrial base through fiscal year 2010 as we go through the 
Quadrennial Defense Review to see what our tactical air 
requirements are, just as the CNO has pointed out.
    So I think that you do have that capacity maintained 
through the industrial base and through the trained workforce 
by this purchase of F-18s, both the Growlers and the E and F's.
    Senator Bond. Well, thank you, Mr. Secretary. I hope in the 
QDR there's some realism that strikes and that you do take a 
look at the costs. We'd still like to see that report due March 
1 of this year on the 18, because you can't continue to make 
good sound investments unless and until you prove that you do 
have an alternative. I hope you will take that into serious 
consideration.
    Mr. Chairman, I've filibustered long enough and I'll let 
you take on. Thank you.
    Senator Inouye [presiding]. You did a good job.
    Mr. Secretary, there's a vote on, so that's why we're 
moving in and out.

                                  GUAM

    Commandant, by the year 2014 your 8,000 marines and 9,000 
dependents are supposed to be out of Okinawa into Guam. 
However, we're concerned with the relocation of Futenma. 
Apparently the prefectural government is against the location. 
Is the time 2014 going to be kept or do we have to extend that?
    General Conway. Sir, we hope so. At this point the Futenma 
replacement facility, which the Japanese are at least on 
schedule to build for us off Camp Schwab, which is near the 
middle of the island, is very much a keystone to the 2014 date. 
There are some preliminary efforts that are underway, but if 
you have seen that space--and I think you have--it will require 
a tremendous amount of fill into the sea, into some fairly deep 
water in the sea, at some I think fairly significant expense to 
the Japanese Government. So we watch and encourage their 
efforts very closely, because again that sort of kicks off the 
game for other things that will take place associated with the 
move.
    So I think that will be the primary determinant as to 
whether or not we're able to maintain the 2014 date.
    Chairman Inouye. The estimated costs of movement, if I 
recall, was about $10 billion. Now it's been estimated to go up 
to $15 billion; is that correct?
    General Conway. Sir, I haven't seen the $15 billion figure. 
In the initial negotiations with the Japanese Government it was 
on the order of about $6 billion plus for the Japanese 
Government and $4 billion plus for the United States 
Government. Our independent estimates, if you will, for all of 
the required training, infrastructure, family, quality of life 
issues associated with that move, would put it closer to about 
$12 billion from our perspective.
    We have floated those figures past the folks in the Office 
of the Secretary of Defense. They are taking them under 
advisement. We're looking at how the Department of the Navy 
might be able to afford that kind of money in the out-years. 
The discussion I think is on table as to whether or not that 
ought to be a corporate bill for the Department of Defense as 
opposed to a Navy-Marine Corps bill.
    But we think that the cost estimates are significantly 
greater than initially estimated, but I have not heard a figure 
of $15 billion to date.
    Chairman Inouye. Do you believe Guam is a better place than 
Okinawa for your troops?
    General Conway. Sir, Guam has advantages for us. It is U.S. 
soil, and to the degree that we have a level of certainty in 
terms of U.S. forces' presence in the Pacific for 50, 75 years 
assurance, I think it is very positive in that regard. In some 
ways it moves us farther away from some critical engagements, 
but in some ways it puts us closer to some other engagements in 
the South Pacific Basin.
    So we support the move and we're at this point trying to 
make sure that it does happen along the time line that's been 
suggested and that the training requirements associated with 
putting 8,000 marines in Guam are necessarily taken care of in 
advance of the move. So we're engaging, sir, but at least at 
this point we're trying not to spend a lot of money until such 
time as, again, we see that Futenma replacement facility start 
to give us relief and move out of Futenma.

                                 PIRACY

    Chairman Inouye. Admiral, one thing that very few of us 
anticipated was piracy, and now it's a new job description for 
you. How are we coping with pirates?
    Admiral Roughead. Yes, sir. We've kind of come full circle 
since our origins as a Navy, and I give great credit to our 
sailors who are performing the counter-piracy mission. The 
rescue that they performed on Maersk Alabama and the return of 
Captain Phillips I think speaks volumes about the value and the 
quality of training and the contributions that are made every 
day by our sailors in that part of the world.
    I'm pleased that since the May 7 there have been no 
successful piracy actions in the area around Somalia. I also 
believe that our counter-piracy effort has drawn navies of the 
world more closely together in a meaningful way than ever 
before. Not only do we have the North Atlantic Treaty 
Organization (NATO) that is contributing, the European Union is 
contributing, but we have Indian ships, Chinese ships, 
Malaysian ships, and Turkish ships. In fact, the commander of 
Task Force 151, our counter-piracy task force, is a Turkish 
admiral.
    So it has really brought the focus in. That said, the real 
solution to piracy, as we saw in Southeast Asia, is a solution 
that must include the maritime dimension, to be sure, what 
we're doing today, but piracy will not be eradicated unless 
there is the ability to provide for some governance ashore, for 
legal action to be taken against those who commit piracy and 
those who finance piracy. So there must be a two-pronged 
approach: the maritime piece that we're doing today; but there 
must be an effort to get some form of lawful behavior ashore in 
Somalia and to go after where the networks are operating from.
    Chairman Inouye. Is Somalia cooperating?
    Admiral Roughead. Somalia in my opinion, Senator, right now 
does not have the capacity or the capability to cooperate. The 
lack of governance there is going to be a problem for some 
time.
    Chairman Inouye. Mr. Secretary, do you have any final 
thoughts? Because I'd like to submit all of my questions for 
your perusal and response.
    Mr. Mabus. I look forward to getting those questions, Mr. 
Chairman. My final thought is just to once again express our 
deep appreciation to you and to this subcommittee for the 
support that you have given our sailors and our marines over 
the years and that you continue to give to them and to their 
families as they go in harm's way for all of us.
    Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Inouye. I thank you very much, Mr. Secretary. 
Thank you very much, Admiral Roughead. Thank you very much, 
General Conway.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subject to the 
hearing:]
                    Questions Submitted to Ray Mabus
            Questions Submitted by Chairman Daniel K. Inouye

                     VH-71 SUSTAINMENT OF AIRCRAFT

    Question. Secretary Mabus, the Department's plan for presidential 
helicopters, in the absence of the VH-71 program, is not well 
understood. In particular, the choice to pay substantial termination 
costs and not field any of the Increment 1 helicopters has been 
questioned.
    Two weeks ago, the cost of terminating the VH-71 contract was 
estimated to be $555 million. Critics could say that figure is more 
than the cost of finishing testing on the five existing Increment 1 
helicopters. This, on the surface, appears problematic.
    Unfortunately, the budget submission does not shed any light on how 
much the decisions made today will cost the taxpayer in the future. 
Secretary Mabus, what further information can you share with the 
Subcommittee to inform our decisions on whether the termination of the 
VH-71 is the right course? Could you provide Congress the detailed 
budget estimates of the impact of the decisions proposed by the 
Department?
    Answer. On January 28, 2009, the Secretary of the Navy notified 
Congress that the cost growth in the VH-71 Presidential Helicopter 
program had breached the critical Nunn-McCurdy threshold. As a result 
of this, as well as the subsequent review of the program in building 
the President's fiscal year 2010 budget submission, the decision was 
made to cancel the VH-71 program.
    The President's fiscal year 2010 budget requests funding to extend 
the service lives of the VH-3D and VH-60N. In total, the service life 
extension is currently estimated to cost about $500 million over the 
life of the program. The cost of terminating the VH-71 prime contract 
is being developed by the VH-71 prime contractor and will be negotiated 
with the contracting officer over the coming year. This total is 
significantly less than the amount that would have been needed to 
complete development of Increment 1, procure additional Increment 1 
aircraft and logistics support, and develop configuration improvements 
required for long term operation. Accordingly, the contracting officer 
has prudently implemented the cancellation decision by issuing a notice 
of termination.
    Because there remains the need to replace the current fleet of 
Presidential helicopters, the Navy is preparing a plan to develop 
options for a Presidential helicopter replacement program. The 
President's fiscal year 2010 budget requests $30 million for efforts 
associated with the new program. Part of that plan will include 
evaluation of technologies developed under the VH-71 program to 
identify potential benefit to other programs.

                       VH-71 IMPACT OF DECISIONS

    Question. With cancellation of the VH-71 program, how is Navy 
addressing sustainment for the existing aircraft? Are sufficient funds 
in the fiscal year 2010 budget to invest in the reliability of the 
current systems?
    Answer. The Navy received RDT&E funding in fiscal year 2009 to 
conduct a Service Life Assessment on both the VH-3D and VH-60N. The 
President's fiscal year 2010 budget requests funding to extend the 
service lives of the VH-3D and VH-60N. As submitted, the Department of 
the Navy's budget supports the requirements of the VH-3D and VH-60N for 
fiscal year 2010.

                        STRIKE FIGHTER SHORTFALL

    Question. Secretary Mabus, a recent Congressional Research Service 
report states that the Department of the Navy is facing a shortage of 
strike fighters that peaks at 243 aircraft in 2018. This is almost 
double the 125 aircraft shortfall projected at this time last year. The 
report says that shortages will begin this year and continue through 
2025. What is your plan to address this problem and what are the risks 
involved with the plan?
    Answer. The Department has four primary avenues for addressing its 
strike fighter inventory requirements within current force structure 
and force scheduling requirements. These include:
  --Maintaining wholeness of the JSF program: 2012 F-35B Initial 
        Operating Capability (IOC), 2015 F-35C IOC with targeted 
        procurement ramp to 50 aircraft per year;
  --Service life extension of F/A-18A-D Hornets from 8,600 flight hours 
        to 10,000 flight hours service life;
  --Continued sustainment of legacy aircraft; and
  --Further procurement of F/A-18E/F Super Hornet.
    The challenge that Navy leadership is undertaking during the 
Quadrennial Defense Review and upcoming budget year, is to determine 
the necessary balance of these options in terms of force requirements 
as they become evident over this summer's review.
    Question. Secretary Mabus, it would appear that buying more of the 
lower cost aircraft is a way to mitigate the risks of the shortfall. 
Why is the Navy reducing procurement of F/A-18s now?
    Answer. The Navy presently has the necessary tactical strike 
fighter aircraft--F/A-18A/C and F/A 18E/F--to properly resource its 
force structure requirements in support of its current Maritime 
Strategy and Fleet Response Plan (FRP) scheduling for 10 carrier air 
wings (CVW) of 44 strike fighters each and one unit deployment program 
(UDP) F/A-18C squadron in support of DoN TACAIR Integration (TAI).
    Fiscal year 2010, represented in PB10, reflects a reduction of nine 
F/A-18E/F from PB09 fiscal year 2010 planning. While this is a present 
reduction in F/A-18E/F procurement for a single year, there is no 
immediate detrimental affect to the Navy's near-term (out to 2013) 
strike fighter inventory with this decision. PB10 represents balanced 
funding that meets DOD's requirements.
    Continued procurement of F/A-18E/F is one of four areas that Navy--
and DON as a whole--will continue to assess through this summer's 
Quadrennial Defense Review (QDR) and into the following year's budget 
submission. The DON has four inter-related avenues for addressing its 
strike fighter inventory requirements to meet current force structure 
requirements:
  --Maintaining wholeness of the JSF program: 2012F-35 Initial 
        Operating Capability (IOC), 2015 F-35C IOC with targeted 
        procurement ramp to 50 aircraft per year;
  --Service life extension of F/A-18A-D Hornets from 8,600 flight hours 
        to 10,000 flight hours service life;
  --Continued sustainment of legacy aircraft;
  --Further procurement of F/A-18E/F Super Hornet.
    The challenge that Navy leadership is undertaking during the QDR 
and upcoming budget year, is to determine the necessary balance of 
these options in terms of force requirements as they become evident 
over this summer's review.

           NUCLEAR AIRCRAFT CARRIER MOVE TO MAYPORT, FLORIDA

    Question. Secretary Mabus, in January, the Navy formally endorsed 
plans to relocate a nuclear-powered aircraft carrier to Florida's 
Mayport Naval Station. This announcement came after a lengthy process 
of studying the benefits and risks of dispersing East Coast carriers. 
Please share with the Committee how this decision supports the Navy's 
mission and our national security interests.
    Answer. Secretary Gates decided that the larger issue of whether 
Mayport will be upgraded to enable it to serve as a homeport for CVNs 
should be objectively evaluated during the Department's Quadrennial 
Defense Review (QDR). We believe that the QDR will provide the best 
forum to assess the costs and benefits associated with a strategic move 
of this scale.
    Strategic dispersal and CVN homeporting are important and 
complicated issues that deserve serious consideration. The Secretary 
and I are committed to arriving at decisions that are in the best 
interests of the nation, the Department, and the U.S. Navy.
    Question. Secretary Mabus, some argue that relocating a nuclear-
powered aircraft carrier is cost-prohibitive, especially since the 
infrastructure already exists in Norfolk. How much did the cost of this 
relocation weigh into deliberations of whether or not to move an 
aircraft carrier to Mayport Naval Station?
    Answer. Secretary Gates recently testified that he is troubled by 
the idea of having only one port capable of providing maintenance 
support for East Coast CVNs. Any large magnitude event, a Katrina-like 
hurricane, a terrorist attack, or an accident that blocks the Norfolk 
shipping channel, could have the effect of rendering East Coast carrier 
operations ineffective. Therefore, Secretary Gates has taken the 
prudent step of seeking funding for the dredging of the Mayport channel 
within the fiscal year 2010 budget to provide an alternative port to 
dock East Coast carriers in the event of a disaster.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison

                 NAVAL AVIATION TRAINING IN SOUTH TEXAS

    Question. Aviation training performed in South Texas is important 
for our Navy and for the local community. Are there any plans to 
upgrade these squadrons?
    Answer. The six training squadrons based in South Texas are 
undergoing numerous upgrades.
    Training Squadrons Twenty One and Twenty Two at NAS Kingsville.--
VT-21 and VT-22 will receive the last five production T-45C aircraft 
from Boeing this year while their inventory of T-45A aircraft is being 
upgraded to the T-45C configuration as part of the Required Avionics 
Modernization Program (RAMP). 15 T-45A aircraft have been upgraded to 
the T-45C with 56 aircraft remaining to be completed by mid 2014 at the 
rate of 12 per year. The Navy has submitted a Request for Proposal 
(RFP) for accelerating RAMP production to 18 aircraft per year in order 
to complete the transition by early 2013.
    T-45 simulators are also being upgraded to the T-45C digital 
cockpit configuration. A new Jet Engine Test Cell facility (P-278; 
$12.675 million) is currently under construction at NAS Kingsville.
    Training Squadrons Twenty Seven and Twenty Eight at NAS Corpus 
Christi.--VT-27 and VT-28 will transition from the T-34C primary 
trainer to the T-6B starting in March 2012. The transition will begin 
with the delivery of two simulators in March 2012 with three additional 
simulators to be delivered over the following 2 years. The T-6B 
aircraft will be delivered starting in July 2012 at a rate of three to 
four aircraft per month finishing by August 2015 with a total of 110 T-
6Bs. A new Trainer Facility (P-353; $14.290 million) is currently under 
construction at NAS Corpus.
    Training Squadrons Thirty One and Thirty Five at NAS Corpus 
Christi.--VT-31 and VT-35 are transitioning multi-engine pilot training 
to the upgraded T-44C. 20 T-44A aircraft have been upgraded to the T-
44C configuration with 34 aircraft remaining to be completed by mid 
2013 at the rate of nine per year. Four T-44 simulators are also being 
upgraded to the T-44C digital cockpit configuration.
    Question. What is the plan for equitable sustainment funding for 
South Texas?
    Answer. The sustainment requirement for the Navy is determined by 
the Facility Sustainment Model (FSM) according to OSD policy. The model 
determines the equitable distribution to installations based on the 
total Navy inventory. Commander Navy Region Southeast (CNRSE) received 
$13 million for fiscal year 2009 in support of NAS Corpus Christi and 
NAS Kingsville sustainment efforts.
    Additionally, the following special projects were approved for 
execution in South Texas.
    Fiscal year 2009 Approved CNRSE SRM Projects ($K) NAS Kingsville RM 
002-05 Repair Runway 13L and 31L $6,100.
    Fiscal year 2009 Approved CNRSE ARRA Projects ($K) NAS Corpus 
Christi RM004-04 Repair Various Taxiways $3,283.

                       T-6 OPERATIONAL FACILITIES

    Question. Currently, there are funds in the base budget for 
``operational facilities for T-6. I have been advised that these funds 
will be used for the acquisition of an Outlaying Landing Field (OLF) 
called Goliad at NAS Kingsville, Texas. What is the timeline for this 
acquisition?
    Answer. The Navy is considering acquisition of the Goliad County 
Industrial Airpark (GCIA) to support training requirements of the T-6 
Joint Primary Aircraft Training System that is scheduled to arrive at 
NAS Corpus Christi in July 2012. MILCON P437 ($19.764 million) would 
provide funds for acquiring the GCIA (1,136 acres) and constructing 
supporting facilities. An Environmental Assessment is currently 
underway and is scheduled for completion in September 2009. Assuming a 
subsequent Finding of No Significant Impact, appraisal and title work 
will begin and is projected to be complete by October 31, 2009. 
Negotiations and land acquisition would then occur between November 
2009 and February 2010. Award of the construction contract for 
supporting facilities at Goliad is anticipated in June 2010, with 
completion in June 2012 to support the July arrival of the T-6 
aircraft.
    Goliad County Industrial Airpark (GCIA) is approximately 77 miles 
north of Naval Air Station (NAS) Kingsville and 66 miles north-
northwest of NAS Corpus Christi.

                    AVIATION SUPPORT NAS FORT WORTH

    Question. What is the plan to provide aircraft and support to the 
units at the Naval Air Station at Fort Worth?
    Answer. There are currently seven Navy Reserve aircraft assigned to 
units at NAS JRB Fort Worth (3 C-40s, 3 C-9s, and 1 C-12). This number 
of aircraft represents the planned inventory for permanent Navy Reserve 
aircraft at that base.
    Two Navy construction projects are underway on the base. The first 
project is part of the Base Closure and Realignment (BRAC) legislation 
in 2005 that moved a Navy Air Forces Reserve squadron to Fort Worth 
from NAS Atlanta, Georgia. This project will upgrade a hangar to 
provide additional space necessary to protect the aircraft that 
completed the BRAC move. The second project, the construction of a 
maintenance facility that will support Navy, Marine Corps, and Texas 
Air National Guard aircraft, is 99 percent complete. A third project, 
designed to upgrade a hangar that Navy Reserve units share with other 
services, is approved and pending contract award.

                        STRIKE FIGHTER SHORTFALL

    Question. There is common knowledge in the Navy that there will be 
a significant fighter shortfall in the future if the Joint Strike 
Fighter program isn't kept on track or accelerated. What would the 
impact be on the Navy and Marine Corps if procurement was reduced or 
slowed? If the decisions are made to procure a second engine for the 
Joint Strike Fighter, will this result in delays in overall production 
or result in reductions in other programs?
    Answer. One of the primary avenues for addressing strike fighter 
inventory requirements within current force structure and force 
scheduling requirements is maintaining wholeness of the JSF program 
(2012 F-35B IOC, 2015 F-35 IOC with PB10 procurement ramp to 50 
aircraft per year for a DON total procurement of 680 JSF). It is 
foundational to Naval Aviation's future force structure and a central 
assumption in current strike fighter inventory predictions. Delaying or 
reducing DON JSF procurement would exacerbate Naval Aviation's 
predicted strike fighter trend.
    The Department has not funded the JSF alternate engine effort in 
the fiscal year 2010 President's budget. The various studies that have 
been done by the OSD CAIG, GAO, and IDA are mixed in terms of the 
likelihood the Department would ever recover such an investment. While 
there are many intangible benefits associated with competition and a 
second source engine, the Department continues to maintain that the 
benefits do not outweigh the significant investment to develop, 
procure, and maintain two JSF engines.
    The cost impact of procuring F-136 across the FYDP is estimated at 
$4.7 billion (DOD).
                                 ______
                                 
            Question Submitted by Senator Robert F. Bennett

                      DEMANDS OF IRREGULAR WARFARE

    Question. I am intrigued by the growing significance that 
``irregular warfare'' and so-called ``hybrid campaigns'' play in our 
national defense strategy. In your prepared remarks, you mentioned the 
need to achieve balanced growth through a focus on these new elements, 
as well as continuing to promote more conventional capabilities. How 
specifically do you plan to focus the Navy on the future demands 
imposed by Irregular Warfare? Given what I imagine to be the ever-
evolving nature of these challenges, how effectively is the Navy 
changing and developing its strategies to meet these threats? In what 
ways can Congress help support the Navy in addressing future concerns?
    Answer. As demonstrated by past and ongoing efforts in the 
irregular arena, the Navy is uniquely equipped and postured to have an 
enduring effect in this complex security environment. Today, the Navy 
provides one-half of the combat air sorties in Iraq and Afghanistan, 
protecting our ground troops in an irregular fight. The Navy is 
building partner capacity and sustainable regional maritime security 
force capability as shown in the ongoing Africa Partnership Station 
initiative. The goal of these efforts is to help countries at risk 
become net contributors to maritime security and good governance as 
part of a whole-of-government approach to diminish and counter violent 
extremism and other Irregular Warfare threats. We continue to evaluate 
opportunities in this environment, orient our force, and develop new 
means for applying the general purpose forces to meet irregular 
challenges.
    Two prime examples are the Littoral Combat Ship (LCS) and the Joint 
High-Speed Vessel (JHSV). LCS's inherent speed, agility, shallow draft, 
payload capacity, reconfigurable mission spaces, and air/water craft 
capabilities, combined with its core Command, Control, Communications, 
Computers and Intelligence, sensors, and weapons systems, make it an 
ideal platform for Irregular Warfare and maritime security operations, 
to include counter-piracy missions. JHSV also has some of the same 
characteristics as LCS (i.e. speed, agility, shallow draft, payload 
capacity, reconfigurable mission spaces, and air/water craft 
capabilities). JHSV is built to commercial American Bureau of Shipping 
(ABS) standards with minor military modification. The vessel can be 
operated with a core crew of civilian mariners as a non-combatant. It 
is less robust than LCS in terms of C\4\I system, sensors, and weapons 
systems (.50 cal only). Its ability to offload Army and Marine Corps 
equipment and personnel in austere or degraded ports can contribute to 
Irregular Warfare operations.
    Consistent with the ``Cooperative Strategy for 21st Century 
Seapower'', the Navy is at the front end of aligning its organizations 
and processes to be more adaptive across a broad range of challenges. 
In conjunction with DOD Directive (3000.07), tasking the Services to 
increase their proficiency in Irregular Warfare, and lessons learned 
through operations, the Navy is developing its vision and an 
operational concept for becoming a fundamental enabler to whole of 
government efforts to confront irregular challenges through balanced 
diplomacy, development, and defense.
    As the Navy continues to refine the capabilities and capacities to 
address irregular challenges, Congress can advocate for the Navy's 
employment in preventive maritime security and remain responsive to 
resource requirements that expand the Navy's ability to address future 
concerns. The Navy remains postured to deter near-peer competitors, but 
with 70 percent of the world's population living within 100 miles of 
the coast, irregular challenges will grow in the maritime domain and 
the Navy's role in Irregular Warfare will be pivotal to addressing 
those challenges. As the Navy expands its aperture for Irregular 
Warfare, continued funding will be needed to equip our sailors with the 
training, resources, and equipment they need to carry out Irregular 
Warfare missions.
                                 ______
                                 
              Questions Submitted to Admiral Gary Roughead
            Questions Submitted by Chairman Daniel K. Inouye

                       FUTURE OF TESTING AT PMRF

    Question. The Missile Defense Agency (MDA) together with the Navy 
has conducted Aegis Ballistic Missile Defense (BMD) tests at the 
Pacific Missile Range Facility (PMRF) for years. However, the future of 
that testing at PMRF is in jeopardy since MDA plans to move both Aegis 
and Terminal High Altitude Area Defense (THAAD) tests to the Reagan 
Test Site in Kwajalein, which will be expensive and cause delays in the 
test program.
    What are the costs associated with moving Aegis ballistic missile 
defense tests out of the Pacific Missile Range Facility to the Reagan 
Test Site in Kwajalein? How will the delay in testing caused by moving 
to Kwajalein impact the Aegis BMD program?
    Answer. The Navy has not yet assessed the impact to the program or 
costs associated with moving Aegis BMD tests to the Reagan site; 
however, I anticipate there will be increased logistics and support 
costs for Aegis ships operating in the vicinity of Kwajalein for BMD 
tests.
    While some MDA Aegis BMD tests may require support from the Reagan 
Test Site or the Kodiak Launch Center because the tests require more 
complex, longer-range targets, the future MDA flight test program will 
continue to leverage the significant capabilities of PMRF. The 
communications architecture, data collection assets, logistics 
infrastructure, and ability to draw on an experienced and technically 
superb cadre of test planning and execution professionals have and 
continue to enable Aegis BMD to conduct a progressively more robust and 
realistic flight test program since 1995.
    Question. What is the MDA's rationale for moving the Aegis BMD and 
THAAD tests out of PMRF?
    Answer. Certain tests, such as the upcoming Aegis BMD-THAAD Flight 
Test Mission (FTM-15), may be moved to the Reagan Test Site in 
Kwajalein where MDA can conduct increasingly complex tests with longer-
range targets, and higher engagement altitudes and velocities. Debris 
patterns from tests such as these produce larger debris patterns than 
previous Aegis BMD tests. If conducted at PMRF, these tests could 
result in debris that impacts the Hawaiian Islands in violation of the 
1998 PMRF Enhanced Capability Environmental Impact Statement.
    While MDA may require the use of the Reagan site to conduct BMD 
tests in certain threat-realistic regimes, MDA will continue to use 
PMRF for BMD and THAAD testing. Test plans indicate the majority of 
Aegis BMD testing will take place at PMRF and MDA will conduct more 
tests at PMRF than any other test range.
    Question. What do the Navy and MDA need to do in order to continue 
Aegis and THAAD tests, including the future long range tests, at PMRF?
    Answer. According to developed test plans, Aegis and THAAD testing 
at PMRF will continue and MDA will conduct more tests at PMRF than any 
other test range. However, selected future tests with longer-range 
targets, and higher engagement altitudes and velocities may result in 
debris patterns that could impact the Hawaiian Islands. These tests 
will be considered for the Reagan Test Site.
    Question. What are the potential environmental hazards and risks 
for the Hawaiian Islands if the Navy and MDA continued to do more 
complex testing at PMRF?
    Answer. More complex testing at PMRF may result in debris falling 
on the Hawaiian Islands. PMRF has consistently interpreted the 1998 
PMRF Enhanced Capability Environmental Impact Statement (EIS), as 
allowing ``no debris on island.'' Further EIS analysis of potential 
environmental impacts and safety risk analysis will be required to 
determine the feasibility of more complex tests.

                         SHIP DEPOT MAINTENANCE

    Question. Admiral Roughead, on May 14, 2009, the Committee received 
a letter responding to an authorization requirement certifying that the 
Navy has fully funded the 2010 requirements for ship steaming days and 
projected depot maintenance for ships and aircraft.
    Less than a week after that letter was sent, on May 19, the 
Committee received the Navy's fiscal year 2010 Unfunded Programs List. 
The only items on that list are depot maintenance for aircraft and 
ships in the amount of $395 million. Please explain how there are 
unfunded requirements for depot maintenance if the Committee has a 
letter certifying that sufficient funding has been requested to meet 
mission requirements in fiscal year 2010.
    Answer. The fiscal year 2010 Department of the Navy Assessment of 
Ship Steaming Days, Ship Depot Maintenance and Air Depot Maintenance 
Workload delivered with the May 14, 2009 letter to the Committee 
reported that ship depot maintenance was funded to 96 percent of the 
requirement, accepting some risk in deferred ship maintenance. It also 
reported that aircraft depot maintenance was funded at 100 percent for 
deployed squadrons, 97 percent for non-deployed squadrons, and 67 
percent for engine maintenance. The Navy's fiscal year 2010 Unfunded 
Programs List is consistent with this report. Funding levels for 
maintenance represent the best balance of risk across the entire Navy 
program. The Navy remains committed to funding ship and aviation depot 
maintenance accounts within acceptable risk levels and meeting expected 
service life for our platforms.
    Question. Admiral Roughead, what kind of actions is the Navy 
undertaking to reduce the reliance on supplemental funding for ship and 
aircraft depot maintenance?
    Answer. The Navy is committed to accurately programming and 
budgeting costs into our baseline budget and reducing our reliance on 
supplemental funding. To that end, we continue to refine our 
performance models to better predict future maintenance requirements 
and operating costs for ships and aircraft. These performance models 
undergo a rigorous review process and are validated by an independent 
assessor. In addition to modeling, our Fleet Maintenance Board of 
Directors (FMBOD) provide additional oversight of the requirements 
definition phase for ship depot maintenance to ensure that hull-unique 
requirements are factored into our baseline. The Navy does not budget 
for unanticipated maintenance requirements; we address these emergent 
requirements in the year of execution.

                    AEGIS BALLISTIC MISSILE DEFENSE

    Question. Admiral Roughead, in last year's testimony before this 
Committee, you told us that it was the appropriate time to consider 
migrating the ``fielding wedge'' of Aegis ballistic missile defense 
from the Missile Defense Agency to the Navy. Can you elaborate on what 
the ``fielding wedge'' entails and the status of that migration?
    Answer. The ``fielding wedge'' is the common term MDA had used for 
the Department of Defense-wide account that provided funding for 
fielding Ballistic Missile Defense System assets, such as SM-3 missiles 
and additional Aegis BMD installations. Currently, procurement of SM-3 
missiles is an MDA program and funds in the ``fielding wedge'' have 
been allocated to MDA.
    When the SM-3 procurement program is transitioned to the Navy in 
the future, it may be appropriate for SM-3 procurement funding to 
migrate to the Navy.
    The SM-3 missile used for exo-atmospheric (in space) intercepts is 
launched from our Aegis BMD capable cruisers and destroyers. Over the 
last 5 years MDA and the Navy developed and installed this capability 
in 3 cruisers and 15 destroyers for a total of 18 ships. In the fall of 
2008, due to an increasing demand for BMD capable ships, MDA and the 
Navy collaborated in co-funding the installation of Aegis BMD 
capability in three additional East Coast Aegis ships in 2009 and 2010, 
increasing the Aegis BMD fleet to 21 ships. In the President's budget 
for fiscal year 2010, the Department added $200 million across the FYDP 
to install the Aegis BMD capability on six additional Aegis ships.

                           SURFACE COMBATANTS

    Question. Admiral Roughead, last year this committee supported 
continued funding for the DDG 1000 program and provided $200 million in 
advance procurement funding to restart the DDG 51 program. We 
understand that the Navy has made decisions on how to proceed with 
these programs and has reached an agreement with shipyards on a 
construction plan. Would you explain the agreement and explain how this 
approach will benefit the Navy?
    Answer. After extensive discussions with General Dynamics 
Corporation Bath Iron Works (BIW) and Northrop Grumman Shipbuilding 
(NGSB), the Navy will build all three DDG 1000 Class ships at BIW and 
the first three DDG 51 Class ships under the restarted program at NGSB. 
This agreement will ensure workload stability at both shipyards, 
leverage learning, stabilize and minimize cost risk for the DDG 1000 
program, efficiently re-start DDG 51 construction, facilitate 
performance improvement opportunities at both shipyards, and maintain 
two sources of supply for future Navy surface combatant shipbuilding 
programs.
    This plan most affordably meets the requirements for surface 
combatants, commences the transition to improved missile defense 
capability in new construction, and provides significant stability for 
the industrial base.
    Question. Admiral Roughead, will the DDG 1000 be the precursor to 
the future cruiser?
    Answer. Future surface combatant requirements are being studied. 
Capabilities and technologies inherent in both the DDG 51 class and DDG 
1000 class will inform this study and help us better approach future 
combatant requirements definition and designs.
    Question. Admiral Roughead, how do you plan to employ the three DDG 
1000s once they are delivered to the Navy?
    Answer. The three DDG 1000 ships will be employed globally as U.S. 
Navy Fleet assets in traditional destroyer roles, as well as integral 
members of joint and combined expeditionary forces. The DDG 1000 will 
provide forward presence, deterrence, and support to ground forces 
through all-weather precision gun fire and inland strikes and littoral 
anti-submarine warfare.

                      ADVANCE SEAL DELIVERY SYSTEM

    Question. Last November, the Advanced SEAL Delivery System suffered 
a catastrophic fire which brought into question whether a repair was 
feasible. It now appears that the ASDS could be repaired, although the 
repair could take several years and cost several hundreds of millions 
of dollars.
    Admiral Roughead, do you have firm estimates on what it would take 
to repair the ASDS? Has Special Operations Command and the Navy 
developed a proposal for how to pay that bill?
    Answer. The current ASDS repair estimate is approximately $250 
million. The program cost estimates have been reviewed by cost 
engineers and are considered reasonable for the anticipated repairs, 
however, the Naval Sea Systems Command Program Office will continue to 
refine the cost estimate. USSOCOM is pursuing various options to obtain 
funding to effect the repairs.
    Question. Admiral Roughead, SOCOM is planning to build a new ASDS-
like submarine, with research and development funds requested in this 
budget. Do you believe there is an urgent case to repair the ASDS, 
considering that a new capability is expected to be available soon 
after the ASDS repairs would be completed?
    Answer. The estimated repair timeline would return ASDS to service 
in fiscal year 2012. The acquisition plan for the Joint Multi-Mission 
Submersible has the first vehicle achieving Initial Operational 
Capability in fiscal year 2016. SOCOM has validated numerous missions 
for this capability in the near term. Failure to repair ASDS-1 would 
result a capability gap for four years and, therefore, delay such 
missions.

                            AMPHIBIOUS SHIPS

    Question. Admiral Roughead, what is the current status of the 
seabasing concept?
    Answer. Seabasing concept supports our Maritime Strategy. Seabasing 
enables operational commanders to project capabilities ashore whether 
access is opposed, infrastructure (air and sea ports) are non-existent, 
or a large footprint ashore is politically undesirable.
    In recent years we have expanded upon the seabasing concept. 
Examples of seabasing include: U.S. Fifth Fleet's Combined Task Force 
151 counter-piracy operations, U.S. Pacific Fleet's Pacific Partnership 
humanitarian civic assistance missions, Naval Forces Africa's/Naval 
Forces Europe's Africa Partnership Station initiative to improve 
maritime safety and security in West and Central Africa, U.S. Fourth 
Fleet's Continuing Promise humanitarian civic assistance operation in 
U.S. Southern Command's area of responsibility, the 2006 non-combatant 
evacuation operation from Lebanon, the 2005 Pakistan earthquake 
response, and the 2005 Asian tsunami response.
    The ongoing Seabasing Capabilities Based Assessment (CBA) will 
identify and prioritize capability gaps and propose solutions that 
could enhance our ability to meet future requirements.

                      AMPHIBIOUS LIFT REQUIREMENT

    Question. Admiral Roughead, would you comment on the 38 ship 
amphibious lift requirement, and the future requirements for seabasing?
    Answer. In the January 2009 Report to Congress on Naval Amphibious 
Force Structure, the Commandant of the Marine Corps and I reaffirmed 
that 38 amphibious ships are required to lift the assault echelon of 
2.0 Marine Expeditionary Brigades (MEBs). We agreed to sustain, 
resources permitting, an amphibious force of about 33 total amphibious 
ships in the assault echelon, evenly balanced at 11 aviation capable 
ships, 11 LPD-17 class ships, and 11 LSD 41 class ships. The 33 ship 
force accepts risk in the arrival of combat support and combat service 
support elements of the MEB but has been judged to be adequate in 
meeting the needs of all parties within the limits of today's fiscal 
realities.
    The Navy and Marine Corps continuously evaluate amphibious lift 
capabilities to meet current and projected requirements. In addition to 
our internal reviews, the Quadrennial Defense Review is assessing 
future amphibious force structure requirements.
    Seabasing concept supports our Maritime Strategy. Seabasing enables 
operational commanders to project capabilities ashore whether access is 
opposed, infrastructure (air and sea ports) are non-existent, or a 
large footprint ashore is politically undesirable.
    In recent years we have expanded upon the seabasing concept. 
Examples of seabasing include: U.S. Fifth Fleet's Combined Task Force 
151 counter-piracy operations, U.S. Pacific Fleet's Pacific Partnership 
humanitarian civic assistance missions, Naval Forces Africa's/Naval 
Forces Europe's Africa Partnership Station initiative to improve 
maritime safety and security in West and Central Africa, U.S. Fourth 
Fleet's Continuing Promise humanitarian civic assistance operation in 
U.S. Southern Command's area of responsibility, the 2006 non-combatant 
evacuation operation from Lebanon, the 2005 Pakistan earthquake 
response, and the 2005 Asian tsunami response.
    The ongoing Seabasing Capabilities Based Assessment (CBA) will 
identify and prioritize capability gaps and propose solutions that 
could enhance our ability to meet future requirements.

                  NEXT GENERATION BALLISTIC SUBMARINE

    Question. The President announced in April a new series of nuclear 
arms control efforts, including negotiations on an arms reduction 
treaty with Russia and a goal to eventually retire our nuclear arsenal. 
But the budget request includes $387 million to begin development of 
the next generation ballistic missile submarine, which would go into 
production approximately 10 years from now.
    Admiral Roughead, given these new arms control initiatives and the 
upcoming Nuclear Posture Review, why is this the appropriate time to 
begin developing a new platform for our strategic arsenal?
    Answer. The President has reaffirmed the need to maintain a strong 
strategic deterrent for the foreseeable future. To ensure there is no 
gap in strategic coverage when the OHIO class SSBNs begin to retire in 
2027, we need to start concept and system definition for the OHIO class 
replacement in fiscal year 2010. Starting this work now is consistent 
with the 20-year timeline used to develop, build, and test the existing 
OHIO class submarines. There are key technical and schedule drivers 
that require the fiscal year 2010 start so design and technology can 
mature to support a fiscal year 2019 ship construction schedule. 
Additionally, we will achieve significant program benefits by aligning 
our efforts with those of the United Kingdom as they move forward with 
their SSBN replacement program.
    Question. Admiral Roughead, there are significant concerns about 
the cost of a new ballistic missile submarine. Some are saying that it 
could cost as much as an aircraft carrier. Is there a target cost for 
this new submarine to allow it to fit into our long-term shipbuilding 
plan?
    Answer. No cost target has been established for the SSBN 
replacement. The Navy is currently conducting an Analysis of 
Alternatives (AoA) and will develop an estimated Shipbuilding and 
Conversion, Navy (SCN) cost for the new ballistic submarine after the 
completion of the AoA in early 2010.

                    LONG-TERM PLAN FOR END STRENGTH

    Question. Admiral Roughead, this year the Navy decided to halt its 
personnel reductions, believing the current plan cut too deep. The Navy 
now plans to reach an end strength of 328,800 in fiscal year 2010. What 
is the long term plan for the Navy's end strength?
    Answer. The Navy fiscal year 2010 budget requests baseline end 
strength of 324,400 plus Overseas Contingency Operations (OCO) funding 
to support temporary augmentation requirements of up to 4,400 
additional personnel. Navy manpower requirements are determined by the 
Navy's force structure, assigned missions, and job related tasks; 
therefore, Navy's long-term plan for end strength will be shaped by 
decisions from the Quadrennial Defense Review regarding these factors. 
With QDR guidance, Navy will review job tasks and processes, identify 
manpower and training requirements to support new missions or cease 
work that may no longer be required, and recommend improvements to 
training and distribution processes. Navy is committed to size, shape, 
and stabilize the force to fit current and future manpower requirements 
to meet future threats.
            considerations to resource additional personnel
    Question. Admiral, what tradeoffs is the Navy considering to be 
able to resource these additional personnel?
    Answer. The President's budget submitted to the Congress provides 
the necessary funding for the Navy's requested baseline end strength 
requirements. Navy has requested Overseas Contingency Operations (OCO) 
funding to support temporary augmentation requirements of up to 4,400 
in fiscal year 2010.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

                           COMMON HULL FORMS

    Question. Admiral Roughead, you are on record as being a strong 
advocate for the use of common hull forms to permit longer production 
runs to help reduce shipbuilding costs. As you have said in the past, 
``We can no longer design a different ship for every different mission 
that we have.'' We must plan and build ships more efficiently, and I 
agree with your commonality approach as one means to make headway in 
this area.
    With this in mind, do you see any utility in using the LPD-17 hull 
as the future replacement for joint command ships and dock landing 
ships?
    Answer. In general, the Navy's long range vision for shipbuilding 
includes reducing the types and models of ships in the Fleet, 
maximizing the reuse of ship designs and components, and building ship 
variants that leverage existing production lines. Regarding the LPD-17 
hull, we are currently considering this hull, along with the existing 
T-AKE hull in an Analysis of Alternatives for the replacement of our 
two existing LCC ships.

                   FIRE SCOUT UNMANNED AERIAL VEHICLE

    Question. Admiral Roughead, the Fire Scout unmanned aerial vehicle 
is being developed for deployment aboard Littoral Combat Ships. I have 
been informed the Navy has been testing the Fire Scout at-sea aboard 
frigates and plans to deploy the system aboard the U.S.S. McInerney 
this fall. Could you update the committee on how testing is progressing 
and what operational impact deployment of the system will have for the 
Navy?
    Answer. The Fire Scout is successfully completing developmental 
testing and is on track to deploy in the fall of 2009 on-board the 
U.S.S. McInerney. Three productive ship test periods aboard the U.S.S. 
McInerney have been completed. Systems testing of the Vertical Takeoff 
and Landing Tactical Unmanned Aerial Vehicle (VTUAV) Command and 
Control, Data Links, landing sub-system, flight deck procedures, and 
Ground Control Station were performed during the February 2009 at sea 
period. Dynamic Interface testing was completed in the April 2009 and 
May 2009 at sea periods, clearing an operationally acceptable flight 
envelope.
    During the U.S.S. McInerney deployment, the Fire Scout will enhance 
the ship's war fighting capability by using its sensors and persistence 
to increase battle space awareness. Specifically, during drug 
interdiction operations, the Fire Scout can use its speed and electro-
optical/infra-red (EO/IR) sensor to maintain visual contact on high 
speed trafficking boats and provide evidence suitable for prosecution.

                        FIRE SCOUT UAV BENEFITS

    Question. Admiral Roughead, do you believe there are benefits to 
deploying Fire Scout aboard all air-capable ships?
    Answer. Fire Scout has capabilities that are applicable to all air-
capable ships. Presently, the requirement and funding support 
integration on the LCS class and one frigate deployment in support of 
Fire Scout Initial Operational Test and Evaluation. Future plans for 
Fire Scout to be deployed on additional ships will be guided by the 
operational value, other Navy priorities and our budget.

                          LITTORAL COMBAT SHIP

    Question. Admiral Roughead, the original cost estimate for the 
Littoral Combat Ship was $220 million per ship. The Navy's fiscal year 
2010 budget request includes the procurement of three Littoral Combat 
Ships funded at a congressionally mandated cost cap of $460 million per 
ship. However, current estimates are that the fiscal year 2010 ships 
will cost about $100 million more per ship than you have requested. How 
does the Navy intend to execute the fiscal year 2010 Littoral Combat 
Ship request given this shortfall?
    Answer. Navy is actively engaged with industry to implement cost 
reductions with the intent to procure the fiscal year 2010 ships within 
the $460 million cost cap. We have formalized a cost reduction effort 
that primarily targets cost drivers in design, Navy specifications, and 
program management costs. Until manufacturing efficiencies can be 
achieved for the follow on ships Navy may require some legislative 
relief regarding the fiscal year 2010 LCS cost-cap.

                     JOINT HIGH SPEED VESSEL (JHSV)

    Question. Admiral Roughead, the Administration's budget proposal 
requests two Joint High Speed Vessels, one funded by the Navy and one 
funded by the Army. Would you describe to the committee the 
Department's procurement plans for these vessels? In addition, please 
explain the capability strengths and weaknesses of the Joint High Speed 
Vessel and the sea state limitations?
    Answer. The current requirement for the Joint High Speed Vessel 
(JHSV) program is 20 ships: 15 ships to be operated by the Navy and 5 
ships to be operated by the Army. The Detail Design and Construction 
contract for the first vessel, funded in fiscal year 2008 for the Army, 
was awarded to Austal USA on November 13, 2008. Funding for the second 
and third ships (one Navy and one Army) was provided in the fiscal year 
2009 Defense Appropriations Act. Funding for fourth and fifth ships 
(one Navy and one Army) is included in the fiscal year 2010 budget 
request. Delivery of the first Army JHSV is expected in 2011. Delivery 
of the first Navy ship is expected in 2012.
    JHSV will be a high-speed, shallow-draft surface ship that will be 
able to rapidly transport medium payloads of cargo and personnel in-
theater, reconfigure and rearrange loads when missions change and 
access to port facilities that are too austere or shallow for other 
larger auxiliary ships. JHSV, while performing a variety of lift and 
support missions, will be a non-combatant ship that will operate in 
permissive environments or in higher threat environments under the 
protection of combatant vessels and other Joint forces. JHSV is a 
commercial-design and does not require the development of any new 
technology. JHSV is being built to American Bureau of Shipping (ABS) 
High Speed Naval Craft Code. It has no combat system capability.
    JHSV capabilities include:
  --High speed transits of 35 knots.
  --Open architecture and rapid reconfigurability for Command, Control, 
        Communications, Computers, and Intelligence (C\4\I).
  --High payload fraction and large, rapidly reconfigurable, payload 
        volume.
  --Shallow 13-foot draft.
  --Support for helicopter operations; and at-sea replenishment of fuel 
        and cargo extended range transits of greater than 3,000 nm in 
        up to Sea State 3.
                                 ______
                                 
            Question Submitted by Senator Robert F. Bennett

                 F/A-18 E/F'S RETIRE AND JSF SHORTFALL

    Question. Admiral Roughead, considering the numerous challenges 
currently facing the Navy, I am impressed by the variety of tasks that 
you undertake, particularly the sizable portion of missions flown by 
Navy airmen over Afghanistan. I am concerned by the drop in the number 
of airframes that will be available to the Navy due to battle-worn F/A-
18 E/F's having to be retired sooner than anticipated. While I 
understand the fundamental role that the new F-35 Joint Strike Fighter 
(JSF) will play in addressing this shortfall, how do you plan to 
maintain the Navy's ability to carry out its air operations should the 
JSF program become significantly delayed? What actions are currently 
being taken to address this problem? How can the Congress assist you in 
meeting this responsibility?
    Answer. The Navy is experiencing a decrease in strike fighter 
capacity due to the continued high pace of operating our older F/A-18 
A-D aircraft. The timely delivery of the Joint Strike Fighter is 
critical to our ability to meet operational demands for expeditionary 
strike and maintain a mix of strike fighter aircraft on our carrier 
decks.
    Until JSF reaches initial operating capability in 2015, we are 
managing our existing strike fighter inventory by extending service 
life of our F/A-18A-D Hornets beyond their originally-designed 6,000-
hour service life to 8,000 flight hours. There is also the potential to 
extend the service lives of some of our A-D Hornets further, to 10,000 
hours.
    The Quadrennial Defense Review (QDR) will review TACAIR 
requirements across all the Services to include the required number of 
carrier-capable strike fighters our nation needs. Navy will then do a 
cost-benefit analysis to determine the best option for buying 
additional life in our strike fighter inventory: through service life 
extensions of existing aircraft, through procurement of new aircraft, 
or through a combination of these two options. The fiscal year 2010 
budget contains appropriate funding to continue development and 
procurement of JSF and buy an adequate number of F/A-18 aircraft to 
keep that production line open until QDR completes its review.
                                 ______
                                 
             Questions Submitted to General John T. Conway
            Questions Submitted by Chairman Daniel K. Inouye

                       MARINE CORPS END STRENGTH

    Question. General Conway, as the Army and Marine Corps complete 
their planned end strength growth, there has been discussion about 
whether the Army should continue to grow to sustain the current 
operational tempo. Has the Marine Corps undertaken a similar analysis? 
Do you think the Marine Corps has reached an end strength that is large 
enough to sustain operations and relieve the strain on the force?
    General, what does the increased commitment to Afghanistan mean for 
the end strength of the Marine Corps? How will this affect the Marine 
Corps ability to sustain its current commitments?
    Answer. The Marine Corps has undertaken similar analysis by 
conducting the Uncompensated Review Board (URB) for the last 2 years. 
The URB conducts an annual review and validation of the Marine Corps' 
capabilities to assess new active duty uncompensated force structure 
requirements and prioritize these adjustments against my approved force 
structure plan. If analysis supports, the URB will recommend that the 
end strength of the Marine Corps be increased. Following the URB, a 
standing DOTMLPF (Doctrine, Organization, Training, Materiel, 
Leadership and Education, Personnel and Facilities) Working Group is 
overseeing the implementation and synchronization of this plan. This 
working group consists of a cross section of my staff and the Marine 
Forces Commanders.
    The Marine Corps has reached an end strength that is large enough 
to sustain operations and relieve the strain on the force. I continue 
to stress that the growth to 202,000 active-duty Marines will enable 
the Corps to meet current and future challenges in an increasingly 
demanding operational environment. Growth to 202,000 gives the Marine 
Corps the capacity to deploy forces in response to contingencies and to 
support security cooperation efforts with our partners across all 
theaters, Our forces are multi-capable, transitioning seamlessly from 
fighting conventional and hybrid threats to promoting stability and 
mitigating conditions that lead to conflict. By building to 202,000, we 
improve training, upgrade readiness, and enhance the quality of life 
for all our Marines and their families by allowing them more recovery 
time between deployments.

                 MARINE CORPS SUICIDE AND DIVORCE RATES

    Question. General Conway, the Marine Corps' suicide and divorce 
rate have risen sharply this past year. It appears that the strain of 
frequent deployments is beginning to show in the emotional health of 
our Marines. What more can the Marine Corps do to support Marines and 
their families?
    General, the Marine Corps what additional support could the 
Committee provide to help alleviate the strain on the force?
    Answer. There is no question that continued OPTEMPO puts stress on 
the force, not just for deploying Marines, but for those who remain 
behind and face increased workloads. There were year on year increases 
for 2008 in suicide incidents and divorces.
    Health of the Force.--Marine Corps commanders are fully engaged in 
promoting the psychological health of our Marines, Sailors, and family 
members. To enable leaders, individuals, and families to prepare for 
and manage the stress of operational deployment cycles, the Combat and 
Operational Stress Control (COSC) Program provides a set of policies, 
training, and tools to prepare for the upcoming deployment, recognize 
stress reactions early and manage them more effectively within 
operational units. Marine leaders are assisted by mental health 
professionals, chaplains, and COSC regional training coordinators in 
the operating forces, to detect stress problems in warfighters as early 
as possible, and are provided the resources to effectively manage these 
stress problems in theater or at home base. Resources are also provided 
for the family members left behind to provide support, communications, 
and information flow.
    This training is being incorporated in formal Professional Military 
Education schools for both officer and enlisted Marines, such as the 
Expeditionary Warfare School and the Staff Non-commissioned Officer 
Advanced Course. We have staffed full-time COSC training coordinators 
at each of our Marine Expeditionary Force headquarters.
    To assist with prevention, rapid identification, and effective 
treatment of combat operational stress, we are expanding the 
Operational Stress Control and Readiness (OSCAR) Program--our program 
of embedding mental health professionals in operational units--to 
directly support all active and reserve ground combat elements. This 
year, we begin placing mental health professionals organic to the 
active Divisions and Marine Forces Reserve. By fiscal year 2011, full 
OSCAR teams will be fielded to the Infantry Regiment level. OSCAR will 
eventually be expanded to all deployed elements of the Marine Air-
Ground Task Force.
    Our Marine Operational Stress Training (MOST) program was developed 
with Tri-Marine Expeditionary Force (TRI MEF) Commanders based on the 
USMC COSC stress continuum model, now adopted by OSD. Our program 
supports the full deployment cycle by focusing on Leaders, Marines and 
families from pre-deployment through post-deployment, providing 
information on what's to come, what to look for, and what to do when 
stress reactions appear. COSC concepts have also been incorporated in 
family readiness training.
    Suicide.--We are taking proactive action to address the issue of 
suicide. The Sergeant Major hand-selected a senior enlisted Marine 
leader to add unique insight to our efforts in suicide prevention, and 
the Assistant Commandant (ACMC), through the Executive Safety Board, is 
directing a series of initiatives which are currently in accelerated 
development:
  --Training.--Since 90 percent of suicides have tended to occur in the 
        ranks of E1-E5 Marines, a half-day, high impact, relevant 
        workshop has been designed to reach the NCO/FMF Sailor 
        community and facilitate their work with junior enlisted 
        Marines. This training is expected to be ready by this summer. 
        In March, I directed that an all-hands training on suicide 
        prevention be conducted throughout the Corps.
  --Leadership Suicide Prevention Video Messages.--All O6 and higher 
        commanding officers have been directed to produce videos 
        focusing on leadership and suicide prevention to set the tone 
        for stigma reduction and an imperative of prevention.
  --Integration of Suicide Prevention and the Marine Corps Martial Arts 
        Program (MCMAP).--A prevention message was incorporated in the 
        MCMAP program in a manner appropriate and engaging to reach all 
        Marines.
  --Relationship Distress Hotline.--Relationship problems, both 
        romantic and marital, remain the number one associated stressor 
        related to suicidal behavior. Suicide is complex and while this 
        is not the only problem, it is the most common. A hotline by 
        phone, email and live internet chat that is marketed 
        specifically to assist with relationship distress and questions 
        may reduce risk of suicide related behaviors that result from 
        this type of stress. In the interim, we have partnered with The 
        Outreach Call Center of the Defense Center of Excellence on 
        Psychological Health and Traumatic Brain Injury, and Military 
        OneSource to strategically market their relationship building 
        resources to Marines and family members.
    We will continue to aggressively pursue suicide prevention 
initiatives; reevaluate existing programs designed to reduce the 
stressors most correlated with suicidal behavior; develop and 
distribute new prevention programs; and refresh and expand training 
materials.
    Divorce.--Relationship problems leading to distress may result from 
difficulties in communication, parenting, sexual intimacy, finances or 
immaturity. The average age of married enlisted Marines is 27 and the 
average age of Marine Corps spouses is 28, the youngest of all the four 
military services. Coupling this young age with the demands of a 
military lifestyle can result in significant challenges for Marine 
couples.
    The Marine Corps takes a proactive stance in supporting healthy 
marital relationships. Most leaders are keenly aware of how 
relationships can impact mission readiness. When Marines are confident 
that their relationships are in good standing and their spouses are 
supported, they are able to focus on the mission at hand.
    Leaders encourage participation in such marital support programs 
as:
  --Marriage Enrichment Workshops.--The chaplain and Marine Corps 
        Family Team Building offer this workshop which is built on the 
        very successful Personal Relationship Enhancement Program 
        (PREP). This program focuses on skill building in a fun and 
        relaxed environment.
  --Face to Face Counseling Support.--Services of MCCS One Source 
        supplement the existing support system for Marines and their 
        families by providing assistance 24 hours a day, 7 days a week 
        via toll free telephone and Internet access. In addition, MCCS 
        One Source supports geographically dispersed Marines and their 
        families (recruiters, Inspector and Instructor staffs, and 
        mobilized reservists) who do not have traditional services 
        available. Military OneSource provides counseling support, 24/
        7, 7 days a week, for anyone seeking to learn more about 
        building a strong relationship that lasts. One Source can 
        provide assistance through referrals to military and community 
        resources, online articles, newsletters, and workshops, prepaid 
        booklets and audio recordings.
  --Couples Counseling.--The Counseling Center at Marine and Family 
        Services provides individual, marriage, and family counseling 
        as needed. Services are intended to be solution-focused on 
        well-defined problem areas amenable to brief intervention and 
        rehabilitation, such as adult adjustment issues, crisis 
        intervention, academic and occupational problems, parent-child 
        communication, grief and loss issues, and nonviolent marital 
        problems. Licensed clinical providers assist clients to 
        identify and clarify the nature and extent of problems based on 
        an initial assessment, and to develop a collaborative plan for 
        solving problems; and
  --Spouse Support.--These programs are aimed at reducing the social 
        isolation many young spouses experience and help to establish 
        more realistic expectations of what marriage in the Marine 
        Corps is all about. Some of these programs include:
    --L.I.N.K.S.--A Marine Corps Family Team Building program that 
            offers an orientation to the Marine lifestyle for all 
            spouses. The orientation includes spouse-to-spouse 
            mentorship and small group discussion, and provides a 
            positive, supportive environment for spouses of all ages to 
            learn to manage the demands of Marine Corps life and to 
            work together as team;
    --Key Volunteer Network--This program is an integral part of the 
            commander's official family readiness program and is the 
            primary communication link between the Commanding Officer 
            and unit families for the enhancement of mission readiness. 
            The Network supports families on the home front when 
            Marines are deployed. Not only does the Network provide 
            information on local programs and services but also 
            provides support through unit based activities;
    --Spouse Learning Series.--One-day seminar provided by MCCS and 
            hosted by Marine Corps Family Team Building to equip 
            spouses with techniques and skills that help to develop 
            leadership skills.

                            AMPHIBIOUS SHIPS

    Question. General Conway, the ability to operate independently from 
the sea is a core capability of the Navy and the Marine Corps. The 
Marine Corps is developing new tactical vehicles and aviation systems 
for future warfighting capability. Are you concerned about these 
systems making the Marine Corps is too heavy, and that our amphibious 
lift capability may be inadequate to allow the Marine Corps to continue 
to operate as units from ships?
    Answer. Yes, I'm concerned that we are getting heavier. As a result 
of our current operations in Iraq and Afghanistan, much of the 
equipment we have has gotten heavier because of our efforts to provide 
more protection for our Marines and Sailors. This increased weight, 
coupled with increased dimensions, affects how we are able to embark on 
amphibious ships as well as prepositioning ships and other strategic 
sealift platforms and how we tactically move ashore. Our requirement 
for square foot vehicle stowage on Assault Echelon amphibious ships has 
grown, along with the weight of the vehicles; consequently, we are 
working to find the right balance between protection and 
transportability for our future forces. Further, we are examining how 
tactical movement ashore (assault) times have been affected because of 
weight for the vertical landing and by both weight and vehicle square 
for surface landings.

          MINE RESISTANT ALL TERRAIN VEHICLES FOR AFGHANISTAN

    Question. General Conway, Mine Resistant Ambush Protected Vehicles, 
referred to as ``MRAPs'' in short, have saved thousands of lives in 
Iraq. To address the complex terrain in Afghanistan, the Department 
will purchase a lighter version of the MRAP vehicle, known as the ``M-
ATV''. But we are hearing that the Marine Corps is opting to upgrade 
its MRAPs instead of purchasing the lighter M-ATV for troops deploying 
to Afghanistan. Can you tell us the advantages of this strategy?
    Answer. We are upgrading current Mine Resistant Ambush Protected 
(MRAPs) vehicles with a modified independent suspension system that is 
being used on the highly reliable Medium Tactical Vehicle Replacement 
(MTVR) vehicles. This will significantly increase the vehicles' off 
road mobility while retaining crew survivability. The MRAP All Terrain 
Vehicle (M-ATV) will be used to complement the other tactical vehicles 
that are already in the theater of operations. We anticipate awarding 
M-ATV contracts by the end of June 2009.
    Question. General Conway, can you assure the Committee that 
upgraded MRAPs will provide the same level of force protection for our 
troops as the newer, lighter M-ATVs?
    Answer. Yes. Survivability is always a priority in our ongoing 
spiral development efforts. All MRAPs undergo rigorous testing and 
evaluation to ensure the greatest survivability capabilities are 
available to our forces to meet the warfighters' requirements.
    Question. General Conway, the original MRAP program was managed 
through the Marine Corps. The M-ATV program is being managed through 
the Army. What caused this transition and how is it affecting the 
Program Office's ability to move forward on the program?
    Answer. The MRAP program continues to be managed by the Marine 
Corps. The Office of the Secretary of Defense (OSD) determined the M-
ATV is within the MRAP family of vehicles. MRAP Joint Program Office 
(JPO) personnel are leveraging the resources of the U.S. Army Tank-
automotive and Armaments Command (TACOM) Contracting Center to conduct 
the competitive acquisition and award the contract.

                 MARINE CORPS MOVE FROM OKINAWA TO GUAM

    Question. General Conway, the original plan to move Marines from 
Okinawa to Guam included moving 8,000 and 9,000 dependants. Are those 
numbers still accurate or has the size of the move been reexamined.
    Answer. The relocation of Marine units to Guam alleviates growing 
encroachment issues on Okinawa and creates a long-term, enduring force 
posture in the Pacific. The Agreed Implementation Plans (AIPs) calls 
for approximately 8,000 Marines to relocate to Guam and approximately 
10,000 Marines to remain on Okinawa.
    Many things have changed since the planning and development of the 
2006 Roadmap and associated AIPs. These changes have forced planners to 
re-evaluate what is the proper force lay down in the Pacific, 
specifically the appropriate array of MAGTF units to properly support 
the PACOM commander's operational requirements. While the Marine Corps 
is executing strictly toward the AIP force laydown, it looks forward to 
opportunities that may re-examine the force posture, such as the 
Quadrennial Defense Review and the Deputy Secretary of Defense Guam 
Oversight.
                                 ______
                                 

              Questions Submitted by Senator Thad Cochran

                      AMPHIBIOUS SHIP REQUIREMENTS

    Question. General Conway, based on current major contingency plans 
what is the requirement for amphibious ships, and how can these plans 
be conducted with the current number of amphibious ships?
    Answer. The Marine Corps' contribution to the Nation's forcible 
entry requirement is a single, simultaneously-employed two Marine 
Expeditionary Brigade (MEB) assault capability--as part of a seabased 
Marine Expeditionary Force (MEF). Although not a part of the MEF 
Assault Echelon (AE), a third reinforcing MEB is required and will be 
provided through MPF(F) shipping. Each MEB AE requires seventeen 
amphibious warfare ships--resulting in an overall ship requirement for 
thirty-four amphibious warfare ships. To make thirty-four operationally 
available amphibious ships based on a CNO approved maintenance factor 
of 10 percent, four additional ships are required for an inventory of 
thirty-eight amphibious ships which also covers our forward presence 
requirement. The Navy and Marine Corps have agreed to this requirement 
in a January 7, 2009 letter to members of the House Appropriations 
Committee which also states that: ``Understanding this requirement, and 
in light of the fiscal constraints with which the Navy is faced, the 
Department of the Navy will sustain a minimum of 33 total amphibious 
ships in the assault echelon. This 33 ship force accepts risk in the 
arrival of combat support and combat service support elements of the 
MEB, but has been adjudged to be adequate in meeting the needs of the 
naval service within today's fiscal limitations.''
    Again, this arrangement accepts some degree of risk but is feasible 
with the assault echelons being rapidly reinforced by Maritime 
Prepositioning Force Future (MPF-F).
    Question. General Conway, what is the current readiness status of 
amphibious ships particularly with crew manning and material readiness?
    Answer. This question is more appropriately aimed at the CNO and 
his staff to answer the details; however, I will say that amphibious 
class ships are among the ships with the highest Operational tempo 
(OPTEMPO) in the Surface Fleet.
    Question. General Conway, how does the move of Marines from Okinawa 
to Guam change or shape the requirement for amphibious ships either in 
their homeport lay down and/or numbers?
    Answer. The Pacific realignment will result in a disaggregation of 
III MEF forces on Okinawa, Guam, and Hawaii. This disaggregation 
creates inherent challenges in sustaining MAGTF core competencies and 
rapidly responding to contingencies in the theater. The realignment 
highlights the need for increased theater mobility, which is provided 
by a combination of tactical airlift, high-speed vessels, amphibious 
ships, black-bottom shipping (MSC), and strategic airlift. The quantity 
and mix of theater mobility assets, some of which may be sourced 
globally, will be reviewed as the force laydown, training requirements, 
Theater Security Cooperation plans, and OPLANS are refined as we 
progress with Pacific realignment planning. Currently, amphibious 
shipping is home stationed in Sasebo, Japan, and Honolulu, Hawaii, to 
support Marines on Okinawa and Hawaii, and could be used to support 
Marines on Guam with additional transit time. A review of amphibious 
shipping support for Marine forces based on Guam has not been initiated 
as key issues, such as force laydown and training, are still being 
studied within the Quadrennial Defense Review.
    Question. General Conway, does the Army or Special Operations 
Command have any requirement for amphibious ships? If not, why not? And 
if yes, how are their requirements factored into the overall program?
    Answer. According to our research, the U.S. Army and USSOCOM 
currently have no requirement for amphibious ships. The U.S. Marine 
Corps provides the nation's ``forcible entry from the sea,'' it is our 
core competency.
    Question. General Conway, we have seen amphibious ships used for 
non-traditional functions such as disaster relief and humanitarian-
assistance. What other missions or requirements exist for amphibious 
ships; could they be used for, mine counter measure ships, Afloat 
Forward Staging Bases for Special Operations Forces, Theater Security 
Cooperation Platforms, and Marine Air-Ground Task Force. Would these 
missions or requirements change the overall requirement for amphibious 
ships?
    Answer. Broadly stated, there are three competing demands for 
amphibious ships. The first two, maintaining persistent forward 
presence and episodically aggregating sufficient numbers to deliver the 
assault echelon in a joint forcible entry operation, are both tied to 
lifting Marine air-ground task forces. The third demand is tied to key 
joint enablers.
  --Forward Presence.--Amphibious forces in general, and Amphibious 
        Ready Groups with embarked Marine Expeditionary Units (ARG/MEU) 
        in particular, have proven themselves invaluable for regional 
        deterrence and crisis response. In recent years amphibious 
        ships have also demonstrated their utility for missions such as 
        security cooperation and civil support to include humanitarian 
        assistance and disaster relief. They allow the United States to 
        discretely interact with partner nations without the unintended 
        consequences often generated by a large footprint ashore in 
        politically sensitive areas. As a result, in this era of 
        declining overseas access the geographic combatant commanders' 
        (GCC) have an increased demand for forward-postured amphibious 
        forces. The cumulative GCC demand for forward-postured 
        amphibious forces can be met with an inventory of 38 ships.
  --Assault Echelon.--An amphibious inventory of 38 ships will also 
        support Marine Corps forcible entry requirements. The assault 
        echelon of a Marine Expeditionary Force can be accommodated on 
        34 ships. Our challenge is one of aggregating those 34 ships 
        from an inventory of 38. Essentially, that means we can have no 
        more than four ships--10 percent of the inventory--in 
        maintenance at any one time and that the United States is 
        willing to sail the remaining 34 ships away from all other 
        global commitments.
  --Joint Enablers.--Extant operation plans and recent experience prove 
        the need for amphibious ships specifically dedicated to support 
        Special Operations Forces (SOF) and Mine Countermeasure (MCM) 
        forces. Inasmuch as SOF and MCM support are critical enablers 
        for forcible entry, these requirements must be supported either 
        by the acquisition of additional amphibious ships--over and 
        above the 38 needed to satisfy Marine Corps forward presence/
        assault echelon requirements--or the provision of other 
        suitable platforms.

                 MEDEVAC MISSION SUPPORT IN AFGHANISTAN

    Question. General Conway, the issue of providing timely medical 
care for our service members in combat is of great concern to us all. A 
major contributor to being able to providing timely care is associated 
with having full medical evacuation capabilities in Theater. Have you 
seen any improvement in lowering the response time in Afghanistan for 
medical evacuations? If so, do these efforts meet your expectations for 
providing support to the additional personnel being stationed in 
Afghanistan and what other improvements are planned to support the 
medical needs of additional ground forces?
    Answer. I am very pleased with the procedures initiated by CENTCOM 
to monitor the Secretary of Defense's directed 60-minute MEDEVAC 
standard. We have to give the newly arriving forces time on the ground 
to become Fully Operational Capable (FOC) before improvements can be 
measured. When the units are declared FOC and start conducting 
missions, CENTCOM will analyze their progress and conduct reassessments 
on capabilities including MEDEVAC. I am of the belief that the initial 
medical and MEDEVAC forces requested by USFOR-A and CENTCOM as well as 
the additional Forward Surgical Teams and MEDEVAC recommended by the 
Joint Staff and approved by the Secretary of Defense are capable of 
providing care to the additional force structure and will meet the 
directed 60-minute MEDEVAC standard. The standard is measured from 
``point of injury'' to ``surgical intervention.''

             MARINE CORPS CARGO UNMANNED AIR SYSTEMS (UAS)

    Question. General Conway, I have been informed that the Marine 
Corps is interested in an unmanned aerial system for cargo operations 
for troop resupply in Afghanistan and that you hope to have this 
capability by February of next year. Could you please discuss the 
Marine Corps' immediate need for this unmanned air cargo system in 
Afghanistan? We would also like to hear more about the requirements and 
potential solutions for this capability.
    Answer. The objective of the Marine Corps Warfighting Lab's (MCWL) 
effort is to find a technology capable of removing, in whole or in 
part, the need to move supplies to Forward Operating Bases (FOBs) by 
ground transportation. The focus is ``getting trucks off the road'' as 
soon as possible in Afghanistan to reduce the vulnerability of supply 
lines. In general, the capability need is for an unmanned air vehicle 
to be able to deliver 10,000-20,000 pounds of cargo in a 24 hour period 
to a round-trip distance of 150 nautical miles and hover in ground 
effect/hover out of ground effect (HIGE/HOGE) at 12,000 feet density 
altitude (DA) but fly at 15,000 feet DA with a full cargo load.
    In the next 6 months we hope to demonstrate currently available 
technologies that may be operationally relevant. We will then 
transition the successful technologies to the appropriate acquisition 
command immediately thereafter for future operational deployment. The 
Naval Research Enterprise is also investigating longer term technology 
candidates for future capabilities.
    MCWL is currently in the process of conducting a source selection 
to select vendor(s) capable of demonstrating the capability of 
providing an immediate cargo unmanned aerial systems. For the 
demonstration, a single airframe must deliver at least 2,500 lbs of 
cargo in a 6 hour period to a location 75NM from the starting point 
(which is a representation of 10,000 lbs in a 24 hour period with a 
round-trip distance of 150 nautical miles), Beyond Line Of Sight (BLOS) 
from origination. The System shall be able to terminally control the 
vehicle from a destination location which is BLOS from the launch 
location with a remote controller. Terminal control will consist of the 
following options at the destination location: Deliver at programmed 
location, abort delivery, and return to launch location with original 
load. The smallest element in a cargo package shall be equivalent to at 
least a standard wood pallet (48 by 40 in. Stack  67 in.) of cubic 
volume.
    It is anticipated that a contract(s) will be awarded on or about 17 
July 2009.

                     JOINT HIGH SPEED VESSEL (JHSV)

    Question. General Conway, given the sea state limitations of the 
Joint High Speed Vessel, what is the impact or potential impact on 
Marine operations and training.
    Answer. According to the JHSV Capability Development Document, it 
is designed for a speed of 35 knots in a sea state 3 (SS3) carrying the 
threshold payload of 600 short tons. The high speed of the vessel 
allows it to maneuver and change course to mitigate forecasted higher 
sea conditions allowing it to maintain the mission profile. The HSV-2 
Swift supported humanitarian assistance operations in Beirut, Lebanon 
in 2006 as part of a record breaking 2-year deployment period (2005-
2007) in which Swift successfully completed various missions in support 
of EUCOM, CENTCOM, PACOM, and SOUTHCOM. Further, the WestPac Express 
continues to provide critical intra-theater sealift support to III MEF, 
so there is no impact on our operations and training.
                                 ______
                                 
            Question Submitted by Senator Robert F. Bennett

                                  V-22

    Question. General Conway, in your efforts to ``modernize for 
tomorrow,'' I am interested in the progress being made on a tactical 
vehicle that readily fits inside the V-22. What is the status of 
identifying and procuring an effective vehicle that meets Marine 
requirements? What assistance can Congress provide to ensure that our 
V-22 transported assault forces have the mobility that they need to 
carry out their mission?
    Answer. The Internally Transported Vehicle (ITV) is a family of 
vehicles developed and procured by the Marine Corps to provide a 
deployed Marine Air Ground Task Force (MAGTF) with a ground vehicle 
that is internally transportable in the MV-22 and CV-22 tilt-rotor 
aircraft, CH-53, and MH-47 aircraft. The vehicle serves primarily as a 
high mobility weapons-capable platform to support a variety of 
operations (reconnaissance, raids, etc.) and to provide ground units 
greater mobility, thereby enhancing their mission performance and 
survivability. The ITV was judged Operationally Effective and 
Operationally Suitable during Operational Testing in early 2008, and 
met all Key Performance Parameters and critical requirements. Full Rate 
Production (FRP) for the Light Strike Variant (LSV) of the ITV was 
granted by the Milestone Decision Authority (MDA) on July 10, 2008.
    To date a total of 21 LSVs have been fielded to the following east 
coast units; MarSoc (10), 2nd Marines (6), and 1/10 (5). Currently 
another 15 LSVs are being fielded to 1/9. New Equipment Training with 
1/9 will be completed on June 25, at which point Initial Operational 
Capability (IOC) will have been achieved for the ITV (LSV). IOC is 
achieved when, ``one Infantry Battalion assigned to a MEU is fully 
equipped with the ITV, the assigned mechanics and operators have 
received initial training, and sufficient repair parts are in place to 
support operations,'' as defined by the vehicle's requirement document. 
Fielding will begin to I MEF units in late September/early October with 
the exact date being determined at the upcoming I MEF Fielding 
Conference.
    The goal of the fielding effort for the first year is to establish 
a foundation in the operating forces to be able to support East and 
West Coast MEU deployments, the MarSoc requirement, and 1st and 2nd 
Recon Battalion's operational requirements. Fielding of LSVs will then 
continue to III MEF units. At this point the program is on track to 
purchase and field about 80-100 vehicles per year. Our current 
requirement (Approved Acquisition Allowance-AAO) is 729 vehicles.
    I ask for your continued support for all current and future funding 
requests that allow us to field this vehicle to our active and reserve 
units as quickly as possible.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. The subcommittee will stand in recess 
until Thursday, June 4, and at that time we'll hear from the 
Secretary of the Air Force and the Chief of Staff of the Air 
Force on the fiscal year 2010 budget request. With that, thank 
you very much.
    [Whereupon, at 11:25 a.m., Tuesday, June 2, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Thursday, June 4.]

</pre></body></html>
